No. __-____

IN THE

Supreme Court of the United States
>>>>

MATTHEW NIX,
Petitioner,
v.

UNITED STATES

OF

AMERICA,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI

Gregory A. Nahas, Esq.
Counsel of Record
PARDALIS & NOHAVICKA, LLP
Counsel for Petitioner
3510 Broadway, Suite 201
Astoria, New York 11106
718-777-0400
greg@pnlawyers.com
September 15, 2021

i
QUESTIONS PRESENTED
1.

Whether a new trial is warranted pursuant to
this Court’s decision in McDonough Power
Equipment, Inc. v. Greenwood, 464 U.S. 548
(1984), only upon circumstances evidencing
intentional juror dishonesty for the purpose of
securing a seat on the jury, or, alternatively,
whether a new trial is warranted even upon a
showing of intentional dishonesty for an alternative purpose or inadvertent juror dishonesty.

2.

Whether McDonough requires a showing of
actual juror bias before a new trial may be
granted, or, alternatively, whether a showing
of implied or inferred juror bias is sufficient to
demonstrate a valid basis for a challenge for
cause to warrant a new trial.

3.

Whether attempted robbery under the Hobbs
Act, 18 U.S.C. § 1951, qualifies as a “crime of
violence,” meaning that it “has as an element
the use, attempted use, or threatened use of
physical force against the person or property of
another” when analyzed under the “categorical” or “elements” analytic.

ii
TABLE OF CONTENTS
Page

QUESTIONS PRESENTED ..........................

i

TABLES OF AUTHORITIES ........................

iv

OPINIONS BELOW ......................................

1

JURISDICTION ............................................

1

STATUTORY PROVISIONS INVOLVED .....

1

INTRODUCTION ..........................................

2

BACKGROUND ............................................

4

REASONS FOR GRANTING
THE PETITION .......................................

5

A. Courts are Divided over
McDonough’s Application ..................

5

B. The Second Circuit Misapplied
McDonough in the Instant Matter ....

8

i.
ii.

The Second Circuit Misapplied
McDonough’s First Prong ...........

8

The Second Circuit Misapplied
McDonough’s Second Prong ........

11

iii
Page

C. Attempted robbery under the
Hobbs Act, 18 U.S.C. § 1951,
does not qualify as a “crime
of violence,” meaning that it
does not “ha[ve] as an element
the use, attempted use, or
threatened use of physical force
against the person or property
of another” when analyzed under
the “categorical” or “elements”
analytic ..............................................

21

i.

Attempted Hobb’s Act Robbery...

24

ii.

Application ..................................

26

iii. Conclusion...................................

38

CONCLUSION ..............................................

39

APPENDIX
APPENDIX A:
Decision and Order of the United States
District Court for the Western
District of New York, dated
August 24, 2017.................................

1a

APPENDIX B:
Opinion of the United States Court of
Appeals for the Second Circuit,
dated April 22, 2021 ..........................

78a

iv
Page(s)

APPENDIX C:
Miscellaneous Order (Order List
U.S. 589), dated March 19, 2020 .......

150a

APPENDIX D:
Relevant Statutory Provisions
18 U.S.C. § 924 ..................................

152a

18 U.S.C. § 1951 ................................

170a

v
TABLE OF AUTHORITIES
Page(s)

Cases
Amirault v. Fair,
968 F.2d 1404 (1st Cir. 1992),
cert. denied, 506 U.S. 1000 (1992) ...............

6

Conaway v. Polk,
453 F.3d 567 (4th Cir. 2006) ........................

7

Dyer v. Calderon,
151 F.3d 970 (9th Cir. 1998) ........................

10

Gonzales v. Duenas-Alvarez,
549 U.S. 183 (2007)....................................... 22, 31
Johnson v. Luoma,
425 F.3d 318 (6th Cir. 2005) ........................

7, 12

Jones v. Cooper,
311 F.3d 306 (4th Cir. 2002),
cert. denied, 539 U.S. 980 (2003) .................

6, 11

Lofton v. United States,
No. 16-cv-6324, 2020 WL 362348
(W.D.N.Y. Jan. 22, 2020).............................. 36, 37
McDonough Power Equipment, Inc. v.
Greenwood,
464 U.S. 548 (1984).......................................passim
Sampson v. United States,
724 F.3d 150 (1st Cir. 2013).........................

6, 12

Smith v. Phillips,
455 U.S. 209 (1982).......................................

10

vi
Page(s)

United States v. Barrett,
937 F.3d 126 (2d Cir. 2019).......................... 24, 26
United States v. Carpa,
271 F.3d 962 (11th Cir. 2001),
cert. denied, 537 U.S. 889 (2002) .................6, 7, 12
United States v. Cheese,
No. 18-cr-33, 2020 WL 705217
(E.D.N.Y. Feb. 12, 2020)...............................

36

United States v. Claxton,
766 F.3d 280 (3d Cir. 2014)..........................

7, 12

United States v. Culbert,
453 F. Supp. 3d 595
(E.D.N.Y. 2020)...................................33, 34, 35, 36
United States v. Davis,
—- U.S. —, 139 S. Ct. 2319 (2019)...............passim
United States v. Evans,
848 F.3d 242 (4th Cir. 2017) ........................

30

United States v. Greer,
285 F.3d 158 (2d Cir. 2002)..........................

13

United States v. Hawkins,
796 F.3d 843 (8th Cir. 2015),
cert. denied, 136 S. Ct. 2030 (2016) ...................6, 7
United States v. Hill,
890 F.3d 51 (2d Cir. 2018),
cert. denied, 139 S. Ct. 844 (2019).....22, 26, 31, 33
United States v. Jackson,
560 F.2d 112 (2d Cir. 1977)..........................

34

vii
Page(s)

United States v. Mathis,
932 F.3d 242 (4th Cir. 2019) ........................

29

United States v. McCoy,
Docket No. 17-3515(L)
(2d Cir. Apr. 22, 2021) ..................................passim
United States v. McFadden,
739 F.2d 149 (4th Cir. 1984) ........................

28

United States v. McNeal,
818 F.3d 141 (4th Cir. 2016) ........................

29

United States v. Muratovic,
719 F.3d 809 (7th Cir. 2013) ........................

34

United States v. Nix,
275 F. Supp. 3d 420 (W.D.N.Y. 2017) ..........passim
United States v. North,
910 F.2d 843 (D.C. Cir. 1990) ......................

7, 12

United States v. Parse,
789 F.3d 83 (2d Cir. 2015) .........................6, 12, 15
United States v. Pica,
No. 8-cr-559 (CBA), ECF No. 378
(E.D.N.Y. Mar. 17, 2020) ..............................

36

United States v. Resendiz-Ponce,
549 U.S. 102 (2007).......................................

25

United States v. Shakur,
Nos. 82-cr-312 and 84-cr-220,
1988 WL 36170 (S.D.N.Y. Apr. 13, 1988)....

35

viii
Page(s)

United States v. Solorio,
337 F.3d 580 (6th Cir. 2003),
cert. denied, 540 U.S. 1063 (2003) ...............

5, 11

United States v. St. Hubert,
918 F.3d 1174 (11th Cir. 2019) ....................

37

United States v. Stallworth,
543 F.2d 1038 (2d Cir. 1976)........................

34

United States v. Stewart,
433 F.3d 273 (2d Cir. 2006)..........................

16

United States v. Taylor,
979 F.3d 203 (4th Cir. 2020) ........................passim
United States v. Titsworth,
422 F. Supp. 587 (D. Neb. 1976) ..................

2

United States v. Torres,
128 F.3d 38 (2d Cir. 1997),
cert. denied, 523 U.S. 1065 (1998) .......................13
United States v. Tucker,
No. 18-cr-119, 2020 WL 93951
(E.D.N.Y. Jan. 8, 2020)................................. 36, 37
United States v. White,
116 F.3d 903 (D.C. Cir. 1997),
cert. denied, 522 U.S. 960 (1997) ...........................6
Statutes
18 U.S.C. § 841(a)(1) .....................................

4

18 U.S.C. § 841(b)(1)(D) ................................

4

ix
Page(s)

18 U.S.C. § 846 .............................................

4

18 U.S.C. § 922(g)(1) .....................................

4

18 U.S.C. § 924(a)(2) .....................................

4

18 U.S.C. § 924(c) .........................................passim
18 U.S.C. § 924(c)(1)(A) ................................

25

18 U.S.C. § 924(c)(1)(A)(i) .............................

4, 25

18 U.S.C. § 924(c)(1)(A)(ii) ............................

4

18 U.S.C. § 924(c)(1)(C)(i) .............................

4, 25

18 U.S.C. § 924(c)(3) .....................................

25

18 U.S.C. § 924(c)(3)(A) ................................passim
18 U.S.C. § 924(c)(3)(B) ................................ 24, 26
18 U.S.C. § 1951............................................

1, 21

18 U.S.C. § 1951(a) .......................................passim
18 U.S.C. § 1951(b)(1) ..............................22, 25, 27
18 U.S.C. § 2113(a) .......................................

29

21 U.S.C. § 846 .............................................

4

28 U.S.C. § 1254(1) .......................................

1

Model Penal Code § 5.01 ...............................

35

Rules
Rule 29 ..........................................................

35

x
Page(s)

Constitutional Provisions
United States Constitution
Sixth Amendment .................................... 2, 3, 8

PETITION FOR A WRIT OF CERTIORARI
Defendant/Petitioner Matthew Nix, AKA Meech,
AKA Mack AKA Mackey respectfully petitions for a
writ of certiorari to review the judgment of the
United States Court of Appeals for the Second Circuit in this case.
OPINIONS BELOW
The Second Circuit’s opinion (United States v.
McCoy, No. 17-3515 (2d Cir. 2021) (Docket Nos.
17-3515(L), 17-3516, 18-619, 18-625)) is unpublished
and reproduced in the appendix (App. 78a-149a).
The district court’s judgment is published at United
States v. Nix, 275 F. Supp. 3d 420, 438 (W.D.N.Y.
2017) and is reproduced in the appendix (App.
1a-77a).
JURISDICTION
The Second Circuit entered its decision on April
22, 2021 and is timely pursuant to this Court’s
Thursday, March 19, 2020 Miscellaneous Order
(Order List U.S. 589) which is reproduced in the
appendix (App. 150a-151a). This Court has jurisdiction under 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
Relevant provisions of 18 U.S.C. §§ 924(c) and
1951 are reproduced in the appendix (App. 152a170a).

2
INTRODUCTION
The Sixth Amendment to the United States Constitution guarantees a criminal defendant’s right to
“an impartial jury.” The requirement that a jury’s
verdict “must be based upon the evidence developed at the trial,” rather than bias, goes to the fundamental integrity of all that is embraced in the
constitutional impetus of trial by jury. United
States v. Titsworth, 422 F. Supp. 587 (D. Neb.
1976). Where a potential juror intentionally fails to
disclose implicit biases, or in fact conceals such
inequity, a manifest interference with the fundamental animus of the impartial predicate of our
jury and judicial system is extant.
In McDonough Power Equipment, Inc. v. Greenwood, 464 U.S. 548 (1984), this Court espoused a
two (2) part test to determine whether a juror’s
false statements during voir dire implicates his
impartiality and necessitates a mistrial. The Court
held that “to obtain a new trial in such a situation,
a party must first demonstrate that a juror failed
to answer honestly a material question on voir dire,
and then further show that a correct response
would have provided a valid basis for a challenge
for cause.” Id. at 556.
However, the application of the McDonough test
has been the subject of much confusion amongst
the courts, resulting in a Circuit split encompassing several divergent standards. The lack of clear
guidance as to the McDonough standard has resulted in its misapplication by numerous courts,

3
including the Second Circuit in the instant matter.
The Court should Grant Certiorari in this matter
to: (1) resolve the extant Circuit split and provide
clear guidance on McDonough’s application; and (2)
reverse the Second Circuit’s ruling in this matter,
which incorrectly denied Petitioner’s Sixth Amendment right to an impartial trial.
As to the Hobbs Act, there remains a plurality in
the Circuits as to whether attempted Hobbs Act
robbery constitutes a “crime of violence” with the
majority of the Circuits holding in the affirmative,
however using an incomplete and flawed analysis
of the “categorical” or “elements” approach, while
the minority Fourth Circuit, has offered a wellreasoned discord as to the inherent contradictions
of the majority analysis.
There is no disagreement among the Circuits as
to whether a completed Hobbs Act Robbery constitutes a “crime of violence.” There exists, however, a
paradigmatic conflict among the Circuits as to the
archetype of the “categorical” or “elements” analysis necessary to qualify attempted Hobbs Act Robbery as a predicate “crime of violence.”
This extant discordant dynamic has led to, and
will continue to lead to, uncertainty among the District Courts and the Circuits, and additionally
leads to disunity in sentencing. Perspicacious
analysis has augmented the jurisprudence of both
the majority and minority approaches, however the
results are both diametrically opposed and irreconcilable.

4
BACKGROUND
Petitioner was charged with Hobbs Act conspiracy
in violation of 18 U.S.C. § 1951(a); use of a firearm
in furtherance and in relation to a crime of violence
in violation of 18 U.S.C. §§ 924(c)(1)(A)(ii); narcotics conspiracy in violation of 21 U.S.C. § 846;
possession of a firearm in furtherance of a drug
trafficking crime in violation of 18 U.S.C.
§§ 924(c)(1)(A)(i); Hobbs Act robbery in violation of
18 U.S.C. §§ 1951(a); use of a firearm during and
in relation to a crime of violence in violation of
18 U.S.C. §§ 924(c)(1)(A)(ii); and possession of a
firearm by a convicted felon in violation of
18 U.S.C. §§ 922(g)(1), 924(a)(2).
Petitioner was tried by a jury in the Western District of New York (“District Court”) and convicted
of: Hobbs Act conspiracy, in violation of 18 U.S.C.
§ 1951(a); Hobbs Act robbery and attempted robbery, in violation of 18 U.S.C. §§ 1951(a) and 2;
brandishing firearms during and in relation to
crimes of violence, to wit, the Hobbs Act conspiracy,
Hobbs Act robbery, and Hobbs Act attempted
robbery counts, in violation of 18 U.S.C.
§§ 924(c)(1)(C)(i) and 2; conspiracy to distribute
and to possess with intent to distribute marijuana
and heroin, in violation of 18 U.S.C. §§ 846,
841(a)(1), and 841(b)(1)(D); and possession of a
firearm by a convicted felon, in violation of 18
U.S.C. §§ 922(g)(1) and 924(a)(2); and possession of
a firearm in furtherance of a drug trafficking
crime, in violation of 18 U.S.C. §§ 924(c)(1)(C)(i).
United States v. McCoy, Docket No. 17-3515(L)

5
(2d Cir. Apr. 22, 2021) *2. App. 78a-79a. Petitioner
was sentenced to 1,860 months, or 155 years, incarceration. App. 79a.
Following the trial, it was discovered that Juror
No. 3 provided false statements during voir dire in
several respects. United States v. Nix, 275 F. Supp.
3d 420, 424-428 (W.D.N.Y. 2017). App. 4a-12a. A
hearing was conducted, after which the District
Court ruled that Juror No. 3 lied to the court with
respect to his status as a felon, his contacts with
the police, his prior jury service, his status as a
defendant, his participation in a burglary and his
being the victim of a burglary. App. 12a-27a.
Indeed, Juror No. 3 bordered upon the opaque, if
not the perjurious. The District Court held that
Juror No. 3’s conduct was intentional and that,
despite being offered immunity from non-perjurious testimony, App. 12-a, 61a, at a subsequent evidentiary hearing, Juror No. 3 continued to lie until
exposed by his own prior confessions. Nix, 275 F.
Supp. 3d at 429. App. 16a.
REASONS FOR GRANTING THE PETITION
A. Courts are Divided over McDonough’s
Application.
The Circuit courts are split in their application of
McDonough. As to McDonough’s first prong, the
First, Fourth and Sixth Circuits hold that a new
trial may be granted even where a juror’s dishonesty was inadvertent. See United States v. Solorio,

6
337 F.3d 580, 596 n.12 (6th Cir. 2003), cert. denied,
540 U.S. 1063 (2003); Jones v. Cooper, 311 F.3d
306, 310 (4th Cir. 2002), cert. denied, 539 U.S. 980
(2003); Amirault v. Fair, 968 F.2d 1404, 1405-1406
(1st Cir. 1992), cert. denied, 506 U.S. 1000 (1992).
Conversely, the Eighth, Eleventh and District of
Columbia Circuits hold that a new trial is only warranted where a juror’s false statements were made
intentionally. See United States v. Hawkins, 796
F.3d 843, 863-64 (8th Cir. 2015), cert. denied, 136
S. Ct. 2030 (2016); United States v. Carpa, 271 F.3d
962, 967 (11th Cir. 2001), cert. denied, 537 U.S. 889
(2002); United States v. White, 116 F.3d 903, 930
(D.C. Cir. 1997), cert. denied, 522 U.S. 960 (1997).
Further, as was the case in the instant matter,
the Second Circuit adds a more stringent requirement that the juror’s dishonesty must have been
motivated by a desire to sit on the jury. See McCoy,
Docket No. 17-3515(L) *42. App. 115a-116a.
As to McDonough’s second prong, the First and
Second Circuits hold that a valid basis for a challenge for cause exists where a reasonable judge
would have dismissed the juror once made aware of
the information the juror failed to disclose and the
reason for the underhanded behavior, even where
disqualification would not have been mandatory
but bias can be inferred. United States v. Parse,
789 F.3d 83, 100, 111 (2d Cir. 2015) (challenges for
cause are valid even if juror disqualifications are
not mandatory); Sampson v. United States, 724
F.3d 150, 165-166 (1st Cir. 2013). Specifically, the

7
important factors are whether counsel has a valid
basis for cause, not whether the court would have
acted.
The Third, Sixth, and Eleventh Circuits hold
that a valid basis for a challenge for cause exists
where disqualification would have been mandatory
because of actual or implied bias. See United States
v. Claxton, 766 F.3d 280, 301 (3d Cir. 2014) (affirming a denial for a motion for a new trial when actual or implied bias was established); Johnson v.
Luoma, 425 F.3d 318, 326 (6th Cir. 2005) (a juror is
subject to a valid challenge for cause based on actual bias in limited circumstances); Carpa, 271 F.3d
at 967 (McDonough requires “a showing of bias
that would disqualify the juror,” namely, an
“express admission” of bias or circumstances under
which “bias must be presumed”).
The Fourth and Eighth Circuits hold that a valid
basis for challenge for cause exists where disqualification would have been mandatory because of
bias, and add an additional requirement that the
juror’s motivation for concealing the material information must have affected the trial’s fairness. See
Hawkins, 796 F.3d at 863-64; Conaway v. Polk, 453
F.3d 567, 588 (4th Cir. 2006).
The District of Columbia Circuit holds that a
valid basis for a challenge for cause exists only
where disqualification would have been mandatory
because of actual bias. See United States v. North,
910 F.2d 843, 904 (D.C. Cir. 1990).

8
As if evident by the disparity amongst the Circuits, the term “a valid basis for challenge for
cause” is not clearly defined and has a number of
different connotations. The absence of a definite
understanding of “a valid basis for challenge for
cause” provides an unjustifiable risk of improper
sentences.
B. The Second Circuit Misapplied McDonough
in the Instant Matter.
Petitioner is entitled to a new trial. Juror No. 3’s
false voir dire deprived Petitioner of his Sixth
Amendment right to a fair and impartial jury.
i.

The Second Circuit Misapplied
McDonough’s First Prong

There is no dispute as to Juror No. 3’s dishonesty. Both the district court and the Second Circuit
held that Juror No. 3 made numerous false statements during voir dire. See McCoy, Docket No.
17-3515(L) *32-33. App. 105a-107a. Nor is there
any dispute that Juror No. 3 made these false
statements intentionally for the purpose of concealing his criminal background from the court. See id.
Nevertheless, the Second Circuit held that Petitioner failed to satisfy McDonough’s first prong
because Juror No. 3’s “false statements as to his
criminal history were not motivated by any desire
to serve as a juror in the present case.” Id. at *32.
App. 106a. But no such requirement was espoused
in McDonough. McDonough’s first prong only
requires a showing “that a juror failed to answer

9
honestly a material question on voir dire,” which by
all accounts Petitioner has demonstrated.
The Second Circuit’s heightened standard
appears to flow from McDonough’s holding that
“[t]he motives for concealing information may vary,
but only those reasons that affect a juror’s impartiality can truly be said to affect the fairness of a
trial.” McDonough, 464 U.S. at 556. However, to
hold that juror impartiality is only implicated
where a juror deliberately attempts to secure a seat
on a jury is to ignore the well-established principles of implied and inferred bias. A juror may not
believe a perceived bias to be significant or may not
even be consciously aware of his bias towards a litigant, yet the bias remains and can subconsciously
affect the juror’s impartiality. Even actual bias can
be present where a juror does not wish to serve on
a jury and provides a dishonest answer in voir dire
either inadvertently or due to an innocuous motive
such as embarrassment. Indeed, it is likely the
exception rather than the rule to find a biased juror
eager to serve on a jury.
Justice Blackmun’s concurring opinion in
McDonough, joined by justices Stevens and O’Connor, makes clear that the only relevant inquiry is
juror bias, regardless of intentional juror dishonesty or related motive, and that such bias may be
actual, implied or inferred. See McDonough, 464
U.S. at 556-67 (“I understand the Court’s holding
not to foreclose the normal avenue of relief available to a party who is asserting that he did not
have the benefit of an impartial jury. Thus, regard-

10
less of whether a juror’s answer is honest or dishonest, it remains within a trial court’s option, in
determining whether a jury was biased, to order a
post-trial hearing at which the movant has the
opportunity to demonstrate actual bias or, in
exceptional circumstances, that the facts are such
that bias is to be inferred.”) (Blackmun, J., concurring, joined by Stevens and O’Connor, JJ.) (citations omitted). Notably, the Blackmun concurrence
provided the swing fifth, sixth, and seventh votes
to form the McDonough majority. See, e.g., Dyer v.
Calderon, 151 F.3d 970, 985 (9th Cir. 1998).
Justice Brennan’s concurring opinion in
McDonough, joined by justice Marshall, similarly
holds that “the proper focus when ruling on a
motion for new trial in this situation should be on
the bias of the juror and the resulting prejudice to
the litigant. . . . Because the bias of a juror will
rarely be admitted by the juror himself, ‘partly
because the juror may have an interest in concealing his own bias and partly because the juror may
be unaware of it,’ it necessarily must be inferred
from surrounding facts and circumstances. . . .
Whether the juror answered a particular question
on voir dire honestly or dishonestly, or whether an
inaccurate answer was inadvertent or intentional,
are simply factors to be considered in this latter
determination of actual bias.” (Brennan, J., concurring, joined by Marshall, J.) (quoting, Smith v.
Phillips, 455 U.S. 209, 221-22 (1982)).
As discussed, supra, several other circuits disagree with the Second Circuit’s interpretation of

11
McDonough as providing a motive requirement,
holding that a new trial may be granted even upon
a finding of inadvertent juror dishonesty. See, e.g.,
Solorio, 337 F.3d at 596 n.12; Cooper, 311 F.3d at
310; Fair, 968 F.2d at 1405-1406.
Regardless, even assuming, arguendo, that
McDonough’s first prong does require intentional
juror dishonesty motivated by a desire to sit on the
jury, McDonough’s first prong was satisfied here.
“When asked whether he had wanted to serve as a
juror in this case, Juror No. 3 three times responded
‘Yes’ (H.Tr. 93, 96).” McCoy, Docket No. 17-3515(L)
*29. App. 102a. It was an abuse of discretion for the
district court and Second Circuit to instead rely
upon Juror No. 3’s contradictory fourth response,
“no,” “when later again asked whether he had
wanted to serve as a juror in this case . . . ([H. Tr.]
97, 235, 242, 243).” Id. App. 102a. This is especially
true as Juror No. 3 witnessed how numerous
prospective jurors were excused during jury selection for cause, and knew that a truthful response
during voir dire as to his criminal background
could have similarly excused him from serving on
the jury.
ii. The Second Circuit Misapplied
McDonough’s Second Prong
The above misapplication is tempered by the disjointed application among the circuits as to the relevant inquiry as to the nature of the bias, and its
concomitant impact upon a determination as to
juror impartiality. While McDonough provides that

12
(1) the defendant must first demonstrate that the
juror failed to answer honestly a material question
on voir dire; and (2) the defendant then must also
demonstrate that “a correct response would have
provided a valid basis for a challenge for cause[,]”
as aptly observed by the District Court below, “a
bright line does not divide the two prongs of the
test, and there is some blurring of the factors to be
considered under each prong.” Nix, 275 F. Supp. at
438. App. 38a.
McDonough is cited perennially, however a
three-way split amongst the Circuits remains
extant in interpreting the blurred line expressed
above. The First and Second Circuits hold that the
standard is satisfied so long as a reasonable judge,
made aware of the withheld information, would
have excused the juror for cause, even if disqualification was not mandatory. Parse, 789 F.3d at 83;
Sampson, 724 F.3d at 165-166. The Third, Sixth,
and Eleventh Circuits have imposed a more stringent standard, opining “a valid basis for a challenge for cause” exists only where disqualification
would be mandatory, either because of actual or
implied bias. See Claxton, 766 F.3d at 301; Luoma,
425 F.3d at 326 (6th Cir. 2005); Carpa, 271 F.3d at
967. The D.C. Circuit vexatiously holds that only
actual bias—and not implied bias—can constitute a
“valid basis.” See North, 910 F.2d at 904.
There is a lack of uniformity as to the malleability or inflexibility of the element of bias, indeed,
even as to the underlying nature of the bias itself.
While it is respectfully submitted that the Second

13
Circuit below evoked the proper standard, articulating the inquiry as to actual, implied or inferred
bias, it ultimately misapplied the self-same standard it evoked. The cor quaestio stems from the
fractured treatment of bias, weighed upon different
scales, throughout the Circuits. Whether the question of bias is likewise perennial to any analysis of
juror non-disclosure, as espoused in the First and
Second Circuits, or weighed with a butcher’s
thumb, as in the D.C. Circuit, will necessarily taint
the interpretation of bias in each standard and lead
to dystopic conclusions and uncertainty.
Herein, the Second Circuit first looked to the elements of actual bias, “the existence of a state of
mind that leads to an inference that the person will
not act with entire impartiality” United States v.
Torres, 128 F.3d 38, 43 (2d Cir. 1997) (“Torres”), cert.
denied, 523 U.S. 1065 (1998), and found it to be
wanting. Continuing its analysis, the Court looked
to implied bias, and interpreted the same to “circumstances deal[ing] mainly with jurors who are
related to the parties or who were victims of the
alleged crime itself.” United States v. Greer, 285
F.3d 158, 172 (2d Cir. 2002). The Courts again
found the circumstances below to be likewise wanting, despite the forced admission that Juror No. 3
was, in fact, the victim of a similar burglary. While
both Courts below fenced with Juror No. 3’s perceived confusion with “robbery” as opposed to “burglary”, inscrutably, neither Court was sufficiently
confident to apply a bias standard in the face of any
scintilla of doubt.

14
In turning finally to its analysis of inferred bias,
the Courts below noted, “[b]ias may be inferred
when a juror discloses a fact that bespeaks a risk of
partiality sufficiently significant to warrant granting the trial judge discretion to excuse the juror for
cause, but not so great as to make mandatory a presumption of bias.” McCoy, Docket No. 17-3515(L)
*36 (quoting Nix, 275 F. Supp. 3d at 453) (emphasis
in original). App 109a. However, in applying these
risk factors, at least in part due to the disharmony
in bias analysis, the Courts below found a risk of
partiality, but declined to apply it for reasons discussed, infra. In further commenting on how a finding of bias below was “a close one[,]” the District
Court went so far as to note, “in the Second Circuit,
it is unsettled whether either implied or inferred
bias may serve as the basis for a post-trial allegation of jury partiality.” Nix, 275 F. Supp. 3d at 438.
App. 39a.
In its analysis of McDonough, the District Court
below misinterpreted this Court’s sentiment that,
“Defendants were ‘entitled to a fair trial but not a
perfect one, for there are no perfect trials[,]’ ” by
reasoning:
“Juror No. 3 did not destroy the impartiality
of the jury in this case. Juror No. 3, a convicted felon who was not qualified to serve,
admittedly blundered his way onto the jury
—but he did not smuggle his way onto the
jury through intentional deceit.”
Nix, 275 F. Supp. 3d at 424. App. 4a.

15
Both the District Court and the Second Circuit
implicated Parse, 789 F.3d at 83, as the standard
bearer with regard to overturning a verdict on the
basis of juror nondisclosure. The Court took pains
to illustrate that the juror therein “was ‘a pathological liar and utterly untrustworthy,’ ” and described
the lies as “breathtaking” and “calculated to prevent the Court and the parties from learning her
true identity, which would have prevented her from
serving on the jury.” Nix, 275 F. Supp. 3d at 439.
App. 40a-41a. The Second Circuit then abstractly
summarized that the District Court found that the
“very fact that Juror No. 3 [herein] continued to lie
about his criminal history at the evidentiary Hearing, after having been granted immunity for nonperjurious Hearing testimony, indicated he had a
persisting motive for refusing to be honest about
his criminal past at the Hearing until confronted
with documentary evidence. The court was persuaded that “his motives had nothing to do
with securing a seat on this jury.” McCoy,
Docket No. 17-3515(L) *33 (emphasis added).
App. 105a.
The Second Circuit further noted, the court found
that “[t]his was plainly not a case of Juror No. 3
wanting to hide information about his past to make
himself more marketable as a juror” and that,
“[t]here is just no proof that Juror No. 3 intentionally lied to smuggle his way onto the jury.” Id. at 34
(emphasis added). App. 107a-108a.
In this regard, the District Court and Second Circuit below have disregarded the flavor, context,

16
character, and nature of a potential juror’s non-disclosure in favor of a myopic and trammeled inquiry
of whether the motivation for the lie was solely to
serve on a jury. Such inquiry is hyper-specific to
the point of nonutilitarian rather than deontological and is in fact contraindicated within the District Court’s own decision. See Nix, 275 F. Supp. 3d
at 438 (quoting United States v. Stewart, 433 F.3d
273, 303 (2d Cir. 2006)) (“The critical determination is not simply whether the lies in question are
deliberate, but rather whether ‘the deliberateness
of the particular lies evidenced partiality.’”)
(emphasis in original). App. 39a.
The Second Circuit concomitantly apprehended
the District Court’s conclusion, noting, “[b]ias may
be inferred when a juror discloses a fact that
bespeaks a risk of partiality sufficiently significant
to warrant granting the trial judge discretion to
excuse the juror for cause, but not so great as to
make mandatory a presumption of bias[,]” McCoy,
Docket No. 17-3515(L) *36 (emphasis in original),
App. 109a, however ultimately misapplied the
enunciated standard. It is the risk, and not the
purpose, that speaks to the relevant inquiry.
The Courts below have conflated whether
McDonough requires proof that the withheld information would have provided “a valid basis for a
challenge for cause[,]” McDonough, 464 U.S. at 556
(emphasis added), with an inquiry as to whether
such inquiry requires proof that a correct response
would have resulted in a for-cause dismissal. The
analysis is contradictory to both lower Courts’

17
analysis implicating the character and substance of
the deceit as juxtaposed to its risk of partiality, not
its ultimate impact. The relevant inquiry is
whether partiality existed in potential rather than
in fact.
Were the standard that the Juror dishonesty was
motivated solely by a desire to be seated on the
jury, the need for inferred bias would be obviated.
The Second Circuit, in practical effect, in all but
the most pervasively mendacious and hyper-specific circumstances, has fallen back upon the D.C.
Circuit standard of actual bias. It is respectfully
submitted the Second Circuit’s, and many Circuits’
to inevitably follow, inherent contradiction and
muddled application stems from the dearth of guidance as to the appropriate treatment of bias.
The dichotomy is pervasive. Herein, for example,
the court found that Juror No. 3 continued to lie
about his criminal history at the evidentiary Hearing after having been granted immunity for nonperjurious Hearing testimony, until such time as
he was presented with documentary evidence
exposing his lies. Juror No. 3’s concealment was, in
fact, perjurious testimony. In applying Parce,
supra, the District Court looked to the nature of
the dishonesty as “a mission apparently ‘so powerful as to cause the juror to commit a serious crime’
–it ‘reflect[s] an impermissible partiality on the
juror’s part.’ ” Nix, 275 F. Supp. 3d at 440. App. 42a.
Juror No. 3 below committed the exact same
crime reflective of impermissible partiality. There
is no utility in parsing the definition as to whether

18
the juror was motivated to commit a crime to
obtain a seat on the jury or otherwise. The correct
analysis is whether the commission of the crime,
“bespeaks a risk of partiality sufficiently significant
to warrant granting the trial judge discretion to
excuse the juror for cause.” App. 109a.
Sworn Juror No. 3’s implied bias prevented the
Petitioner from being tried by an unbiased jury.
Petitioner’s appeal was denied despite it being
clear that the Petitioner’s rights were usurped.
Juror No. 3’s dishonesty and flavor of deceitfulness
enhances the bias finding. The Judge in the matter
in fact made a finding of fact as to Juror No. 3’s dishonesty.
There were a number of instances where Juror
No. 3 was intentionally misleading. Prior to voir
dire, the court mailed a questionnaire to all prospective jurors. Question 6 specifically asked “Have you
ever been convicted, either by your guilty or nolo
contendere plea or by a court or jury trial, of a state
or federal crime for which punishment could have
been more than one year in prison?” Juror No. 3
answered this question by checking “No.” Nix, 275
F. Supp.3d at 425 n.4., 445. App. 4a-5a, 55a-56a.
Additionally, during the oral voir dire, while
under oath, Juror No. 3 failed to provide accurate
responses to the following material questions:
(1) “Has anyone ever been the victim of a
home robbery?”;
(2) “Has anyone ever served on a jury
before?”;

19
(3) “Has anyone ever been a defendant in a
criminal case?”;
(4) “Has anyone ever visited a jail or correctional facility other than in connection with
. . . your educational curriculum”;
(5) “Has anyone had anyone close to them,
other than what we already discussed, . . .
anyone close to them convicted of a crime?”
Nix, 275 F. Supp. 3d at 426. App. 7a-8a.
Juror No. 3 failed to respond truthfully to any of
the above questions, id. at 425-26, App. 8a, or
respond to the Court’s question when asked
whether there was “anything in fairness to both
sides that you think we should know that we
haven’t covered already” or “[i]s there anything
that you think we should know that we haven’t covered up to this point?” Id.
The Court went on to note that where such concealment is in furtherance of a scheme to smuggle
oneself onto a jury, that, “[c]ertainly when possible
non-objectivity is secreted and compounded by the
deliberate untruthfulness of a potential juror’s
answer on voir dire, the result is deprivation of the
defendant’s rights to a fair trial.” Nix, 275 F. Supp.
3d at 440. App. 42a. Where the juror has deliberately concealed information, “bias” is to be “presume[d].” Id. Whether the prospective juror lies to
obtain a seat on the jury, as an anarchist, or simply
a pathological liar speaks to risk. The question of
whether a potential juror would lie while under
oath and subject to penalties of perjury sufficiently

20
establishes the risk of impartiality as to nullify any
inquiry as to that juror’s intentions. Some jurors
may lie to obtain a seat on a jury because they have
previously been otherwise disqualified. Some may
do so because they wish to sway the jury determination. Some may do so because they cannot help
it. The critical inquiry speaks to the actus reus
rather than the mens rea.
In approaching this analysis, there is no utility is
seeking guidance from the other Circuits as uniform guidance is not to be had. Whether the above
is obviated by a requisite showing of actual bias, or
alternatively punctuated by a determination of
inferred bias, is an open question that is likely to
continue to occupy the dockets of Courts throughout the country. While, as would be otherwise
required, such Courts will look to their own Circuits, they may nonetheless be vexed as to whether
the standard applied is the standard that will ultimately remain. The gravity of the risk of taint as
applied to an impartial jury potentially leading to a
death sentence, lifetime incarceration, or otherwise
begs the Court’s attention and clarification.

21
C. Attempted robbery under the Hobbs Act,
18 U.S.C. § 1951, does not qualify as a “crime
of violence,” meaning that it does not
“ha[ve] as an element the use, attempted
use, or threatened use of physical force
against the person or property of another” when analyzed under the “categorical” or “elements” analytic.
There remains a plurality in the Circuits as to
whether attempted Hobbs Act robbery constitutes
a “crime of violence” with the majority of the Circuits holding in the affirmative using the “categorical” or “elements” approach, while the minority
Fourth Circuit, has offered a well-reasoned discord
as to the inherent contradictions of the majority
analysis.
The dichotomy of focus among the Circuits as to
the compelling elements of attempted Hobbs Act
robbery and its subcomponents has led to diluted
results and hybrid analysis, which, as discussed
infra, colored the opinion of the Second Circuit
Court below. The Second Circuit went so far as to
acknowledge and reject the minority analysis, yet
did not discount adopting its rationale should further examples of the practical impact of the majority flaw come to bear. Rejecting the minority
argument and citing a proclivity of imagination on
behalf of Defendants below, rather than practical
reality, the Second Circuit opined:
“McCoy and Nix next argue that Hobbs Act
attempted robbery does not categorically

22
constitute a crime of violence because substantive Hobbs Act robbery need not always
involve the actual use of force; rather, the
statute defines ‘robbery’ as ‘the unlawful taking . . . of personal property . . . by means
of actual or threatened force.’ 18 U.S.C.
§ 1951(b)(1) (emphasis added). Based on this
definition of ‘robbery,’ as the Fourth Circuit
recently observed, Hobbs Act attempted robbery could also theoretically include
‘attempt[s] to threaten force,’ which would
appear not to constitute an ‘attempt to use
force’ as required by § 924(c)(3)(A). Taylor,
979 F.3d 7 at 209 (emphases in original).
However, even though it is theoretically possible that a defendant could be charged with
Hobbs Act attempted robbery under such an
attempt-to-threaten theory, we have made
clear that “to show a predicate conviction is
not a crime of violence ‘requires more than
the application of legal imagination to [the]
. . . statute’s language’ ”; rather “there must
be ‘a realistic probability, not a theoretical
possibility,’ that the statute at issue could be
applied to conduct that does not constitute a
crime of violence.” Hill, 890 F.3d at 56 (quoting Gonzales v. Duenas-Alvarez, 549 U.S.
183, 193 (2007)). To show such a ‘realistic
probability,’ a defendant “ ‘must at least point
to his own case or other cases in which the
. . . courts did in fact apply the statute in
the . . . manner for which he argues.’ ” Hill,

23
890 F.3d at 56 (quoting Duenas-Alvarez, 549
U.S. 18 at 193)
[. . .]
[W]e hold that Hobbs Act attempted robbery
qualifies as a crime of violence under § 924(c)
because an attempt to commit Hobbs Act
robbery using force necessarily involves
the ‘attempted use . . . of force’ under
§ 924(c)(3)(A), and because, even though a
conviction for an inchoate attempt to threaten is theoretically possible, McCoy and Nix
have not shown that there is a ‘realistic probability’ that the statute will be applied in
such a manner, Duenas-Alvarez, 549 U.S. at
193.”
McCoy, No. 17-3515 at *56-58. App. 127a-130a.
The Second Circuit’s analysis does not resolve
the dilemma within its own jurisdiction, nor does it
adequately address the minority opinion in a manner reflective of a preclusive resolution of the
dichotomy of analysis. The Second Circuit’s analysis ultimately conflates intent with attempt by
holding that an attempt to commit a crime is treated as an attempt to commit every element of that
crime. It is respectfully submitted that for purposes of attempted Hobbs Act robbery, one can intend
to use force without ever actually attempting to use
force, yet only the latter comes within the definition of “crime of violence” under § 924(c)(3)(A). In
that regard, attempted Hobbs Act Robbery is not a
crime of violence and therefore not a valid predi-

24
cate offense because a Hobbs Act Robbery does not
categorically require the use or threat of violence.
The above is in accord with the treatment of
United States v. Davis, — U.S. —, 139 S. Ct. 2319
(2019) (ruling that § 924(c)(3)(B) was unconstitutionally vague in defining crime of violence in
terms of a “risk” that physical force would be used,
see 139 S. Ct. at 2323-24), and by extension the
treatment of Hobbs Act conspiracy. Hobbs Act conspiracy is now conclusively an inapposite predicate
offense because it is an offense that can be complete without performance of any overt act, despite
it posing a potential risk of violence. See United
States v. Barrett, 937 F.3d 126 (2d Cir. 2019). As
such, it is an inapposite predicate because it is not
a crime of violence within the meaning of § 924(c),
because the concept of “risk” is unconstitutionally
vague. Davis, — U.S. —, 139 S. Ct. at 2319. The
“risk” of violence inherent in conspiracy and its
inchoate nature does not categorically require violence, just as attempted Hobbs Act robbery does
not categorically require a violent act. Only the
potential, or the intent to commit a statutorily violent act. Both the conspiracy to commit a crime of
violence and the attempt to threaten violence in
furtherance of a crime of violence connote only violence in potential, yet neither require the commission of a violent act.
i.

Attempted Hobb’s Act Robbery

The Hobbs Act creates criminal liability for any
person “who [ ] in any way . . . obstructs, delays, or

25
affects commerce or the movement of any article or
commodity in commerce, by robbery . . . or
attempts or conspires to do so.” 18 U.S.C. § 1951(a).
As used in the Act, “robbery” means “the unlawful
taking or obtaining of personal property from the
person or in the presence of another, against his
will, by means of actual or threatened force, or
violence, or fear of injury, immediate or future, to
his person or property.” Id. at § 1951(b)(1). Federal
attempt liability attaches where there is intent
to commit the completed offense together with “an
overt act qualifying as a substantial step toward
completion of [that] goal.” United States v.
Resendiz-Ponce, 549 U.S. 102, 106-107 (2007).
Under federal law, a person who uses or carries a
firearm “during and in relation to any crime of violence” or who “possesses a firearm” “in furtherance
of any such crime” may be convicted of both the
underlying “crime of violence” and the additional
crime of utilizing a firearm in connection with a
“crime of violence.” 18 U.S.C. § 924(c)(1)(A).
18 U.S.C. § 924(c) directs enhanced sentencing
for any person who uses, carries, or possesses
a firearm in furtherance of a “crime of violence.”
18 U.S.C. § 924(c)(1)(A)(i). Repeat violations of
§ 924(c) carry a minimum term of 25 years in
prison. Id. at § 924(c)(1)(C)(i).
A “crime of violence” is defined in 18 U.S.C.
§ 924(c)(3) as “an offense that is a felony and A) has
an element the use, attempted use, or threatened
use of physical force against the person or property

26
of another, or B) that by its nature, involves a substantial risk that physical force against the person
or property of another may be used in the course
of committing the offense.” As discussed, supra,
United States v. Davis has since struck 18 U.S.C.
924(c)(3)(B) as unconstitutionally vague.
ii. Application
Both the Second Circuit below and the minority
Fourth Circuit are in conformity that Hobbs Act
robbery is a “crime of violence” as defined by application of the “categorical” approach. See Barrett,
937 F.3d at 128; United States v. Hill, 890 F.3d 51
(2d Cir. 2018), cert. denied, 139 S. Ct. 844 (2019);
United States v. Taylor, 979 F.3d 203, 207 (4th Cir.
2020). Pursuant to the categorical approach,
“where Congress has defined a violent felony as a
crime that has the use or threat of force ‘as an element,’ the courts must determine whether a given
offense is a crime of violence by focusing categorically on the offense’s statutory definition, i.e., the
intrinsic elements of the offense, rather than on
the defendant’s particular underlying conduct.”
McCoy, No. 17-3515 *48-49 (citation omitted),
App. 121a; See also Taylor, 979 F.3d at 207
(“[p]ursuant to the categorical approach, a court
‘focuses on the elements of the prior offense rather
than the conduct underlying the conviction’ ”).
As such, looking strictly to the elements of Hobbs
Act robbery, the Second and Fourth Circuits both
concluded that Hobbs Act robbery has as an element, “the use, attempted use, or threatened use

27
of physical force against the person or property
of another,” 18 U.S.C. § 924(c)(3)(A), in that it
requires “taking or obtaining of personal property
from the person or in the presence of another,
against his will, by means of actual or threatened
force, or violence, or fear of injury, immediate or
future, to his person or property.” 18 U.S.C.
§§ 1951(a) and (b)(1).
The confluence between the Circuits ends there
and demarks the divergence of analytics in application of the categorical approach as it pertains to
attempted Hobbs Act robbery. In an attempt to
remain steadfast to the categorical approach, and
thereby offer consistency in its application, the
Fourth Circuit noted the majority’s misapplication
as an improper misdirection of focus. Distinct from
the majority analysis, the Fourth Circuit justified
that while a completed Hobbs Act robbery necessarily entails the use, attempted use, or threatened
use of physical force, it does not mean that every
attempt at Hobbs Act robbery involves an attempt
to use force. Highlighting the distinction, the
Taylor Court correctly noted that because the commission of Hobbs Act robbery requires, at a minimum, the “threatened use of physical force,” it
categorically qualifies as a “crime of violence”
under § 924(c)’s force clause but distinguished the
assumed parity by noting “an attempt to threaten
force does not constitute an attempt to use force.”
Taylor, 979 F.3d at 208-09.
The Taylor Court criticized the majority analysis
as a dereliction of the categorical approach directed

28
by the Supreme Court in Davis in that rather than
focusing on the elements of the offense, the majority
“rest[s] their conclusion on a rule of their own creation,” imparting significance not upon the elements of the offense but upon the acts required to
complete the offense. Id. at 208. This distinction,
while subtle, underlines the conflation between
attempt and intent, or, as the Taylor Court distinguished the apparent dichotomy, the categorical
approach should not countenance an “attempt [ ] to
threaten to use physical force” under the plain text
of § 924(c)(3)(A). Id.
The Fourth Circuit correctly looked to the practical application of its analysis while contemporaneously dissecting the critical failure of the majority
application in its misapprehension of the inherent
salient distinction:
[A] straightforward application of the categorical approach to attempted Hobbs Act robbery yields a different result. This is so
because, unlike substantive Hobbs Act robbery, attempted Hobbs Act robbery does not
invariably require the use, attempted use, or
threatened use of physical force. The Government may obtain a conviction for attempted
Hobbs Act robbery by proving that: (1) the
defendant specifically intended to commit
robbery by means of a threat to use physical
force; and (2) the defendant took a substantial step corroborating that intent. The substantial step need not be violent. See, e.g.,
United States v. McFadden, 739 F.2d 149,

29
152 (4th Cir. 1984) (concluding that defendants took a substantial step toward bank
robbery where they “discussed their plans,”
“reconnoitered the banks in question,”
“assembled [ ] weapons and disguises,” and
“proceeded to the area of the bank”). Where a
defendant takes a nonviolent substantial
step toward threatening to use physical
force—conduct that undoubtedly satisfies
the elements of attempted Hobbs Act robbery—the defendant has not used, attempted
to use, or threatened to use physical force.
Rather, the defendant has merely attempted
to threaten to use physical force. The plain
text of § 924(c)(3)(A) does not cover such conduct.
[. . .]
[A]s we have repeatedly held, certain crimes
of violence—like Hobbs Act robbery, federal
bank robbery, and carjacking—may be committed without the use or attempted use of
physical force because they may be committed merely by means of threats. See Mathis,
932 F.3d at 266 (holding that “Hobbs Act
robbery, when committed by means of causing fear of injury, qualifies as a crime of violence”) (emphasis added); McNeal, 818 F.3d
at 153 (holding that “[b]ank robbery under
[18 U.S.C.] § 2113(a), ‘by intimidation,’
requires the threatened use of physical force”
and thus “constitutes a crime of violence”)

30
(emphasis added); United States v. Evans,
848 F.3d 242, 247 (4th Cir. 2017) (holding
“that the term ‘intimidation,’ as used in the
phrase ‘by force and violence or by intimidation’ in the carjacking statute, necessarily
includes a threat of violent force within the
meaning of the ‘force clause’ ”) (emphasis
added).
Taylor, 979 F.3d at 208-09.
In this regard, the Second Circuit below, while
citing and rejecting Taylor, opined categorically
that, “it follows as a matter of logic that an
‘attempt [ ]’ to commit Hobbs Act robbery—which
the statute also expressly prohibits, see 18 U.S.C.
§ 1951(a)—categorically qualifies as a crime of
violence.” McCoy, No. 17-3515 *53-54. App. 125a126a. The Second Circuit below, and indeed the
majority, have failed to justify the Taylor distinction, and in so doing have extrapolated a confluence between the actual acts required to commit an
offense with the manifestation of intent to commit
those inchoate acts.
The logic of the above is flawed and parallels post
hoc ergo propter hoc reasoning, mistakenly leading
to what is characterized as an inevitable conclusion, yet overlooking a critical distinction–an
attempt to threaten force does not categorically constitute an attempt to use force. The Second Circuit
below did not dismiss this apparent flaw in its
application, but rather reflected an uncertainty as

31
to its mechanics. Its confinity was thereby trammeled leading the Court to opine:
“[E]ven though it is theoretically possible that
a defendant could be charged with Hobbs Act
attempted robbery under such an attempt-tothreaten theory, we have made clear that “to
show a predicate conviction is not a crime of
violence ‘requires more than the application
of legal imagination to [the] . . . statute’s
language’ ”; rather “there must be ‘a realistic
probability, not a theoretical possibility,’
that the statute at issue could be applied to
conduct that does not constitute a crime of
violence.” Hill, 890 F.3d at 56 (quoting
Gonzales v. Duenas-Alvarez, 549 U.S. 183,
193 (2007)). To show such a “realistic probability,” a defendant “‘must at least point to
his own case or other cases in which the . . .
courts did in fact apply the statute in the
. . . manner for which he argues.’ ” Hill, 890
F.3d at 56 (quoting Duenas-Alvarez, 549 U.S.
at 193).”
McCoy, No. 17-3515 at *56. App. 128a.
The Second Circuit below faulted Nix and McCoy
for failing to include examples of individuals convicted of attempted Hobbs Act robbery predicated
upon an attempt to threaten to use force. Id. at *57.
App. 128a-129a. Yet, this censure is misplaced and
obfuscates theory with preparedness, a black eye to
a raised fist. The discord among reasonable minds
as to the correct application of an attempt to

32
threaten is prevalent within the District Courts of
the Second Circuit’s jurisdiction. As posited by
Taylor:
[A]n attempt to commit a crime of violence
need not involve the attempted use of physical force. Some crimes of violence can be
accomplished merely through the threatened
use of force. The crime at issue here—
attempted Hobbs Act robbery—is just such a
crime. But an attempt to threaten force does
not constitute an attempt to use force. A person who attempts to commit Hobbs Act robbery by passing a threatening note to a store
cashier has attempted the planned robbery
without using or attempting to use physical
force. He may case the store that he intends
to rob, discuss plans with a coconspirator,
and buy weapons to complete the job. But
none of this conduct involves an attempt to
use physical force, nor does it involve the use
of physical force or the threatened use of
physical force. In these circumstances, the
defendant has merely taken nonviolent substantial steps toward threatening to use
physical force.
Taylor, 979 F.3d at 209.
None of the above lies exclusively in the realm of
theory, and to categorize such eventualities otherwise is to fail to accept the inevitable. Disagreement in the District Courts has been and will

33
continue to be realized in Courts of Second Circuit
jurisdiction.
In United States v. Culbert, 453 F. Supp. 3d 595
(E.D.N.Y. 2020), the Eastern District of New York
(Cogan, J.) grappled with attempted Hobbs Act robbery, and embraced the minority approach as the
more salient analysis. Tracking the first prong of
the minority and majority analysis, the Culbert
Court noted, “Hobbs Act robbery, of course, is a
crime of violence under the ‘elements’ clause of
§ 924(c) because it ‘has as an element the use,
attempted use, or threatened use of physical force
against the person or property of another[,]’ ”
Culbert, 453 F. Supp. 3d at 596, but went on to
posit and conclude, “[t]he narrow question put to
the Court is whether attempted Hobbs Act robbery
is likewise a crime of violence. It is not.” Id.
Seeking jurisprudential guidance from Hill, 890
F.3d at 51, the Culbert Court recognized the categorical approach to an elements analysis. Reinvigorating the Davis conspiracy distinction when
looking to the elements analysis, focusing on the
acts necessary to take substantial steps towards
each element, the Court noted, “the ‘essence of a
conspiracy’ is merely an agreement to commit an
unlawful act [. . .] there is nothing inherently violent about the crime of conspiracy, no matter how
gruesome the culmination of such an agreement
might be.” Culbert, 453 F. Supp. 3d at 596.
The Court went on to distinguish the acts necessary to take “substantial steps” towards Hobbs Act

34
robbery, and noted time and time again, the element of violence was absent. In a precognitive
response to the Second Circuit’s soon to be issued
challenge, the Culbert Court recognized non-violent acts constituting substantial steps to violent
offenses:
In United States v. Stallworth, 543 F.2d
1038, 1041 (2d Cir. 1976), the Second Circuit
upheld an attempted robbery conviction
where the defendants “reconnoitered the
bank, discussed (on tape) their plan of
attack, armed themselves and stole ski
masks and surgical gloves,” had a getaway
car ready, and “moved ominously toward the
bank.” None of these actions was violent.
Even less was sufficient to convict the defendants of attempted bank robbery in United
States v. Jackson, 560 F.2d 112 (2d Cir.
1977). In that case, the Court upheld the conviction where the defendants “reconnoitered
the place contemplated for the commission of
the crime and possessed the paraphernalia to
be employed in the commission of the crime.”
Id. at 120. There, too, violence—threatened,
attempted, or otherwise—was absent.
In United States v. Muratovic, 719 F.3d 809,
816 (7th Cir. 2013), the Seventh Circuit
affirmed an attempted robbery conviction
where “the co-conspirators had assembled a
team, finalized the robbery plan, conducted
surveillance on the truck, procured two

35
handguns and all other supplies called for in
the plan,” filled up gas cans for the drive,
and arrived on location of the would-be
crime. No violence.
And in United States v. Shakur, Nos. 82-cr312 and 84-cr-220, 1988 WL 36170, at *2
(S.D.N.Y. Apr. 13, 1988), the court denied
the defendants’ Rule 29 motion for acquittal
of attempted bank robbery where “the individuals concerned reconnoitered the territory, made elaborate plans, obtained arms and
instruments of disguise, arranged getaway
cars, and were at the site of the target bank
in their vehicle, armed, booted and spurred,
ready to go.” No violence.
Culbert, 453 F. Supp. 3d at 598-99.
Qualifying the Model Penal Code as persuasive
authority, the Court nonetheless commented upon
Section 5.01 acts of a non-violent nature that when
taken alone or together could constitute Hobbs Act
robbery, yet lack the requisite threat of force. Id. at
599. The Court rejected the majority view that
attempted force is equated to completed force, and
that conviction of attempt requires proof of intent
to commit all elements of the completed crime, as
an incomplete and hurried analysis:
Although a satisfying syllogism on some
level, this argument “collapses the distinction between acts constituting an underlying
offense and acts constituting an attempt of
the underlying offense, which does not

36
square with the Supreme Court’s decision in
Davis.” Cheese, 2020 WL 705217, at *3. Thus,
at most, someone who takes a non-violent,
substantial step toward committing a Hobbs
Act robbery has intended to attempt violence.
Moreover, as Judge Johnson pointed out in
Tucker, 2020 WL 93951, at *6, “[s]uch an
absolute rule (i.e., that an attempt to commit
any violent crime will necessarily be itself a
violent crime) seems at odds with the
requirements of the categorical analysis.”
Culbert, 453 F. Supp. 3d at 600.
Culbert, while poignant and succinct, was not
alone in its presumptive departure from the Second
Circuit’s recent adoption of the majority analysis.
See United States v. Pica, No. 8-cr-559 (CBA), ECF
No. 378 (E.D.N.Y. Mar. 17, 2020); United States v.
Cheese, No. 18-cr-33, 2020 WL 705217 (E.D.N.Y.
Feb. 12, 2020); Lofton v. United States, No. 16-cv6324, 2020 WL 362348 (W.D.N.Y. Jan. 22, 2020);
United States v. Tucker, No. 18-cr-119, 2020 WL
93951 (E.D.N.Y. Jan. 8, 2020). Thus, while the Second Circuit may have characterized Nix and
McCoy’s argument in favor of the minority view as
an exercise in imagination, it is an imagination of
imminence, comporting with the reality of a critically flawed analysis of the statutory framework.
Joining the minority view espoused herein and
cited above, Tucker, No. 18 CR 0119 (SJ), 2020 WL
93951, at *6, and Lofton, 2020 WL 362348, found
that the elements of attempt to commit robbery

37
could be met without any use, attempted use, or
threatened use of violence. Therein, the Tucker
Court held, “it is incorrect to say that a person necessarily attempts to use physical force within the
meaning of 924(c)’s elements clause just because he
attempts a crime that, if completed would be violent.” Tucker, No. 18 CR 0119 (SJ), 2020 WL 93951,
at *6 (quoting United States v. St. Hubert, 918 F.3d
1174, 1212 (11th Cir. 2019) (Jill Pryor, J., joined by
Wilson and Martin, JJ., dissenting from the denial
of rehearing en banc)). Lofton went further in
describing the majority analysis as only partially
complete, having first made two right turns before
taking a wrong turn. Lofton, 2020 WL 362348 at
*17, 24 (quoting St. Hubert, 918 F.3d at 1211-12)
(not recognizing the critical distinction that intending to commit each element of an offense involving
the use of force is “simply not the same as attempting to commit each element of that crime.”)
(emphasis in original).
Lofton categorically and unconditionally addressed
the Second Circuit’s prohibition against imaginative statutory interpretation by emphasizing that a
charge of attempted Hobbs Act robbery is “much
more than a realistic probability that attempted
Hobbs Act robbery could be applied to conduct
that does not constitute a crime of violence under
§ 924(c)(3)(A).” Lofton, 2020 WL 362348 at *25. In
that regard, the Second Circuit’s presumed admission is extant, and its challenge countered.

38
iii. Conclusion
A plurality is extant among reasonable minds as
to the application of the categorical approach as it
pertains to attempted Hobbs Act robbery. On the
one hand, its application has been disjointed and
perfunctory equating intent with attempt, yet
ignoring substantial analysis of the categorical
approach it espouses. On the other hand, what is
respectfully submitted to be the correct, albeit
minority, interpretation looks to the categorical
application with greater depth and focus on its literal meaning and priority, rather than its current,
perfunctory mechanical application.
This case presents an opportunity to reconcile
the inconsistent treatment of attempted Hobbs Act
robbery under § 924(c)(3)(A) and to guide courts in
applying the categorical approach to attempt
offenses.

39
CONCLUSION
For the above reasons, it is respectfully submitted that the within petition for a writ of certiorari
should be granted.
Respectfully submitted,
/s/ Gregory A. Nahas
Gregory A. Nahas, Esq.
Counsel of Record
PARDALIS & NOHAVICKA, LLP
Counsel for Petitioner
3510 Broadway, Suite 201
Astoria, New York 11106
718-777-0400
greg@pnlawyers.com
On the Brief
Israel Klein, Esq.
Gianna McArthur, Esq.
James Nohavicka
September 15, 2021

APPENDIX

1a
UNITED STATES DISTRICT COURT,
W.D. NEW YORK.
6:14-CR-06181 EAW.
Signed August 24, 2017.
UNITED STATES

OF

AMERICA,

v.
MATTHEW NIX

AND

EARL MCCOY,
Defendants.

Robert Marangola, U.S. Attorney’s Office,
Rochester, NY for United States of America.
Mark D. Hosken, Federal Public Defender,
Rochester, NY, for Defendants.
DECISION AND ORDER
ELIZABETH A. WOLFORD, United States District
Judge.
I. INTRODUCTION
Defendants Matthew Nix (“Nix”) and Earl McCoy
(“McCoy”) (collectively, “Defendants”) were charged
in a Third Superseding Indictment returned on
January 5, 2017, with 12 counts alleging violations
of the Hobbs Act, 18 U.S.C. § 1951(a), and related
firearms and narcotics charges, all in connection

2a
with a spree of violent home invasions during 2014.
(Dkt. 165). Trial commenced on February 13, 2017,
and concluded on March 17, 2017, with the jury
convicting Defendants on all 12 counts. (Dkt. 229;
Dkt. 266; Dkt. 267). Sentencing is presently scheduled for September 8, 2017. (Dkt. 350).
Nix and McCoy aggressively defended the case
before and during trial, and the intensity of that
defense only continued after the jury returned its
verdict.1 Defendants’ post-verdict activities spawned
further hearings, appearances, and motion practice,
with Defendants attacking various aspects of the
trial, from the jury selection to the jury instructions. Among the issues raised by Defendants was
that one of the jurors in this case—“Juror No. 3”2—
1

To illustrate, even though this case has been pending
since October 2014, approximately 30% of the docket entries
have been generated in the few months following the verdict.
2

This District’s Jury Plan as amended on October 31,
2016 (“the Jury Plan”), adopted pursuant to the Jury Selection and Service Act of 1968, 28 U.S.C. §§ 1861 et seq., and
approved by the Judges of the Western District of New York
and the Reviewing Panel of the Judicial Council for the United
States Court of Appeals for the Second Circuit, provides for a
general rule that the names and personal information concerning jurors and prospective jurors should not be publicly
disclosed. See United States District Court, Western District
of New York, Jury Plan, at 9-10 (Oct. 2016), www.nywd.
uscourts.gov/sites/default/files/2016%20Jury%20Plan%
20-%20FINAL-WebVersion.pdf. Consistent with the Jury
Plan, and based on the nature of the allegations directed at
Juror No. 3, this Court determined that publicly revealing
Juror No. 3’s name would not be in the interests of justice
(Dkt. 332), and, accordingly, the juror in question will be
referred to herein as “Juror No. 3” or “J.B.”

3a
was a convicted felon who failed to disclose his
criminal history during jury selection. Juror No. 3’s
felon status was not discovered until, post-verdict,
counsel for Nix uncovered this information based on
a “hunch.” (Dkt. 327 at 6-9). Arguing that Juror No.
3’s felon status tainted the impartiality of the jury,
Defendants have filed motions pursuant to Fed. R.
Crim. P. 33 seeking a new trial. (Dkt. 286; Dkt. 289).
Defendants had a fundamental constitutional
right to a fair trial, and this Court is responsible
for ensuring that they were afforded that right.
Central to that right is the Sixth Amendment’s
guarantee to a trial by an impartial jury. See also
United States v. Nelson, 277 F.3d 164, 206 (2d Cir.
2002) (“[Q]uite apart from offending the Sixth
Amendment, trying an accused before a jury that is
actually biased violates even the most minimal
standards of due process.”). “An impartial jury is
one in which all of its members, not just most of
them, are free of interest and bias.” United States
v. Parse, 789 F.3d 83, 111 (2d Cir. 2015).
However, in the words of the Supreme Court,
Defendants were “entitled to a fair trial but not
a perfect one, for there are no perfect trials.”
McDonough Power Equipment, Inc. v. Greenwood,
464 U.S. 548, 553, 104 S.Ct. 845, 78 L.Ed.2d 663
(1984) (internal quotation marks and citation omitted). In other words, although Defendants were
unquestionably entitled to an impartial jury, they
may not, post-verdict, challenge the selection of
jurors who, in hindsight and with additional information, Defendants wished had not been selected.
After a thorough consideration of the evidence and

4a
the parties’ arguments, the Court concludes that
the presence of Juror No. 3 did not destroy the
impartiality of the jury in this case. Juror No. 3, a
convicted felon who was not qualified to serve,
admittedly blundered his way onto the jury—but
he did not smuggle his way onto the jury through
intentional deceit. As a result, Defendants are not
entitled to a new trial, and, for the reasons discussed below, the motions pursuant to Fed. R.
Crim. P. 33 (Dkt. 286; Dkt. 289) based upon Juror
No. 3’s alleged bias are denied.3
II. BACKGROUND
A. Jury Selection—February 13, 2017
Jury selection occurred on February 13, 2017.
(See Dkt. 328). From a venire of 83, the Court sat a
panel of 36 prospective jurors for the proposed 16member jury (12 jurors and 4 alternates). Prospective jurors were excused for cause and replaced
from the venire as the Court questioned the panel
of prospective jurors. Each prospective juror had
completed a questionnaire mailed to him or her in
advance by the Clerk’s Office. The questionnaire
asked, among other things, for information about
prior felony convictions.4
3

Defendants’ post-verdict motions also raise a number of
other issues in an effort to obtain an acquittal or new trial
pursuant to Fed. R. Crim. P. 29(c) or 33. (See Dkt. 286; Dkt.
289). The Court will address those issues in a separate Decision and Order.
4

The questionnaire asked each prospective juror: “Have
you ever been convicted, either by your guilty or nolo con-

5a
Juror No. 3, an African American male, was the
sixth prospective juror called by the Court’s deputy
clerk, and he was seated in the sixth seat of the
panel of 36. (Id. at 29). After all prospective jurors
were placed under oath (id. at 30), the Court proceeded to ask questions of the panel.
Juror No. 3 responded to the Court’s questions
shortly after the questioning began, when the
Court questioned the prospective jurors about their
availability to sit for the trial that was estimated to
last five weeks:
JUROR NO. 3: Hello, my name is [J.B.]. I’m self
employed.
. . .
THE COURT: What do you do [J.B.]?
JUROR NO. 3: I have my own cleaning business.
Right now it’s covered because I’m working at
night. I don’t know if I can do that for five
weeks.
THE COURT: You tell me what you would be able
to do.
JUROR NO. 3: I don’t know. I have contracted
and these people rely on me to clean the businesses.

tendere plea or by a court or jury trial, of a state or federal
crime for which punishment could have been more than one
year in prison?” (See Court Ex. 15 at 7). If that question was
answered in the affirmative, the individual was prompted to
answer additional questions.

6a
THE COURT: Do you typically clean during the
day[?]
JUROR NO. 3: No, at nighttime. And I have a
couple of contracts during the daytime, too.
THE COURT: Only you know whether or not you
can manage it. We’re going to be in session typically from 9 to 1. You would have the afternoons, typically, would be free and there would
be some days where we’ll be going full days.
Obviously we’re not meeting on the weekends.
You tell me whether or not you think you could
do it.
JUROR NO. 3: I have a contract that gets Tuesday and Friday morning. I don’t know if she
will allow me not to do it for five weeks.
THE COURT: During the break, would you be
able to contact the person.
JUROR NO. 3: Not really, I don’t have my phone.
It’s in the car.
THE COURT: If during the lunch break—
JUROR NO. 3: Yes.
THE COURT: We’ll have about an hour lunch
break, would you be able to make a call to see
if it would work.
JUROR NO. 3: Yes.
(Id. at 40-42).5
5
The transcript filed at Docket 328, as well as other transcripts referenced in this Decision and Order, were filed under

7a
After the first break, Juror No. 3 revealed that he
had been able to “switch everything around” and,
therefore, he would be able to serve if selected. (Id.
at 86-87). Juror No. 3 did not speak for the rest of
the day in response to the Court’s voir dire questions, until the Court asked for biographical information from each juror at the end of the voir dire.
(See id. at 245). As a result, Juror No. 3 did not
respond to any of the following questions that were
asked of the entire panel:6
(1) “Has anyone ever been the victim of a home
robbery?” (id. at 97);
seal in order to protect the identity and personal information
of jurors and prospective jurors, including Juror No. 3, from
public disclosure consistent with the Court’s Jury Plan. See
note 2, supra. The portions that are quoted in this Decision
and Order have been redacted, where necessary, to avoid public disclosure of the identity of jurors and prospective jurors.
6

To be clear, the questions asked by the Court that are
relevant to these post-verdict motions are the ones set forth
above. In various parts of their submissions, as well as during
the evidentiary hearing, Defendants argue that Juror No. 3
failed to provide accurate answers to certain questions that,
in fact, were never asked by the Court during voir dire. (See,
e.g., Dkt. 363 at 11 (“Have you ever been convicted of a
felony? If so, have your civil rights been restored?” and “Have
you ever been the victim of a home robbery or burglary?”);
Dkt. 340 at 2 (criticizing Juror No. 3 for falsely responding to
the questions “[H]ave you ever been convicted of a felony?”
and “[H]ave you ever been to a correctional facility. . . ?”);
Dkt. 359 at 156 (defense counsel stating, at the evidentiary
hearing, “I know the jurors were asked about prostitution”),
160-61 (the Court clarifying that the only reference to prostitution occurred during a sidebar, and the panel of prospective
jurors was not asked about prostitution)).

8a
(2) “Has anyone ever served on a jury before?”
(id. at 205);
(3) “Has anyone ever been a defendant in a
criminal case?” (id. at 214);
(4) “Has anyone ever visited a jail or correctional facility other than in connection with
. . . your educational curriculum” (id. at 229);
(5) “Has anyone had anyone close to them,
other than what we already discussed, I know
we covered this, anyone close to them convicted
of a crime?” (id. at 239).
Similarly, Juror No. 3 did not offer any information in response to the Court’s “catch-all” questions
asked toward the end of voir dire: whether there
was “anything in fairness to both sides that you
think we should know that we haven’t covered
already” (id. at 221), and “[i]s there anything that
you think we should know that we haven’t covered
up to this point?” (id. at 257).
Juror No. 3 was one of two African American
males seated in the panel of 36 prospective jurors.7
Like Juror No. 3, prospective juror “T.P.” was also
called by the Court’s deputy clerk during the initial
seating. (Id. at 30). T.P was seated in seat 26 of the
panel of 36. (Id.). And like Juror No. 3, T.P.
remained quiet throughout much of the voir dire
until the Court asked each prospective juror at the
end of jury selection to provide biographical infor7

Both Defendants are African American males.

9a
mation.8 (See id. at 252). Also like Juror No. 3, T.P.
was a convicted felon and failed to disclose that
information either when completing the questionnaire mailed by the Clerk’s Office or in response to
the Court’s voir dire questions. (See Court Ex. 3A).
However, unlike Juror No. 3, T.P.’s felon status
was discovered during jury selection when, prior to
exercising peremptory challenges, the Government
disclosed that it had run a background check on T.P.
and discovered his undisclosed criminal history.
(Dkt. 328 at 269-75; see also Court Ex. 3B; Court
Ex. 3C).
When the Government brought to the attention
of the Court and defense counsel its discovery of
T.P.’s criminal history, counsel for McCoy accused
the Government of targeting the racial minorities
on the jury. (Dkt. 328 at 270 (“I’m concerned if an
African American comes in and the FBI is running
record checks on him, they probably did that with
the other one, too.”)). The Government denied
defense counsel’s accusations, and ultimately the
issue was resolved with the Government agreeing
to use one of its peremptory challenges to strike
T.P. (Id. at 270-75).
As it turns out, the Government had not run a
background check on any other prospective juror,
including Juror No. 3 (Dkt. 308 at ¶ 3(A)), and
8

The only time that T.P. spoke before providing biographical information was when another prospective juror, A.B.,
an African American female who was ultimately seated on
the jury as Juror No. 6, indicated in response to the Court’s
questions that she knew T.P. as the son of her former pastor.
T.P. denied knowing Juror No. 6. (See id. at 218-19).

10a
Juror No. 3’s criminal history was not discovered
until after the return of the verdict. One of the
issues Nix raises in his post-verdict motion is the
Government’s background check on T.P. (Dkt. 289
at ¶¶ 83-84).9 Thus, Defendants seek a new trial
both because an African American prospective
juror who failed to disclose his criminal history was
excused from the jury, and because an African
American prospective juror who failed to disclose
his criminal history was not excused from the jury.
B. Discovery of Juror No. 3’s Felon Status
Post-verdict, Defendants filed motions pursuant
to Fed. R. Crim. P. 29(c) and 33 raising a number of
issues, including the discovery that Juror No. 3
may be a convicted felon. (Dkt. 286-1 at ¶¶ 8-22;
Dkt. 289 at ¶¶ 36-50). 10 The Government filed
papers in opposition to the motions, and, among
other things, indicated that it was unaware of
Juror No. 3’s felon status until the issue was raised
in Defendants’ post-trial filings. (Dkt. 296 at 5-11).
Defendants filed reply papers (Dkt. 299; Dkt. 300),
and, due to the competing allegations about the
background checks on the jurors in the case, the
9

Again, the Court will address the issue involving T.P.,
along with the other issues Defendants raise in their motions
filed pursuant to Fed. R. Crim. P. 29(c) and 33, in a separate
Decision and Order.
10

Juror No. 3 was mistakenly referenced as Juror No. 4
in some of the earlier post-verdict filings and transcripts,
including by the Court. At the appearance on May 15, 2017,
it was clarified that the juror in question is Juror No. 3. (See
Dkt. 327 at 23; see also Dkt. 344 at 2 n.1).

11a
Court directed each counsel to disclose, by affidavit, information about any background checks
conducted on jurors or prospective jurors. (Dkt.
302). Counsel for each party filed affidavits (Dkt.
306; Dkt. 308; Dkt. 309), and a hearing was conducted on May 15, 2017 (see Dkt. 327).
At the appearance on May 15, 2017, counsel for
Nix indicated that he performed the criminal background check post-verdict on Juror No. 3 based on “a
hunch.” (Id. at 6-9). The Court determined that it
would hold an evidentiary hearing concerning Juror
No. 3 (id. at 25-27), and the Court scheduled a further appearance for May 25, 2017 (id. at 28-29). At
the Court’s direction, the United States Marshals
Service served Juror No. 3 with an Order directing
his appearance on May 25, 2017. (Dkt. 315; Dkt. 317).
On May 25, 2017, Juror No. 3 appeared in Court,
was advised of his rights, and, at his request, counsel was appointed to represent him. (Dkt. 329 at 57). The Court set a date to conduct an evidentiary
hearing: June 12, 2017. (Id. at 11). The Court also
heard argument from counsel on the scope of the
hearing, and it reserved decision on whether it
would allow counsel to question Juror No. 3, indicating that the Court was going to initiate the
questions and any questions that the parties wanted asked needed to be submitted to the Court in
advance. (Id. at 37-41; see, e.g., Dkt. 312).11 On
11

The legal support for the Court having broad discretion
to control the means and manner of any inquiry of Juror No.
3 in these post-verdict proceedings is discussed in detail in
the Decision and Order filed on June 9, 2017, and will not be
repeated here. (See Dkt. 344 at 16-22).

12a
June 9, 2017, the U.S. Attorney’s Office provided
an immunity letter to Juror No. 3. (See Dkt. 358 at
7012).
C. The Evidentiary Hearing
The evidentiary hearing commenced on June 12,
2017, and continued on June 14, 2017 (Dkt. 358;
Dkt. 359). Only the Court asked questions on the
first day of the hearing, but counsel were permitted
to ask questions during the second day of the hearing. (See Dkt. 358; Dkt. 359).
Juror No. 3, a 47-year-old African American male
(see Dkt. 358 at 76; see, e.g., Court Ex. 14), testified
that he did not have a high school diploma or
G.E.D., but had been educated up until the 11th
grade (Dkt. 358 at 71). He has five children (id. at
71-72) and is self-employed as a cleaner (id. at 71;
see, e.g., Court Ex. 14). He described his marital
status as single (Dkt. 358 at 72), although when
questioned further about his marital status, it was
revealed that he is separated but not legally
divorced (id. at 94-95).
Juror No. 3 acknowledged that he completed the
Court’s juror questionnaire online (id. at 73), and
he inaccurately answered “No” in response to Question No. 6, which asked: “Have you ever been convicted either by your guilty or nolo contendere plea
or by a court or jury trial, of a state or federal crime
12

References to the page numbers for the transcripts
filed at Dockets 358 and 359 are to the actual page numbers
of the transcript, not to the electronically-designated pages
from CM/ECF.

13a
for which punishment could have been more than
one year in prison?” (id. at 74; see Court Ex. 14;
Court Ex. 15).
Juror No. 3 explained his reasoning for answering inaccurately as follows: “At the time, I thought
that it meant 21 and over.” (Dkt. 358 at 74). Juror
No. 3 offered a similar explanation as to why he
had not offered this information during the Court’s
questions during voir dire (id. at 86-88), but he
acknowledged that his answers were not accurate:
Q But I never said 21 and up, did I?
A No, you did not.
Q And the questionnaire didn’t say 21 and up,
did it?
A No, it did not.
Q And as you sit here now, would you agree
with me that you did not answer those questions truthfully?
A Yes.
(Id. at 89).
While admitting that he had been convicted of at
least one felony, Juror No. 3 displayed a hazy memory concerning the number of prior felony convictions and arrests.
Q Can you tell me how many crimes punishable by more than one year in prison or felonies
have you been convicted of?
A Truthfully, I don’t remember, your Honor.

14a
(Id. at 75). Juror No. 3 did offer that he could recall
being convicted of a felony where he “was accused
of breaking into a clothing store” when he was 17 or
18 years old. (Id. at 76). He testified that he was
sentenced to two to four years in prison, but that
sentence was satisfied by serving six months in
“shock camp.” (Id. at 78). However, Juror No. 3 did
not recall several facts surrounding this conviction,
such as: if the charge was resolved through a plea
or trial (id. at 76); where the shock camp was located (id. at 78); the name of one of his co-defendants
(id. at 77); if he was prosecuted in federal or state
court (id. at 79); and the name of the judge who
sentenced him (id.).
Initially, Juror No. 3 testified that he did not
know if he had been convicted of any other felonies
other than the one involving the clothing store:
Q Other than that felony conviction [involving
the burglary of the clothing store], do you know
if you were convicted of any other prior
felonies?
A No, I don’t.
(Id. at 80). He testified that he had been arrested,
although the only arrest that he was initially able
to recall involved a stolen car when he was 17 or 18
years old, and he testified that he could not recall
how it was resolved. (Id.). However, later during
the first day of the hearing, Juror No. 3 testified
that he was convicted of the incident involving the
stolen car:

15a
Q How did the—I may have asked you this, I’m
not sure—how did the stolen motor vehicle
charge get resolved?
A I’m not sure.
Q In other words, do you know if you were convicted or not?
A Yes.
Q You were convicted?
A Yes.
Q But you don’t know if you were convicted by
a plea or by a trial?
A No, I don’t.
Q And as you sit here now, you don’t know if
you served—you don’t recall serving any time
for that conviction —
A No, I —
Q—is that fair to state?
A Yes, your Honor.
(Id. at 87-88).
Juror No. 3 testified that he was falsely
accused of both the clothing store burglary and
the stolen car crime:
Q So, you were falsely accused of this crime
[involving the clothing store burglary]?
A Yes.
(Id. at 79).

16a
Q And if I understand correctly, you did not
actually engage in the burglary of the clothing
store, correct?
A Yes.
Q What about the stolen vehicle, did you actually steal a vehicle?
A No.
(Id. at 84-85). However, during the second day of
the hearing, when confronted with his signed confession about the burglary of the clothing store,
Juror No. 3 ultimately admitted his involvement
and that he provided the Court false testimony on
the subject. (Dkt. 359 at 181-84). When the Court
confronted him about why he failed to testify accurately, Juror No. 3 had no explanation:
Q So, why did you not answer my question
accurately when I first asked it of you?
A Don’t know.
Q You don’t know?
A No.
Q Isn’t it fair to state that you’d prefer not to
be honest about your prior criminal history?
A Truthfully, I don’t think about my prior history, to tell you the truth. I don’t think about
it.
Q Well, we’re here on it right now.
A Yes, we are.

17a
Q So we’re talking about it right now. Isn’t it
fair to state that you’d prefer not to be honest
about your prior criminal history?
A No.
(Id. at 183; see id. at 231 (admitting that Juror No.
3 provided false testimony during first day of the
hearing about his involvement in the clothing store
burglary)). In response to Nix’s counsel’s questions,
Juror No. 3 also admitted that he remembered
stealing a car and switching the license plates. (Id.
at 225).
A number of additional arrests were reflected in
the records obtained by the parties in preparation
for the evidentiary hearing. Juror No. 3 appeared
to have no memory of those arrests:
Q Do you recall being arrested in 1986 for
assault in the second degree?
A No, I don’t.
Q Do you recall being arrested in March of
1987 for petit larceny?
A No.
Q And in connection with that arrest, do you
recall you were convicted and were sentenced
to two work Saturdays; do you have any recollection of that?
A No.
Q What about a conviction in November 1987
for petit larceny where you served 14 days in

18a
the Monroe County Jail; does that sound familiar to you?
A Truthfully, your Honor, I don’t remember
none of this stuff. That was 28 years ago.
(Dkt. 358 at 81-82).
Q Do you recall being arrested in July of 1989
for burglary in the second degree for illegal
entry of a dwelling?
A No, I do not.
. . .
Q Do you recall burglarizing a home in May of
1989?
A No, I do not.
(Id. at 84). In addition, during the second day of the
hearing, Juror No. 3 was questioned by the Court
about reports concerning two separate alleged
domestic violence incidents (one in 1993 and the
other in 1999)—one of which he recalled but for
which he denied being arrested, and the other of
which he had no recollection. (Dkt. 359 at 176-77).
During questioning by Nix’s counsel, Juror No. 3
appeared to have some recollection of a petit larceny conviction on March 10, 1987 (id. at 215-16),
and possibly an assault charge when he was 16 (id.
at 214-15), although it was impossible to distinguish at that point whether Juror No. 3 was testifying based on his memory or his review of records.
In addition, other than his six-month stint at
shock camp for the clothing store burglary, Juror

19a
No. 3 indicated he had no memory of being incarcerated for any other period of time, other than
possibly overnight for the stolen vehicle charge:
Q Do you recall ever serving any time in the
Monroe County Jail?
A Not at all, no, I don’t.
Q I mean, as you sit here right now, can you
tell me whether or not you’ve been to the Monroe County Jail?
A Yes, I’ve been there.
Q And tell me in connection with why you’ve
been there.
A For the stolen car.
Q Okay. And, so, tell me about the time—I
mean, were you kept overnight for the stolen
car?
A Yes.
Q So, how long were you kept overnight for the
stolen car, do you recall?
A I don’t remember how long. I think I got out
the next day on my own recognizance, I think.
I’m not sure.
. . . .
Q Do you recall being sentenced for that case
[the stolen car case] in April of 1988, does that
sound as though it may be correct?
A It sounds like it’s correct, the year, yes.

20a
Q If records indicated that you served six
months in the Monroe County Jail for that,
would those be accurate?
A All I remember is shock camp, six months in
shock camp. I don’t remember doing six months
in jail.
Q So if I understand correctly, you recall possibly spending a night in jail in connection the
stolen car arrest, correct?
A Yes.
Q And you recall six months in shock camp correct?
A Yes.
Q But is there any other time that you recall of
serving time either in prison or jail in any
capacity?
A Don’t remember.
Q Is there anything that would refresh your
recollection?
A Not really.
(Dkt. 358 at 82-83). When confronted during the
second day of the hearing with the certified copy of
his conviction involving the stolen vehicle, which
indicated that he served six months in the Monroe
County Jail in 1988, Juror No. 3 continued to insist
that he had no recollection of serving that time.
(Dkt. 359 at 185-86). In response to questioning by
McCoy’s counsel, Juror No. 3 indicated that he did
not share information about his prior sentences

21a
because “[s]he [referencing the Court] said visited
a jail. I assume she meant visiting somebody else,
not me actually going to jail. That’s why I didn’t
tell her.” (Id. at 197). Juror No. 3 also responded to
the Court’s questions during the first day of the
hearing that with respect to his actual time in jail,
as with the convictions, he assumed the questions
applied to incidents only when he was 21 or older.
(Dkt. 358 at 88-89).
In response to the Court’s questions, Juror No. 3
expressed his belief that his civil rights had been
restored because of the age of his criminal convictions, and he also denied knowing that his criminal
history would have disqualified him from jury service:
Q As far as you know, were your civil rights
ever restored?
A I thought they were.
Q And why did you think they were?
A Because it happened 20 years ago. I assumed
that they were.
Q Are you able to vote?
A Yes.
Q Did you know that a prior felony conviction,
without having your civil rights restored,
would have disqualified you from jury service
in this case?
A No, I did not.
. . .

22a
Q Would you agree with me, as you sit here
now, that you did not answer this questionnaire correctly, this question number six?
A Yes.
Q And can you tell me, at the time that you
answered it, did you know that you were
answering that question inaccurately?
A No, I did not.
Q And what was your understanding of what
the question was seeking, what information?
A Like I said, I thought it meant from 21 and
up. I assumed that. That’s what I assumed.
Q Why did you assume that?
A Because I thought everything that I did back
then was expunged or whatever. I didn’t know
that it was a felony still on there.
Q And you thought it was expunged because of
your age?
A Yes.
(Id. at 85-86).
Juror No. 3 denied that his prior criminal history
impacted his ability to be fair and impartial, and
he denied being biased in favor of either Defendants or the Government. (Id. at 90; see also id. at
93; Dkt. 359 at 170). He also denied sympathizing
or identifying with the cooperating witnesses in
this case because of his criminal history. (Dkt. 358
at 91-92; Dkt. 359 at 170-71). Similarly, he denied
working with law enforcement or prosecuting agen-

23a
cies as a cooperating witness and he had no recollection of cooperating against his co-defendants in
the clothing store burglary case. (Dkt. 358 at 95).13
Juror No. 3 testified that he was aware at the
time of the hearing of the fact that his son had been
convicted of a crime (id. at 93), but at the time of
jury selection he had not spoken to his son in three
or four years, and, as a result, he was not aware of
his son’s conviction during jury selection. (Id. at
93-94; Dkt. 359 at 167). Juror No. 3 denied know13
When questioned by Nix’s counsel during the second
day of the hearing, Juror No. 3 was asked whether he cooperated with law enforcement when he confessed to crimes and
named his co-defendants, to which Juror No. 3 responded “I
guess so.” (Dkt. 359 at 222). The Court did not find this line
of questioning particularly illuminating given counsel’s tone
and the leading nature of the questions. Indeed, at the conclusion of the first day of the hearing, the Court indicated to
counsel that it would allow them to ask questions and not
prohibit them from asking leading questions. However, the
Court also gave fair warning that due to perceived comprehension issues on the part of Juror No. 3, eliciting admissions
from Juror No. 3 with leading questions was not going to be
particularly helpful in aiding the Court’s credibility assessment. (Dkt. 358 at 138). Thus, although the Court overruled
various objections by the Government during this line of
questioning by Nix’s counsel because the Court believed that
counsel generally should have been permitted to pursue their
questioning in the manner that they deemed appropriate, the
Court did not find that means of questioning—leading questions in a confrontational tone—helpful in reaching a credibility assessment of Juror No. 3. Moreover, and in any event,
there is no evidence that Juror No. 3 received a benefit in
exchange for his confession or naming of co-defendants, nor is
there any evidence that he testified at a trial against any codefendant, like the cooperating witnesses in this case.

24a
ing of anyone else who was close to him who had
been convicted of a crime (Dkt. 358 at 94-95; Dkt.
359 at 212-13), and he similarly denied visiting any
family member or close friend in jail (Dkt. 358 at
95).
Juror No. 3 testified that he had been previously
called for two other juries, and in one of those cases
he was selected, but the jury never reached a verdict because the defendant pleaded guilty.14 (Dkt.
358 at 100-01; Dkt. 359 at 169). Juror No. 3 testified that he answered other juror questionnaires
the same way he did in this case because he
assumed the convictions were not part of his record
if they occurred before the age of 21. (Dkt. 358 at
101). In response to questioning by McCoy’s counsel, Juror No. 3 denied any recollection of being
asked during voir dire about his prior jury service,
but then appeared to recall the question but could
not recall if he had answered it:
Q And do you recall being asked if you’d ever
sat on a jury before?
A No, I don’t. It was a long day.
. . .
14

Counsel for Nix makes reference in his post-hearing
submission to Juror No. 3’s prior jury service occurring on
July 6, 2015 (Dkt. 369 at 14), although nothing in the record
supports that information. It appears as though counsel for
Nix may have spoken to “counsel for OCA” about Juror No. 3’s
state court jury service (id.), although, again, nothing in the
record supports this conclusion other than this passing reference in Nix’s post-hearing memorandum.

25a
Q And do you recall her [referencing the Court]
asking if anybody had ever sat on a jury
before?
A Yes.
Q And do you recall whether or not you
answered that question?
A No, I don’t.
Q Did you tell her that you had sat on a jury
before?
A I don’t know if I told her yes or no.
(Dkt. 359 at 193-94).
During the second day of the hearing, Juror No.
3 was questioned about an incident in October
1999, in which his home was broken into and various items were stolen, including jewelry and his
wife’s checkbook. (Id. at 172). The records regarding this incident were produced on June 13, 2017,
in response to a subpoena served by counsel for Nix
(and, thus, were not available on the first day of
the hearing). Juror No. 3 testified that he did not
share this information in response to the Court’s
questions during voir dire because “truthfully, it
slipped my mind, forgot all about it.” (Id. at 173).
Juror No. 3 testified that he had remembered the
burglary only when the documents were produced
in response to the subpoena. (Id.). Juror No. 3
denied having any recollection of the event at voir
dire or during the trial, and testified that he
recalled the incident only after being presented
with the subpoenaed documents:

26a
Q When did you remember it?
A When I saw the documents.
Q So within the last 24 hours?
A Yes.
Q On Monday, before you had seen those documents, did you have any memory of this incident?
A No, I did not.
Q . . . Were there any other occasions where
you were living in a home and it was burglarized or robbed?
A Nope.
Q Is this the only time?
A It’s the only time.
Q Well, wasn’t it a pretty significant event in
your life?
A Not really because we weren’t there. Just
came home and the house was broken into.
Q . . . [D]id your memory at all get refreshed
about that sitting through a five-week trial
dealing with home invasion?
A No, it did not.
Q I mean, that never once occurred to you?
A No, it did not.

27a
Q And it wasn’t until you saw the actual police
report in this case that I provided to counsel
yesterday that this—hat you remember this?
A Yes.
(Id. at 173-74). The records from this incident indicate that Juror No. 3’s wife was the primary point
of contact with law enforcement after the incident
(Court Ex. 17), which was consistent with Juror
No. 3’s testimony that his wife handled the matter.
(Dkt. 359 at 201).
D. Certified Certificates of Conviction
Based on the certified certificates of conviction
procured by McCoy’s counsel and introduced at the
evidentiary hearing as Court Exhibits 21 and 22,
the fact of the prior felony convictions is plainly
established.
On March 9, 1988, Juror No. 3 pleaded guilty to
criminal possession of stolen property in the fourth
degree (a class E felony). (Court Ex. 21). The certificate of conviction reflected the imposition of a
sentence on April 6, 1988, of six months in the
Monroe County Jail. (Id.). This conviction involved
the stolen car. Juror No. 3 was 18 years old at the
time of this conviction and sentence.
On September 26, 1989, Juror No. 3 pleaded
guilty to burglary in the third degree (a class D
felony), and he was sentenced to two to four years
in the New York State Department of Corrections
on January 11, 1990. (Court Ex. 22). Juror No. 3
testified that in lieu of serving two to four years in

28a
prison, he spent six months in shock camp. (Dkt.
358 at 78). This conviction involved the clothing
store burglary. Juror No. 3 was 19 years old at the
time of this conviction and sentence.
E. Post-Hearins Submissions
In accordance with the schedule set by the Court,
McCoy filed his post-hearing memorandum on July
7, 2017. (Dkt. 363). In that submission, McCoy
argues that Juror No. 3’s felony conviction alone
warrants the granting of a new trial, without any
showing of bias. (Id. at 8-10). Alternatively, McCoy
argues that both prongs of the McDonough test15
have been satisfied (id. at 10-17), contending that
Juror No. 3 was involved in conduct similar to the
conduct at issue in this case so as “raise the possibility that an inferred bias exists” and the “potential for substantial emotional involvement” (id. at
15), and as a result, Juror No. 3 would have been
excused for cause if he gave honest answers during
voir dire. McCoy concedes in his submission that it
“is unknown . . . why [Juror No. 3] lied during voir
dire” (id. at 17; see also id. at 19), but contends that
the material and repeated lies by Juror No. 3 make
his presence on the jury “incompatible with our
truth-seeking process. . . .” (Id. at 18). McCoy
15

As discussed further below, the “McDonough test” is a
two-prong test to evaluate a motion for a new trial based on
incorrect responses by a juror during voir dire, based on the
Supreme Court’s decision in McDonough Power Equipment,
Inc. v. Greenwood, 464 U.S. 548, 104 S.Ct. 845, 78 L.Ed.2d
663 (1984).

29a
does not specify any actual bias that has been
demonstrated on the part of Juror No. 3, but rather
contends that the Court should infer bias and order
a new trial as a result. (See id. at 17-23).
On July 8, 2017, counsel for Nix emailed his posthearing submission to the Court and counsel, and
then filed that submission on July 19, 2017. (Dkt.
369). In that submission, among other things, Nix
refers to alleged prior drug convictions related to
alleged siblings of Juror No. 3. (Id. at 11).16 Nix
also argues that one of the Government’s potential
law enforcement witnesses in this case was
involved in the investigation of Juror No. 3’s clothing store burglary, and since Juror No. 3 was convicted based on that law enforcement witness’
efforts, “[h]e would remember him.” (Id. at 13). He
also argues that another Government witness was
involved in the investigation related to Juror No.
3’s son. (Id.). Indeed, Nix contends that Juror No. 3
has “had bad experiences with law enforcement.”
(Id. at 12). However, the thrust of Nix’s post-hearing submission is that Juror No. 3 necessarily identified with the cooperating witnesses in this case,
and, therefore, he must have been biased against
Defendants. (See id. at 22).
16
Nix’s post-hearing submission refers to various
exhibits, such as Exhibits 5 and 6 allegedly pertaining to
Juror No. 3’s siblings’ criminal history—but there are no
exhibits attached to the post-hearing submission. (See Dkt.
369). Nix may be referencing the documents filed at Docket
366, which was mistakenly filed as a “motion” but consisted
of only exhibits and, thus, was terminated as a motion by the
Court. (See Dkt. 367).

30a
In accordance with the schedule set by the Court,
the Government filed its post-hearing memorandum of law on July 21, 2017. (Dkt. 370). The Government argued that Juror No. 3’s non-responsive
answers and demeanor during the hearing demonstrated that he had difficulty understanding questions put to him by the Court and counsel. (Id. at 2
(“He appeared nervous and uncomfortable and, at
times, defensive, which is understandable (in additional to his lack of comprehension) considering he
was ordered to appear in court, read his rights in
open court as if he were under arrest, assigned an
attorney, and publicly questioned under oath by a
federal judge, two criminal defense lawyers, and a
federal prosecutor.”)). The Government argues that
the evidentiary hearing did not reflect a “ ‘searching inquiry’ by the defense to vindicate a constitutional right” but rather it reflected “an all-out
attack with the singular focus of trying to make the
juror look like a liar at every turn, for the sole purpose of getting out from under the consequences of
the constitutionally valid guilty verdicts after a
full, fair and impartial trial by a jury they chose.”
(Id. at 2-3). The Government challenges the nature
of the questioning by defense counsel, contending
that it was “done in a sarcastic, condescending and
goading manner” and that before the hearing,
those same counsel “had already publicly vilified
[Juror No. 3] as a liar and unfairly blamed him for
the plight of their clients.” (Id. at 4). The Government contends that Defendants have failed to
establish that Juror No. 3 intentionally lied during
jury selection, nor have they demonstrated that

31a
honest answers would have required the Court to
excuse Juror No. 3 because of actual or implied
bias, or justified his excusal due to inferred bias
against Defendants or in favor of the Government.
(Id. at 4-5). In short, the Government submits that
Defendants have failed to meet their burden under
the McDonough test.
Defendants filed their post-hearing reply memoranda on July 28, 2017. (Dkt. 371; Dkt. 372). Nix
argues that the “prosecution is very tolerable of
perjury in a federal courtroom when it suits them”
and that, contrary to the Government’s arguments,
every response from Juror No. 3 at the hearing
“was more deceitful and mendacious than the
next.” (Dkt. 371 at 2). McCoy challenges the Government’s description of the hearing as “pure
invention” and “especially outlandish” given the
plans that the Court put in place with respect to
the conduct of the hearing. (Dkt. 372 at 2). McCoy
continues that “lying at voir dire because of embarrassment or some other benign reason might be
understandable, [but] multiple lying at the hearing
and indeed committing perjury is another thing
altogether.” (Id. at 4). McCoy submits that “perhaps Juror # 3’s inability to accept his past led to
the same pattern of false answers.” (Id. at 8).
McCoy argues that a challenge for cause by the
Government would have been granted if Juror No.
3 had disclosed his criminal history. (Id. at 9).
McCoy also argues that Defendants would have
raised a successful cause challenge if they had
known about the burglary involving Juror No. 3’s
home. (Id.).

32a
III. LEGAL STANDARD
Pursuant to the Jury Selection and Service Act of
1968, 28 U.S.C. §§ 1861 et seq. (“JSSA”), Juror No.
3’s prior felony convictions made him statutorily
ineligible to serve on the jury in this case. See 28
U.S.C. § 1865(b)(5) (disqualifying from jury service
any person who “has a charge pending against him
for the commission of, or has been convicted in a
State or Federal court of record of, a crime punishable by imprisonment for more than one year and
his civil rights have not been restored”). However,
this information was never disclosed during voir
dire, and it is too late for any statute-based challenge to Juror No. 3’s service. See id. § 1867(a), (e)
(providing that the procedures under the JSSA are
exclusive means to challenge jury not selected in
conformity with the provisions of the JSSA, and
setting final deadline to challenge as before the
voir dire examination begins); Dkt. 381 at 3-6 (discussing the untimeliness of any challenge by
Defendants to jury under JSSA); see also United
States v. Silverman, 449 F.2d 1341, 1344 (2d Cir.
1971) (finding where there was a substantial failure to comply with § 1865(b)(2), but the challenge
was not raised until after the return of the verdict,
the defendant’s “attack on that conviction cannot
be founded on [the juror’s] disqualification under
the statute”); United States v. Harmon, 21
F.Supp.3d 1042, 1049 (N.D. Cal. 2014) (finding
§ 1865(b)(5) “is a statutory bar as applied to
prospective jurors, not a constitutional requirement required under due process principles”); cf.

33a
United States v. Boney, 977 F.2d 624, 633 (D.C. Cir.
1992) (finding that the provisions set forth in
§ 1865(b)(5) apply to the procedures utilized by a
district court to administer the jury selection
process—not to a situation where a juror fails to
disclose his felon status on the jury qualification
form).
As a result, Defendants base their challenge to
Juror No. 3’s selection for this jury on the Sixth
Amendment’s guarantee of the right to an impartial jury. However, the “Sixth Amendment right to
an impartial jury . . . does not require an absolute
bar on felon-jurors.” Boney, 977 F.2d at 633. As
explained by the D.C. Circuit in Boney:
A per se rule would be appropriate . . . only if
one could reasonably conclude that felons are
always biased against one party or another.
But felon status, alone, does not necessarily
imply bias. In fact, as the dissent suggests,
Congress’ purpose in restricting felons’ jury
service may stem from considerations other
than a concern for biased jurors. More important, a per se rule requiring a new trial whenever it turns out that a felon served on a jury
seems inconsistent with McDonough’s hostility
to unnecessary new trials, and the oft-repeated
axiom that “a defendant is entitled to a fair
trial but not a perfect one.” We think, therefore, that the Sixth Amendment guarantee of
an impartial trial does not mandate a per se
invalidation of every conviction reached by a
jury that included a felon.

34a
Id. at 633 (citations omitted); see also United States
v. Langford, 990 F.2d 65, 69 (2d Cir. 1993) (rejecting the argument that a juror’s intentionally false
response during voir dire is automatic grounds for
a new trial).17
17
McCoy argues that because a convicted felon such as
Juror No. 3 is per se disqualified pursuant to 28 U.S.C.
§ 1865(b)(5), the verdict must be set aside without any inquiry
into Juror No. 3’s reasons for not disclosing his criminal record
and without any finding of bias. (Dkt. 363 at 8-10). This argument has been rejected by every circuit court to have considered the issue. See Hanna v. Ishee, 694 F.3d 596, 616 (6th Cir.
2012) (“[I]t is inappropriate to invalidate, as a matter of law,
any conviction simply because it was reached by a jury that
mistakenly included a convicted felon.”); United States v.
Bishop, 264 F.3d 535, 554 (5th Cir. 2001) (“[O]nce the trial is
complete, a felon’s serving as a juror is not an automatic basis
for a new trial.”); Coughlin v. Tailhook Ass’n, 112 F.3d 1052,
1059 (9th Cir. 1997) (holding that the participation of a felonjuror who is statutorily disqualified from serving “is not an
automatic basis for a new trial” and the defendant must still
show that the juror’s participation resulted in “actual bias” to
one of the parties); United States v. Humphreys, 982 F.2d 254,
261 (8th Cir. 1992) (holding that the participation of felon
juror, who mistakenly believed that civil rights had been
restored, did not justify new trial, and finding that “[i]n an
effort to obtain a new trial, it is incumbent upon the defendant
to clearly demonstrate that the juror’s lack of qualifications
presented actual bias or prejudice, affecting the juror’s impartiality and impacting the fairness of the trial. A challenge after
the verdict without such a showing comes too late.”); United
States v. Boney, 977 F.2d 624, 633 (D.C. Cir. 1992) (holding
that felon status alone does not imply bias); United States v.
Uribe, 890 F.2d 554, 562 (1st Cir. 1989) (holding that the fact
that a felon juror technically should have been disqualified
under statute does not automatically require a new trial).
McCoy contends that he is relying on the dissenting
opinion in Boney (Dkt. 363 at 9), but a per se rule was rejected

35a
Thus, the question as to whether Defendants’
Sixth Amendment rights were violated by virtue of
Juror No. 3’s selection to the jury necessarily centers on whether his presence destroyed the impartiality of the jury; in other words, was Juror No. 3
biased? Based upon the Supreme Court’s decision
in McDonough Power Equipment, Inc. v. Greenwood, 464 U.S. 548, 104 S.Ct. 845, 78 L.Ed.2d 663
(1984), the Second Circuit has adopted a two-part
test that a defendant must establish in order to justify granting a new trial based upon incorrect
responses by a juror during voir dire: (1) the defendant must first demonstrate that the juror “failed
by the Boney dissent. See Boney, 977 F.2d at 639 (Randolph,
J., dissenting) (“I would therefore reject the defendants’ argument that the Sixth Amendment itself bars felons from serving on juries and requires reversal per se where one slips
through.”). McCoy also contends that he is relying on the
Eleventh Circuit’s decision in Jackson v. Alabama State
Tenure Commission, 405 F.3d 1276 (11th Cir. 2005), (Dkt.
363 at 9), but Jackson did not adopt a per se rule as advocated
by McCoy. Rather, Jackson determined that the first prong of
the McDonough test must be satisfied—in other words, there
must be a finding that the juror intentionally failed to disclose the prior felony conviction. 405 F.3d at 1288-89 (finding
no reasonable possibility that juror could have forgotten
three years spent in prison for murder). Moreover, to the
extent Jackson dispensed with the second prong of the McDonough test, this Court finds that reasoning unpersuasive,
especially in view of the other circuit courts that have rejected the per se rule, and because satisfaction of the second
prong of the McDonough test was apparently undisputed in
Jackson. See id. at 1288 (“It is undisputed that a question
about prior felony convictions is material to jury service and
that an honest answer from this juror would have provided a
basis to challenge her for cause.”).

36a
to answer honestly a material question on voir
dire”; and (2) the defendant then must also demonstrate that “a correct response would have provided
a valid basis for a challenge for cause”—in other
words, the juror would have been excused for bias
based on the correct voir dire response. Langford,
990 F.2d at 68-69 (quoting McDonough, 464 U.S. at
556-58, 104 S.Ct. 845); see also United States v.
Stewart, 433 F.3d 273, 303 (2d Cir. 2006) (“[A]
party alleging unfairness based on undisclosed
juror bias must demonstrate first, that the juror’s
voir dire response was false and second, that the
correct response would have provided a valid basis
for a challenge for cause.”); United States v.
Shaoul, 41 F.3d 811, 816 (2d Cir. 1994) (“We reiterate that, in order to obtain a new trial, a defendant
must show both that a juror gave a dishonest
answer, and that the correct answer would have
provided a basis for the defendant to challenge the
juror for cause.”).
The first part of the test entails a threshold
requirement to show juror dishonesty. Shaoul, 41
F.3d at 815. In other words, the Court must assess
whether Juror No. 3 deliberately lied or consciously
deceived the Court, as opposed to providing inaccurate responses as a result of a mistake, misunderstanding or embarrassment. See McDonough, 464
U.S. at 555, 104 S.Ct. 845; Langford, 990 F.2d at
69-70 (finding where a juror’s intentionally false
statements at voir dire were caused by embarrassment, and there was no evidence “that she gave
false answers because of any desire to sit on the
jury,” it was proper for the district court to deny

37a
the defendant’s motion for a new trial (emphasis
added)); see, e.g., United States v. Escalera, 536
Fed.Appx. 27, 35 (2d Cir. 2013) (“[The defendant]
points to no record evidence that the juror intentionally failed to disclose [material information
during voir dire], much less that the reason for the
non-disclosure was to avoid excusal (as opposed to
embarrassment) or to conceal some bias that could
have prejudiced the trial.”); Dyer v. Calderon, 151
F.3d 970, 984 (9th Cir. 1998) (“Not all jurors may
walk a perfectly straight line. A distracted juror
might fail to mention a magazine he subscribes to.
An embarrassed juror might exaggerate the importance of his job. Few voir dires are impeccable, and
most irregularities can be shrugged off as immaterial to the fairness of the trial.”).
With respect to the second part of the test, the
Court must determine if it would have granted a
hypothetical cause challenge if Juror No. 3 had
responded accurately to the Court’s questions.
Stewart, 433 F.3d at 304 (citing United States v.
Greer, 285 F.3d 158, 171 (2d Cir. 2002)); see United
States v. Blackwell, 436 Fed. Appx. 192, 196 (4th
Cir. 2011) (“[A] ‘McDonough claim necessarily fails
unless the court would have committed reversible
error—that is, abused its discretion—in failing to
dismiss a juror.’ ” (citation omitted)).
This second part of the test is really the most
crucial. Stewart, 433 F.3d at 305 (“The significant
factor, however, is that the District Court found
that even if it were established that [the juror’s]
responses were false as alleged, none of the correct
answers would have supported an inference that he

38a
was biased or prejudiced against [the defendants]
or had prejudged the evidence.”). The critical determination is not simply whether the lies in question
are deliberate, but rather whether “the deliberateness of the particular lies evidenced partiality.” Id.
(quoting Greer, 285 F.3d at 172-73); see also Greer,
285 F.3d at 170-71 (finding it unnecessary to determine whether juror dishonestly answered questions at voir dire because “the District Court did
not exceed its allowable discretion in finding that
those omissions and misstatements did not satisfy
McDonough’s prong two”).
A juror’s dishonesty under the first part of the
test “is among the ‘factors to be considered’ in the
ultimate determination of bias . . . [but] an analysis of bias is required even if the juror’s erroneous
response was deliberate.” Greer, 285 F.3d at 173. It
is important to consider the dishonesty in the second part of the test because it can show “a personal
interest in this particular case that was so powerful as to cause the juror to commit a serious crime
[by lying during voir dire].” United States v. Colombo,
869 F.2d 149, 151 (2d Cir. 1989). In other words, a
bright line does not divide the two prongs of the
test, and there is some blurring of the factors to be
considered under each prong. “Challenges for cause
are generally based on actual bias, implied bias, or
inferable bias.” Greer, 285 F.3d at 171 (citing United
States v. Torres, 128 F.3d 38, 43 (2d Cir. 1997)). As
explained by the Second Circuit:
Actual bias is bias in fact. Implied bias, by contrast, is bias presumed as a matter of law.

39a
Finally, inferred bias is available when actual
or implied bias does not apply. “Bias may be
inferred when a juror discloses a fact that
bespeaks a risk of partiality sufficiently significant to warrant granting the trial judge discretion to excuse the juror for cause, but not so
great as to make mandatory a presumption of
bias.”
Id. (citations omitted). At least in the Second Circuit, it is unsettled whether either implied or
inferred bias may serve as the basis for a post-trial
allegation of jury partiality. See id. at 172.
There is only one instance where the Second Circuit18 has found a reason to overturn a verdict on
the basis of juror nondisclosure under McDonough
—in the case of United States v. Parse, 789 F.3d 83
(2d Cir. 2015). Cf. Stewart, 433 F.3d at 303 (observing, pre-Parse, that this “Court has never found
reason to overturn a verdict on the basis of juror
nondisclosure under McDonough and only
once, . . . has remanded for an evidentiary hearing on the matter”); United States v. Colombo, 909
F.2d 711 (2d Cir. 1990) (having previously remanded to the district court to conduct post-trial hearing
18

Defendants have relied heavily on the case of United
States v. Eubanks, 591 F.2d 513 (9th Cir. 1979). (See Dkt. 363
at 15-16). Not only is Eubanks from outside the Second Circuit, but it was decided prior to McDonough and does not
employ the two-part test. While the Court has reviewed
Eubanks, as well as other cases outside the Circuit dealing
with this issue, the Court has relied, as it must, on the decisions from the Second Circuit Court of Appeals addressing
the issue post-McDonough.

40a
regarding allegations that juror deliberately lied
during voir dire, finding upon appeal after remand
that district court’s finding that juror had not
intentionally withheld information was not clearly
erroneous).
Parse involved a situation where, after a verdict
was returned in favor of the Government, a juror
sent a letter to the Government praising its performance but lamenting the acquittals on some of
the counts as to one of the defendants (Parse). 789
F.3d at 90. That letter prompted further investigation by defense counsel and a revelation that the
juror had lied extensively during voir dire about
her criminal history, her background, and a host of
other information, including the fact that she was
an attorney facing disciplinary action. Id. at 91.
The district court ordered an evidentiary hearing
to go forward, and the juror initially refused to
appear, prompting an arrest warrant to be issued.
Id. The hearing ultimately went forward, and the
juror admitted lying during voir dire “to make herself more ‘marketable’ as a juror. . . .” Id. In other
words, the juror admitted that she created a fictional profile to make herself more attractive as a
juror. Id. at 91-92. The district court concluded
that the juror’s false answers “were attributable
neither to a desire to avoid embarrassment nor
to honest mistakes,” id. at 92, but rather were “premeditated and deliberate,” id. at 93 (quoting
United States v. Daugerdas, 867 F.Supp.2d 445,
469 (S.D.N.Y. 2012)). The district court further
concluded that the juror “was ‘a pathological liar
and utterly untrustworthy,’ ” describing the lies as

41a
“breathtaking” and “calculated to prevent the
Court and the parties from learning her true identity, which would have prevented her from serving
on the jury.” Id. at 92 (quoting Daugerdas, 867
F.Supp.2d at 468-70). The juror lied in response to
clear and unambiguous voir dire questions, and the
district court rejected any contention that the juror
was somehow confused by the questions, particularly given her status as an attorney. Id. Moreover,
the events about which the juror lied were “recent,
personally significant, and directly affected her
qualifications to serve as a juror.” Id. (quoting
Daugerdas, 867 F.Supp.2d at 469).
Her arrests and suspensions from the practice
of law were not the result of youthful indiscretions or errors on the part of police or
courts. . . . There is no dispute that [the juror]
was aware of her prior convictions, her attorney disciplinary problems, and her personal
injury suit at the time she answered the
Court’s questions under oath. There is also no
question that she made a conscious decision to
hide them from the Court.
Id. at 92 (quoting Daugerdas, 867 F.Supp.2d at
469). As a result, the district court concluded that
the juror was actually biased against the defendants, but with respect to the defendant Parse, the
district court concluded that his counsel was aware
of these issues during the trial and failed to raise
the issue until after the verdict, thus waiving any
claim. Id. at 93, 101-02.

42a
On appeal, the Second Circuit explained that a
new trial was required where “the juror’s false
responses ‘obstructed the voir dire and indicated
an impermissible partiality on the juror’s part.’ ”
Id. at 110 (quoting Colombo, 869 F.2d at 151).
Where the juror has lied for the purpose of
securing a seat on the jury—a mission apparently
“so powerful as to cause the juror to commit a
serious crime”—it “reflect[s] an impermissible
partiality on the juror’s part.” Such conduct not
only suggests a view on the merits and/or
knowledge of evidentiary facts but is also quite
inconsistent with an expectation that a
prospective juror will give truthful answers
concerning her or his ability to weigh the evidence fairly and obey the instructions of the
court. . . . [C]ertainly when possible nonobjectivity is secreted and compounded by the
deliberate untruthfulness of a potential juror’s
answer on voir dire, the result is deprivation of
the defendant’s rights to a fair trial. Where the
juror has deliberately concealed information,
“bias” is to be “presume[d].”
Id. at 111 (citations omitted). The Second Circuit
concluded that the district court appropriately
determined that the juror’s presence caused the
jury not to be impartial, and furthermore, that the
record did not support the conclusion that Parse
had waived his challenge.
In these circumstances—in which a juror
aligned herself with the government, lied pervasively in voir dire for the purpose of avoiding

43a
dismissal for cause, believed prior to the presentation of any evidence that the defendants
were “ ‘crooks’ ” and expressly mentioned [the
defendant] as a target of her efforts to persuade the other jurors to convict—a refusal to
order a new trial for Parse would seriously
affect the fairness, integrity, and public reputation of judicial proceedings.
Id. at 120. Thus, the Second Circuit reversed the
district court’s denial of the motion for a new trial
as to Parse. Id.
IV. FIRST PRONG OF McDONOUGH-FAILURE TO ANSWER HONESTLY MATERIAL
QUESTION ON VOIR DIRE
A. General Assessment of Juror No. 3
Defendants contend that, like the juror in Parse,
Juror No. 3 deliberately lied during voir dire and
continued his lies during the evidentiary hearing
before this Court. (See, e.g., Dkt. 363 at 17; Dkt.
369 at 53). The Government contends that Juror
No. 3 was tricked and attacked by defense counsel,
and, at most, displayed a lack of recall and comprehension that resulted in the inaccurate answers
during voir dire and confusion during the evidentiary hearing. (Dkt. 370 at 1-2).
An analysis of Juror No. 3’s credibility under the
first prong of the McDonough test is a more
nuanced inquiry than posited by either the Government or Defendants. Having observed Juror No. 3’s
facial expressions, demeanor, and intonation while

44a
he testified during the two-day evidentiary hearing, including when he responded to the Court’s
questions, it was apparent that Juror No. 3 had
problems understanding the questions and
expressing himself clearly. In part, this appeared
attributable to nervousness. Juror No. 3 was questioned in open court before Defendants and their
counsel, Government counsel, and a large number
of spectators. The courtroom was significantly
more crowded during the evidentiary hearing
involving Juror No. 3 than it had been at any point
during the five-week trial.19
The testimony must also be viewed through the
lens of one with Juror No. 3’s educational background. Juror No. 3 appeared neither sophisticated
nor bright. He exhibited poor comprehension during the evidentiary hearing and difficulties providing understandable and clear answers. As an
example, the following answers were elicited during the Court’s questions:
19

Of course, a way to avoid this would have been for the
Court to examine Juror No. 3 in chambers outside the presence of the public and without the parties being present.
The Second Circuit appears to have approved this process in
United States v. Shakur, 888 F.2d 234 (2d Cir. 1989), aff’g
723 F.Supp. 925 (S.D.N.Y. 1988). Here, the Court ultimately
adopted a process that attempted to balance the various competing interests at play, including Defendants’ very real and
legitimate interests in being present during any questioning
of Juror No. 3 and the public’s critically important right to
access court proceedings. However, a downside to the process
employed in this case is that, in the Court’s view, it ultimately impacted Juror No. 3’s testimony because of his nervousness and discomfort.

45a
Q Do you recall being asked by me during jury
selection whether you had ever been a defendant in a criminal case?
A Yes.
Q And you didn’t respond to that question, correct?
A No.
Q And can you tell me why you didn’t respond
to that question?
A Because I didn’t think it responded to me at
the time.
Q What?
A I didn’t think it responded to me at the time.
. . .
Q But my question was had you ever been a
defendant in a criminal case. You had been a
defendant in a criminal case, correct?
A I don’t understand what you mean, your
Honor.
Q So you don’t know what I mean when I’m
saying defendant—
A Yes.
(Dkt. 358 at 86-87 (emphasis added)).
The above exchange plainly depicts Juror No. 3’s
vocabulary challenges. He repeatedly utilizes the
Court’s reference to “respond” in its questions to
provide his answers, even though answering the
question with reference to that word is plainly an

46a
incorrect use of the word “respond.” Similarly, he
exhibits difficulty understanding the meaning of
the word “defendant.” The Court did not view this
testimony as intentionally deceptive. Juror No. 3
did not display attributes of cleverness. Rather,
Juror No. 3 displayed vocabulary and comprehension issues that the Court interpreted as impacting
the substance of his testimony. In the Court’s view,
Juror No. 3 was what he seemed: a relatively simple individual with a lack of education and sophistication who had difficulty comprehending certain
areas of inquiry.20
Thus, in assessing Juror No. 3’s credibility, the
Court must exercise caution against viewing Juror
No. 3’s testimony from the Court’s own educational
or socio-economic background. As recognized by the
Supreme Court, “jurors are not necessarily experts
in English usage. Called as they are from all walks
of life, many may be uncertain as to the meaning of
terms which are relatively easily understood by
lawyers and judges.” McDonough, 464 U.S. at 555,
104 S.Ct. 845.
In addition, as discussed below, the Court finds
that Juror No. 3 provided false testimony at the
evidentiary hearing concerning his criminal record.
However, based upon the Court’s observations of
Juror No. 3 during the evidentiary hearing, includ20

The Court’s impression of Juror No. 3 in this regard is
supported by numerous exchanges that occurred throughout
the two-day hearing, including, for example, the exchange
concerning Juror No. 3’s name and the naming of Juror No.
3’s son that occurred during a sidebar discussion during the
second day of the hearing. (See Dkt. 359 at 202-05)

47a
ing his demeanor, tone, and facial expressions,
along with the substance of his testimony, the
Court does not discredit the entirety of his testimony even though some parts of it were plainly false.
See Van Buren v. Cargill, Inc., 10-CV-701S, 2016
WL 231399, at *7 & n.5 (W.D.N.Y. Jan. 19, 2016)
(“[F]alsus in uno merely permits, but does not
require, a finder of fact to disregard the entirety of
the testimony.” (citing United States v. Weinstein,
452 F.2d 704, 713 (2d Cir. 1971) (“The maxim ‘Falsus
in uno, falsus in omnibus’ has been well said to be
itself ‘absolutely false as a maxim of life.’” (citation
omitted)).
B. Deliberate Lies
Against this backdrop, the Court must assess
whether Juror No. 3 intentionally gave false
answers during voir dire. The Court will first
address the information supplied that was unrelated to the criminal background of Juror No. 3.21
21
Defendant Nix contends that Juror No. 3 intentionally
misstated his marital status as “single” during voir dire,
when in fact he is still legally married. (Dkt. 369 at 15). The
Court disagrees. At the evidentiary hearing, Juror No. 3 also
testified that he was “single,” but then when asked follow-up
questions, he revealed that he is separated but not legally
divorced. (Dkt. 358 at 72, 94-95). It was also revealed at the
evidentiary hearing that although Juror No. 3 saw his wife at
his daughter’s graduation in the prior month, before that
time, he had not seen her for about three or four years. (Dkt.
359 at 213). At the voir dire, follow-up questions about the
marital status of Juror No. 3 were not asked.
Defendant Nix also contends that Juror No. 3 failed to
reveal that his brother “Derrick” was murdered in a stabbing

48a
1. Answers Unrelated to Juror No. 3’s
Criminal Background
a. Burglary of Juror No. 3’s Home
It was revealed at the evidentiary hearing that
Juror No. 3 had his home burglarized in October
1999, but he never shared that information in
response to the Court’s question: “Has anyone ever
been the victim of a home robbery?” (Dkt. 328 at
97). The Government argues that Juror No. 3 was
the victim of a home “burglary,” not a “robbery,”
and he was never asked during voir dire about
being the victim of a burglary. (Dkt. 370 at 16).
Although technically correct, the Court does not
find the Government’s argument persuasive, particularly in view of the burglaries described by
other prospective jurors in response to the Court’s
question about a “home robbery.” (See Dkt. 328 at
97-101).
However, based on Juror No. 3’s demeanor, tone,
and appearance when questioned at the evidentiary hearing about the home burglary—which
occurred almost 20 years ago—the Court is convinced that the incident had completely slipped his
mind. Moreover, the Court agrees with the Government’s argument that no correlation exists between
the violent home invasions described during the
and the accused was acquitted at trial (Dkt. 369 at 15), but no
questions during voir dire would have elicited this information, and furthermore, Juror No. 3 was not asked questions
about this at the evidentiary hearing. (See Dkt. 359 at 15758).

49a
trial and the burglary of Juror No. 3’s home, such
that the trial testimony should have been expected
to trigger Juror No. 3’s recollection about the burglary. When he was questioned about the home
burglary and his failure to disclose the information, Juror No. 3 appeared genuinely surprised
that he had not earlier recalled the burglary. Moreover, the documentary evidence involving the burglary suggests that Juror No. 3’s wife was the
primary point of contact with law enforcement following the incident. Thus, the Court easily concludes that Juror No. 3 did not intentionally fail to
disclose information about this burglary from 1999.
See, e.g., Harmon, 21 F.Supp.3d at 1052 (“[C]ourts
‘must be tolerant, as jurors may forget incidents
long buried in their minds, misunderstand a question or bend the truth a bit to avoid embarrassment. The Supreme Court has held that an honest
yet mistaken answer to a voir dire question rarely
amounts to a constitutional violation.’ ” (quoting
Dyer, 151 F.3d at 973)).
b. Criminal Convictions of Individuals “Close” to Juror No. 3
Defendants also contend that Juror No. 3 failed
to disclose the criminal convictions related to his
brother “Gary,” his sister “Cynthia,” his son, and
his wife “Tracey.” (Dkt. 369 at 15). The Court asked
during voir dire whether “anyone close to” the
prospective jurors had been convicted of a crime.
(Dkt. 328 at 239). Juror No. 3 did not reveal any
information in response to this question.

50a
At the evidentiary hearing, in response to Nix’s
counsel’s questions, Juror No. 3 testified that he
had not seen his brother “Gary” in three or four
years, and he was unaware of his brother’s criminal convictions for multiple drug offenses. (Dkt.
359 at 212). Similarly, Juror No. 3 testified that he
was unaware of his son’s criminal convictions at
the time of jury selection, and he had not seen him
in about three or four years. (Dkt. 358 at 93-94;
Dkt. 359 at 167, 212). Juror No. 3 also was
unaware of any arrests of his wife from whom he is
separated (but not legally divorced). (Dkt. 359 at
213). Juror No. 3 was not asked any questions
about his knowledge of the criminal record of his
sister “Cynthia,” or when he last saw her.
Thus, there is no basis for the Court to conclude
that Juror No. 3 failed to provide material information on this subject during voir dire because the
record indicates that Juror No. 3 was not aware of
the convictions and Juror No. 3 did not view himself as close to the individuals in question. See, e.g.,
United States v. Stewart, 317 F.Supp.2d 432, 438
(S.D.N.Y. 2004) (recognizing ambiguity in questions as to whether somebody “close” to juror had
been victim of crime, and finding that defendants
could not “demand a new trial because a juror
failed to place the broadest possible construction on
those questions”), aff’d, 433 F.3d 273 (2d Cir.
2006).
c. Prior Jury Service
During voir dire, the Court questioned the
prospective jurors about their prior jury service by

51a
asking: “Has anyone ever served on a jury before?”
(Dkt. 328 at 205 (emphasis added)). In the Court’s
view, the question was straightforward, and in
response a number of prospective jurors provided
information regarding their prior jury experience.
(Id. at 205-13). In addition to providing the parties
with information that may be utilized during
peremptory challenges, the primary purpose of the
Court’s questions on this topic was to ensure that
nothing about that prior jury service would impact
a prospective juror’s ability to be fair and impartial. In other words, prior jury service does not, in
and of itself, normally constitute a basis for a cause
challenge.
Juror No. 3 did not respond to the question during voir dire. This topic was addressed during both
days of the evidentiary hearing. During the first
day of the hearing, the Court elicited the following
testimony:
Q Have you ever served on any other juries?
A I was called for two but they took the plea, so
I didn’t have to.
(Dkt. 358 at 100-01 (emphasis added)). In other
words, Juror No. 3 suggested that he “didn’t have
to” serve on any prior juries because the cases were
resolved through pleas. No follow-up questions
were asked during the first day of the hearing.
During the second day of the hearing, the Court
again addressed the topic during its questioning:
Q Now, you had mentioned, I believe, that
there were other occasions where you were
summoned for jury duty?

52a
A Yes.
Q And this was in state court, not federal
court—
A Yes.
Q—correct? Did you ever, like, actually get
selected or did you get put in the box?
A I was selected.
. . .
Q On how many occasions were you selected?
A Once.
Q And do you remember the type of case?
A No, I don’t.
Q Was it civil or criminal?
A I believe it was criminal.
Q But the case, the jury did not ultimately
deliberate in that case?
A No, the person took the plea.
. . .
Q How long ago was this where you were selected to serve on a jury?
A A few years ago.
. . .
Q And is that the only other time that you’ve
been called for jury service, other than this
incident?

53a
A There was one other time before that, too.
Q And were you selected in that case?
A Nope.
Q Did you ever get put into the box and asked
questions?
A No.
Q And this was before the other time that you
just mentioned?
A Yes.
Q Do you know how long ago that was?
A Probably about a year before that.
(Dkt. 359 at 168-70 (emphasis added)).
When questioned by counsel for McCoy, Juror
No. 3 initially denied any recollection of being
asked about prior jury service during voir dire,
responding “[i]t was a long day.” (Id. at 193). Counsel for McCoy then asked the questions again:
Q And do you recall her [the Court] asking if
anybody had ever sat on a jury before?
A Yes.
Q And do you recall whether or not you
answered that question?
A No, I don’t.
Q Did you tell her that you sat on a jury before?
A I don’t know if I told her yes or no.
(Id. at 193-94 (emphasis added)).

54a
The Court believes the questions about prior jury
service were straightforward, particularly in light
of the responses of the other prospective jurors,
including one prospective juror who indicated that,
like Juror No. 3, he had been selected for a jury but
“about halfway through the case the defendant
copped a plea.” (See Dkt. 328 at 211). As a result,
Juror No. 3 should have disclosed his prior selection to serve on a jury in response to the Court’s
voir dire questions, even though that jury ultimately
did not deliberate.
However, the Court is hard-pressed to conclude
that Juror No. 3 intentionally withheld this information in response to the Court’s questions, or
somehow tried to deliberately mislead the Court
and the parties by not revealing this information.
There is no conceivable reason for Juror No. 3 not
wanting to disclose this information. The explanation for Juror No. 3’s non-disclosure could be his
misunderstanding of the scope of the question—
equating prior “service” as requiring actual deliberation—and again, the Court must assess Juror No.
3’s responses in view of his educational background
and perceived comprehension issues as noted
above. Alternatively, the explanation could simply
be attributed to Juror No. 3 being distracted and
not paying close enough attention to the questions
that were being asked at that point during voir dire
(which was later in the day). Under any scenario,
the Court does not believe that Juror No. 3 intentionally withheld this information or intentionally
lied about this topic during voir dire. Moreover,
even if Juror No. 3 intentionally lied about his

55a
prior jury service, the Court has difficulty concluding that that the subject dealt with a “material”
issue as required under the McDonough test.
d. Summary of Findings
For the reasons set forth above, the Court concludes that Juror No. 3 did not deliberately fail to
honestly answer the voir dire questions related to
the home burglary in 1999 and the criminal history
of anyone “close” to him. The Court’s assessment of
Juror No. 3’s answers (or lack thereof) concerning
prior jury service is a closer call, but on balance,
the Court concludes that Juror No. 3 did not intentionally fail to reveal information during voir dire
about that prior jury service, and even if he had,
the information about Juror No. 3’s prior jury service would not, in and of itself, rise to the level of
materiality required under the first prong of the
McDonough test.
2. Answers Related to Juror No. 3’s Criminal Background
Whether Juror No. 3 deliberately lied about his
criminal background during voir dire is a more difficult question. The questions related to Juror No.
3’s criminal background were included in the questionnaire mailed in advance to prospective jurors,
which asked:
“Have you ever been convicted, either by your
guilty or nolo contendere plea or by a court or
jury trial, of a state or federal crime for which

56a
punishment could have been more than one
year in prison?”
(Court Ex. 15). Juror No. 3 incorrectly answered
this question by checking “No.” (Id.). In addition,
Juror No. 3 did not respond to the following voir
dire questions asked of the panel as whole: “Has
anyone ever been a defendant in a criminal case?”
(Dkt. 328 at 214) and, “Has anyone ever visited a
jail of correctional facility other than in connection
with . . . your educational curriculum?” (id. at
229).
In assessing whether Juror No. 3 deliberately
lied in responding to these questions (or in not
responding), the Court must recognize that two
jurors (Juror No. 3 and T.P.) failed to accurately
respond to the Court’s questions on these topics.
Certainly, the Court could justifiably conclude that
these two individuals intentionally attempted to
mislead the Court and the parties about their criminal background. However, it is at least arguable
that more direct questioning during voir dire on
this topic may have elicited the information. In
other words, the information may have been disclosed if the Court had directly asked each juror
whether he or she had been “arrested” (a question
that was not asked), “convicted” of “any crime”
(again, a question that was not asked), or ever
“been to a jail” (as opposed to a “visit” to a jail, as
was asked).
Although the Court accepts full responsibility for
the framing of the questions, Defendants never
requested any follow-up on these issues during voir

57a
dire. See Fed. R. Crim. P. 24(a)(2)(B) (“If the court
examines the jurors, it must permit the attorneys
for the parties to submit further questions that the
court may ask if it considers them proper.”). In fact,
it was the Government that wanted these issues
explored further during the voir dire. (See Dkt. 328
at 227 (asking that the Court ask whether “anyone
close to you” had been a defendant in a criminal
case, and whether any prospective juror had “visited a jail”)). Moreover, neither Defendant proposed
questions regarding the prospective jurors’ criminal background as part of their requested voir dire
questions. (See Dkt. 173 (McCoy proposed voir
dire); Dkt. 178 (Nix proposed voir dire)). Again, it
was the Government that requested questions on
this topic as part of its proposed voir dire questions. (See Dkt. 170 at 6).
Juror No. 3 unquestionably failed to reveal his
criminal record in response to the juror questionnaire and the Court’s voir dire questions. By all
accounts, the convictions at issue occurred before
Juror No. 3 reached the age of 21, and that was the
explanation offered by Juror No. 3 as to why he did
not reveal the convictions: he did not believe that
they counted because of their age (approximately
30 years old). (See Dkt. 358 at 74, 85-87).22 Juror
22

Although there was evidence of two domestic violence
incidents after Juror No. 3 reached the age of 21 (see Court
Ex. 16 (incident from 1999) and Court Ex. 18 (incident from
1993)), Juror No. 3 could not recall one of the incidents, and
he denied being arrested in connection with the incident that
he did recall. (Dkt. 359 at 176-177). The documents reflecting
these incidents do not plainly indicate that an arrest was

58a
No. 3 also told the Court that that was the reason
he did not respond affirmatively to the question
about visiting a jail (id. at 88-89), and he also told
McCoy’s counsel that he assumed the question was
directed at “visiting” another individual as opposed
to serving time in jail himself (Dkt. 359 at 197).
The problem with accepting Juror No. 3’s explanation is that he plainly provided false testimony
at the evidentiary hearing regarding his criminal
record. In other words, although it is at least debatable whether Juror No. 3 lied about his criminal
history during voir dire, there is no question that
he lied about his criminal history during the evidentiary hearing. Juror No. 3 initially denied any
recollection of a felony conviction other than the
one related to the clothing store burglary, but then,
upon further questioning, he did admit to the
felony conviction involving the stolen vehicle. (Dkt.
358 at 75-76, 80, 87-88).
Juror No. 3 exhibited a hazy recollection of his
criminal record, including the two felony convictions. Although Juror No. 3’s poor recollection is
understandable in view of the convictions’ temporal
remoteness, the age of the convictions cannot
made (see Court Ex. 18 (indicating that a “warrant” is
“advised”), nor is there any information in the record about
the disposition with respect to these incidents (see Gov’t Ex.
900 (criminal history printout run on the NYSID database for
Juror No. 3, which does not contain any reference to arrests
for these domestic violence incidents)). Thus, based on the
record before the Court, it does not appear that Juror No. 3
would have needed to disclose this information in response to
either the questionnaire or the voir dire questions.

59a
explain Juror No. 3’s false testimony that he was
wrongly accused of both the clothing store burglary
and stolen vehicle incident. (Id. at 79, 84-85). Juror
No. 3 first claimed that he did not actually burglarize the clothing store or know the criminal purpose
of the visit to the clothing store. (Id. at 84-85; Dkt.
359 at 180). Similarly, Juror No. 3 denied stealing
a vehicle. (Dkt. 358 at 85).
However, during the second day of the hearing,
when confronted with his signed confessions regarding these two incidents, Juror No. 3 admitted that he
was involved in the clothing store burglary and that
he had earlier testified falsely regarding the event.
(Dkt. 359 at 179-84, 231). Juror No. 3 also admitted,
in response to Nix’s counsel’s questions, to stealing a
vehicle and switching the license plates. (Id. at 225).
Additionally, although Juror No. 3 denied any
recollection of spending time in jail other than the
six months spent in shock camp, the documentary
evidence in this case suggests that Juror No. 3
spent six months in the Monroe County Jail for the
stolen vehicle conviction in 1988. (Court Ex. 21). In
addition, although the Court agrees with the Government that, to some extent, the so-called admissions that defense counsel—particularly Nix’s
counsel—procured during the evidentiary hearing
are not particularly helpful to any credibility
assessment given the tone and nature of the questioning,24 the fact is that Juror No. 3 lied during
24

For example, at the end of the second day of the hearing, when being questioned by Nix’s counsel, the following
exchange occurred:

60a
the evidentiary hearing in response to the Court’s
questions. Juror No. 3 was not tricked—he deliberately offered false testimony at the evidentiary
hearing regarding his criminal history.
The Court does not doubt that Juror No. 3’s inaccurate testimony regarding his criminal record was
due, in part, to the age of the convictions. However,
Q How many times have you been to jail?
A I don’t know. I don’t think about how many time I been
to jail. I don’t know. I don’t look at my record. I don’t
think about it so I don’t know.
Q Does seven sound right?
A I don’t know. . . . I don’t know. You tell me. I don’t
know.
Q So you would need someone to tell you how many
times you’ve been to jail?
A Like I said, I don’t think about it. It’s not something I
get up in the morning and think about. I don’t think
about that stuff.
. . .
Q Do you think you’ve been to jail more than five times?
A Probably.
(Dkt. 359 at 217-18). Although the Court allowed this line of
questioning and overruled the Government’s objections, it
was apparent to the Court that Juror No. 3 was extremely
frustrated at this point, and the exchange quoted above is not
helpful to the Court in assessing Juror No. 3’s credibility or
discovering the truth about his times in jail. In other words,
although Juror No. 3 likely was incarcerated for more than
just the six months in shock camp, and although the documentary evidence in the form of the certified certificate of
conviction marked as Court Exhibit 21 at least suggests that
he also spent six months in the Monroe County Jail, the reality is that the record is unclear as to the exact amount of
incarceration served by Juror No. 3.

61a
given Juror No. 3’s false testimony during the evidentiary hearing about his culpability for the two
felony convictions, the Court does not credit Juror
No. 3’s explanation that he was confused by the
voir dire questions or thought that the questions
applied to criminal convictions only after the age of
21. Based on Juror No. 3’s continued refusal to disclose the full extent of his criminal history during
the evidentiary hearing—until faced with documentary evidence of the same—the Court concludes that Juror No. 3 failed to respond truthfully
to the juror questionnaire and the Court’s voir dire
questions as they pertained to both his criminal
convictions and his exposure to a jail.
However, this finding does not mean that the
Court concludes that Juror No. 3 provided false
information about his criminal record in an effort
to intentionally deceive the Court so as to be selected to serve on the jury. Here, Juror No. 3 did not lie
“for the purpose of securing a seat on the jury,”
Parse, 789 F.3d at 111, nor can his lies be characterized as “premeditated and deliberate” so as to
hide his true identity and ensure his selection on
the jury, id. at 92-93. Rather, as revealed by Juror
No. 3’s continued lies at the evidentiary hearing,
his motives had nothing to do with securing a seat
on this jury. The Government granted Juror No. 3
immunity for his testimony at the evidentiary
hearing except for any perjured testimony, and yet
Juror No. 3 refused to be honest about his criminal
past at the hearing until confronted with documentary evidence. Juror No. 3 repeatedly testified at
the evidentiary hearing that he does think about or

62a
focus on his criminal record. A more sophisticated
witness may have been able to articulate a reason
for his refusal to be honest about his criminal
past—whether it be embarrassment, concern that
the criminal record could impact his job as a cleaner, or a desire to simply block that part of his distant past. Instead, Juror No. 3 testified that he did
not believe the convictions counted because they
occurred before he was 21 years old. Juror No. 3
has applied a similar interpretation when answering juror questionnaires in the past.
The Court is not persuaded that Juror No. 3 misunderstood the scope of the questions as only
applying to convictions at the age of 21 and older,
when responding to either this Court or other
courts in the past. However, the Court is convinced
that the reason for Juror No. 3’s inaccurate
responses is not some nefarious motive; rather, the
reason more likely originates from the simple fact
that, at 47 years old, Juror No. 3 would prefer to
shut out any recollection of his criminal history—
the most recent of which (if the domestic violence
incident from 1999 is included) was about 20 years
ago, and most of which occurred when he was a
teenager. Cf. Parse, 789 F.3d at 111 (“Where the
juror has lied for the purpose of securing a seat on
the jury—a mission apparently ‘so powerful as to
cause the juror to commit a serious crime’—it
‘reflect[s] an impermissible partiality on the juror’s
part. . . .’ In the present case, the record amply
supports the findings of the district court that [the
juror] repeatedly lied during voir dire. . . and that
she did so in order to be chosen as a juror.” (quoting

63a
Colombo, 869 F.2d at 151) (emphasis added));
Langford, 990 F.2d at 69 (“[A] juror who . . . has
deliberately responded falsely to a material question on voir dire precisely because she wanted to sit
on the case, should be presumed not to be impartial.” (emphasis added)).
Thus, although the Court finds that Juror No. 3
testified falsely about certain information during
the hearing that was conducted on June 12 and 14,
2017, it rejects the notion that Juror No. 3 testified
falsely about all matters that were covered during
that hearing, and it further rejects the notion that
Juror No. 3 intentionally deceived the Court during
voir dire as to his criminal history so as to gain a
seat on the jury. Although Juror No. 3’s voir dire
answers regarding his criminal history were inaccurate, the Court cannot conclude that they rise to
the level of intentional falsehood necessary to satisfy the first prong of the McDonough test.
V. SECOND PRONG OF McDONOUGH—BIAS
The Court concedes that the issues at play concerning the inaccuracy of Juror No. 3’s disclosed
criminal history with respect to the first prong of
the McDonough test present a close question.
Moreover, as noted above, the second prong of the
McDonough test is the most critical. Thus, the
Court will proceed to consider whether a correct
response to the Court’s voir dire questions would
have required excusing Juror No. 3 for cause—in
other words, whether the Court would have granted a hypothetical challenge if Juror No. 3 had

64a
responded accurately to the Court’s questions.
Unlike the first prong, resolution of the second
prong is not a close question. The Court concludes
that Juror No. 3’s lies, even if deliberate, did not
evidence partiality so as to violate the Sixth
Amendment.
As an initial matter, with the exception of Juror
No. 3’s prior criminal record, none of the other
alleged inaccurate voir dire responses from Juror
No. 3 would have even triggered a challenge for
cause. Other jurors responded by disclosing prior
jury service, being close to those who had been convicted of a crime, and being the victims of home
burglaries (including suffering the theft of jewelry
and other items of value (see Dkt. 328 at 97-101)).
Yet none of those prospective jurors were challenged for cause, nor could they have been appropriately challenged for cause.
In addition, in many respects, the Court does not
need to analyze how it would have handled a hypothetical challenge for cause due to Juror No. 3’s
criminal record, because, in the Court’s view, based
on Defendants’ reaction to the disclosure of T.P.’s
criminal history, Defendants would not have made
a cause challenge. The Court is hard-pressed to
credit Defendants’ new-found aversion to jury service by a convicted felon given their reaction to the
disclosure that T.P. was a convicted felon, and particularly when (at least Nix) continues to press the
issue related to T.P. in post-verdict motion practice. Defendants would not have challenged Juror
No. 3 for cause if he had revealed the full extent of
his criminal history during voir dire—rather, the

65a
Government would have likely claimed bias and
sought to excuse Juror No. 3.26
Notwithstanding the above, the Court will examine whether actual bias, implied bias or inferred
bias is properly attributable to Juror No. 3.
A. Actual Bias
The Second Circuit has described actual bias as
follows:
Actual bias is “bias in fact”—the existence of a
state of mind that leads to an inference that
the person will not act with entire impartiality.
A juror is found by the judge to be partial
either because the juror admits partiality, or
the judge finds actual partiality based upon
the juror’s voir dire answers.
Torres, 128 F.3d at 43 (citations omitted). “[A] finding of actual bias ‘is based upon determinations of
demeanor and credibility that are peculiarly within a
trial judge’s province.’ ” Id. at 44 (quoting Wainwright
v. Witt, 469 U.S. 412, 428, 105 S.Ct. 844, 83
L.Ed.2d 841 (1985)).
The record in this case is barren of any evidence
of actual bias on the part of Juror No. 3 against
Defendants. Indeed, although Defendants argue in
a conclusory manner that the convictions should be
26

Of course, if Juror No. 3’s criminal history was revealed
during voir dire, he would have been statutorily disqualified
pursuant to the JSSA, as opposed to any common-law based
cause challenge. However, as discussed above, given the procedural posture of this case, it is too late to launch a challenge pursuant to the JSSA.

66a
set aside because of actual bias, they make no real
attempt to demonstrate actual bias. (See, e.g., Dkt.
363 at 17 (merely listing that “[t]he testimony of
Juror # 3 demonstrated actual, implied or inferred
bias”)).
This was plainly not a case of Juror No. 3 wanting to hide information about his past to make himself more marketable as a juror, like the juror in
Parse. Early in the voir dire, Juror No. 3 expressed
reservations about serving because of his job
responsibilities. (Dkt. 328 at 41). During the jury
selection, Juror No. 3 was frustrated with the
Court about the length of the proceedings (see Dkt.
359 at 238-39), and in fact, once selected to serve,
he left the courtroom as the Court was still informing the jurors about some housekeeping matters
(see Dkt. 327 at 32).
Moreover, the Court’s observations of Juror No.
3—both during voir dire and throughout the trial—
led to the inescapable conclusion that Juror No. 3
was by no means an overzealous or enthusiastic
juror. Juror No. 3 had expressive features that the
Court interpreted as reflecting his displeasure with
being selected to sit on a 5-week trial. Juror No. 3
did his duty, but his body language did not depict
somebody who was relishing the experience.
McCoy contends that Juror No. 3’s expressed displeasure with the lateness of the proceedings on
the day of jury selection should not be taken to
infer that he was not enthusiastic about serving on
the jury. (Dkt. 363 at 19). However, that is not the
only basis for the Court’s conclusion that Juror No.
3 was not pleased about being selected to serve on

67a
the jury. His facial expressions and body language
throughout the trial caused the Court to conclude
that, if he had a choice, Juror No. 3 would have
elected not to sit on the jury. This included rolling
his eyes at the Court when the jury had to be
repeatedly excused from the courtroom during the
defense presentation of the case, and appearing
displeased when the court was in session for full
days.
Given the fact that Juror No. 3 was working at
nights to keep up with his cleaning business (Dkt.
358 at 98 (Juror No. 3 testifying that he worked
until 1:00 AM after serving on the jury)), it is certainly understandable that he was not savoring the
experience of sitting on this case. Indeed, it was a
long trial, and perhaps each of the jurors would
have elected to be someplace else if given the
choice. Regardless, this Court had the definite and
firm impression that Juror No. 3 was less than
pleased when selected to serve on the jury.
As a result, the Court was quite surprised when,
during the hearing, Juror No. 3 initially testified
that, in fact, he wanted to serve “[b]ecause I was
picked. It’s my right, I’m assuming.” (Dkt. 358 at
44). Ultimately, Juror No. 3 gave varying responses
about his interest in serving, and the Court
believes that Juror No. 3 was initially confused by
the Court’s questioning. (See id. at 96-100). Yet,
given Juror No. 3’s varying statements about his
interest in serving on the jury, the Court cannot
rely on the substance of Juror No. 3’s testimony in
assessing this issue—what Juror No. 3 said on this
topic is of little or no value. However, the Court has

68a
considered its observations of Juror No. 3 throughout the trial. It also believes Juror No. 3’s reaction
in the form of tone, facial expression, and
demeanor, to a particular line of questioning by the
Government at the hearing, was revealing:
Q . . . did you have in your mind, I’m not going
to say anything about my 27-year-old felony
conviction because that way I can wind up on
this jury?
A (Laughing.)
Q Is that what happened?
A No, it’s not.
Q You laughed when I said that. Does that
seem ridiculous in your mind?
A Yes, it does.
Q Why is that ridiculous to you?
A Because I have better things to do than to sit
here for five weeks. If I knew that, I would
have told her then and I wouldn’t have been on
the jury at all.
(Dkt. 359 at 236-37).
There is no evidence that Juror No. 3 knew that
disclosure of his criminal record would have disqualified him from jury service. The Court believes
that if Juror No. 3 had known this information, his
reluctance to be honest about his criminal history
would have likely been overcome by a desire to
avoid jury service. In sum, the Court finds that
there is no evidence of actual bias on the part of

69a
Juror No. 3, in favor of or against either the Government or Defendants. Even evaluating the facts
in the light most favorable to Defendants (which is
not the standard), no actual bias has been shown in
this case. There is just no proof that Juror No. 3
intentionally lied to smuggle his way onto the jury.
B. Implied Bias
Implied bias is reserved for “extreme situations,”
Greer, 285 F.3d at 172 (quoting Smith v. Phillips,
455 U.S. 209, 222, 102 S.Ct. 940, 71 L.Ed.2d 78
(1982)), and “ ‘deals mainly with jurors who are
related to the parties or who were victims of the
alleged crime itself,’ ” id. (quoting Torres, 128 F.3d
at 45). As explained by the Second Circuit:
Implied or presumed bias is “bias conclusively
presumed as a matter of law.” It is attributed
to a prospective juror regardless of actual partiality. In contrast to the inquiry for actual
bias, which focuses on whether the record at
voir dire supports a finding that the juror was
in fact partial, the issue for implied basis is
whether an average person in the position of
the juror in controversy would be prejudiced.
And in determining whether a prospective
juror is impliedly biased, “his statements upon
voir dire [about his ability to be impartial] are
totally irrelevant.”
Torres, 128 F.3d at 45 (citations omitted). It is
unsettled in the Second Circuit whether implied
bias may serve as the basis for a post-trial allegation of jury partiality. See Greer, 285 F.3d at 172.

70a
This is not a case of implied bias. There is no fact
in the record which, had it been elicited during jury
selection, would have required the Court to automatically assume bias on the part of Juror No. 3 or
that Juror No. 3 was prejudiced against Defendants or in favor of the Government. Juror No. 3 is
not related to any of the parties, victims, witnesses,
attorneys, and he was not a victim of the charged
crimes. Moreover, as discussed above, Juror No. 3’s
felon status does not justify a per se finding of bias
as a matter of law. At best, Defendants cite to
Juror No. 3’s potential knowledge of one of the
identified law enforcement witnesses in the case
(who never ultimately testified) because he is the
same individual who investigated Juror No. 3’s
clothing store burglary. Yet, even if Juror No. 3
recalled the name of the investigator (and there is
no evidence that he did), this would not support a
finding of implied bias against Defendants.
C. Inferred Bias
From a review of Defendants’ submissions, it is
apparent that the central focus of their argument is
that it should be inferred, from Juror No. 3’s inaccurate answers and undisclosed information, that
he was biased against Defendants. “[A] finding of
inferred bias is, by definition, within the discretion
of the trial court.” Id. As explained by the Second
Circuit in Torres:
Bias may be inferred when a juror discloses a
fact that bespeaks a risk of partiality sufficiently significant to warrant granting the trial

71a
judge discretion to excuse the juror for cause,
but not so great as to make mandatory a presumption of bias. There is no actual bias
because there is no finding of partiality based
upon either the juror’s own admission or the
judge’s evaluation of the juror’s demeanor and
credibility following voir dire questioning as to
bias. And there is no implied bias because the
disclosed fact does not establish the kind of
relationship between the juror and the parties
or issues in the case that mandates the juror’s
excusal for cause.
Nonetheless, inferable bias is closely linked to
both of these traditional categories. Just as the
trial court’s finding of actual bias must derive
from voir dire questioning, so the court is
allowed to dismiss a juror on the ground of
inferable bias only after having received
responses from the juror that permit an inference that the juror in question would not be
able to decide the matter objectively. . . .
[O]nce facts are elicited that permit a finding
of inferable bias, then, just as in the situation
of implied bias, the juror’s statements as to his
or her ability to be impartial become irrelevant. . . .
[C]ases in which a juror has engaged in activities that closely approximate those of the
defendant on trial are particularly apt [for an
inference of bias].

72a
128 F.3d at 47.27 Like implied bias, it is unsettled
in the Second Circuit whether inferred bias may
serve as the basis for a post-trial challenge based
on jury partiality. See Greer, 285 F.3d at 172.
As an initial matter, the Court must assess any
claim of inferred bias in light of Defendants’ attitude about Juror No. 3 before they were convicted.
Defendants wanted Juror No. 3—the only African
American male remaining after the removal of
T.P.—on the jury. During the first day of the trial,
the Court raised an issue after opening statements
as to whether Juror No. 3 had dozed off during the
Government’s opening statement. 29 The Court
observed that Juror No. 3 had made a noise that
could have been a snore, and the Government
observed that his eyes were closed and then opened
after making the noise. In response, defense counsel denied that Juror No. 3 had his eyes closed or
27

It should be noted that Torres is factually distinguishable from the instant case, in that it dealt with a trial court’s
exercise of discretion during voir dire to excuse a prospective
juror who had engaged in criminal conduct similar to the
crimes on trial—as opposed to a challenge to a juror post-verdict. In any event, Torres simply stands for the proposition
that the trial judge “acted within her discretion in finding
that the ‘inquiries made of [Juror No. 7] revealed a sufficient
factual basis’ to allow the court to draw the inference—especially given the hypertechnical nature of the offense of structuring—that that the juror would be unable to divorce her
consideration of this case from her own structuring experience.” 128 F.3d at 48.
29

The Court’s recitation of this part of the trial is based
upon its notes, since a transcript has not yet been prepared
for this part of the trial.

73a
was sleeping, and objected to the Court making any
further inquiry. The Court indicated that it would
continue to observe Juror No. 3 (as well as the rest
of the jurors), and, ultimately, no further inquiry
was required. However, defense counsels’ objections demonstrate that they perceived Juror No. 3
as an individual who was potentially in their corner, not the opposite. Indeed, Defendants’ attitude
in this regard is only further reinforced by their
reaction to the removal of the other African American male (T.P.) because of his undisclosed felony
convictions. See Stewart, 317 F.Supp.2d at 439
(rejecting defendants’ argument that nondisclosures by juror would have provided sufficient basis
for a challenge for cause, citing to defendants’ “vigorous[ ]” argument against the Government’s challenge to another prospective juror who failed to
disclose similar information).
Additionally, the information disclosed about
Juror No. 3’s criminal history does not support an
inference of bias against Defendants. The fact that
Juror No. 3 has been previously arrested and convicted of two prior felonies—including convicted for
burglarizing a clothing store and possibly arrested
for burglarizing a home30—does not justify a finding of bias against Defendants, and Defendants
cannot articulate any reasonable basis for conclud30

There is some evidence in the record that Juror No. 3
may have been arrested for burglarizing a home in May of
1989 (when he was 19 years old). However, Juror No. 3 had
no recollection of this alleged incident, and there is no evidence that he was convicted of this crime. (See Dkt. 358 at
84).

74a
ing otherwise. The fact that neither Defendant
requested that any issue about prospective jurors’
criminal histories be explored during voir dire, necessarily reflects Defendants’ lack of concern with
having criminals serve on the jury. Rather, this
was the Government’s concern, and in fact, McCoy
even admits that it would have been the Government who challenged Juror No. 3 for cause if his
criminal history had been revealed. (Dkt. 372 at 9).
See Stewart, 317 F.Supp.2d at 442 (“[D]efendants
have still failed to demonstrate how that information would have supported a for-cause challenge of
[the juror]. It is difficult to see how information
concerning [the juror’s] son’s conviction for an
attempted robbery—a crime unrelated to the
crimes charged in this case—could justify an inference that [the juror] would be biased against these
defendants. If anything, a prospective juror with a
family member who had been convicted of a crime
would more likely be considered biased in favor of
criminal defendants.”).
Similarly, Nix contends that Juror No. 3 is
biased because he “had bad experiences with law
enforcement.” (Dkt. 369 at 12). Not only is there no
evidence of this in the record, but even if that was
correct, any potential bias would be more likely
directed at the Government, not Defendants.
Again, to support this point, one need only review
the focus of Defendants’ and the Government’s
requested voir dire. (See Dkt. 170 at 5; Dkt. 173 at
2-3; Dkt. 178 at 2-5).
The primary thrust of Defendants’ claimed
inferred bias is the contention that Juror No. 3

75a
must have been biased against Defendants because
he would have necessarily identified with the cooperators in this case. However, just because Juror
No. 3 was a defendant in the criminal justice system with co-defendants does not mean that he
actively cooperated with law enforcement. There is
no evidence that Juror No. 3 was offered some
benefit in exchange for cooperation against any codefendant or that he testified against co-defendants. At best, there is evidence that Juror No. 3
confessed to his crimes and implicated his co-defendants. There is just no evidence in the record to
support the inference that, because of his criminal
past, Juror No. 3 sympathized with the cooperating
witnesses in this case, and thus was biased against
Defendants.
More to the point, Juror No. 3’s criminal history
is from some 30 years ago. That criminal history is
just too remote to support a finding of inferred
bias. There is nothing in the record to suggest that
Juror No. 3’s criminal past reflected bias against
Defendants, let alone that it even came into his
thought processes when sitting on this jury. In fact,
by all accounts, Juror No. 3 went to great lengths
to avoid any thoughts about his criminal past.
Moreover, this Court genuinely believes that
Juror No. 3 had no recollection of being the victim
of a home burglary, but, even if he did recall that
incident, the remoteness and lack of similarity to
the crimes at issue in this case again negates any
finding of inferred bias. In other words, the Court
has necessarily taken into account not just its findings about Juror No. 3’s failure to respond accu-

76a
rately during voir dire concerning his criminal history, but also the other claims made by Defendants
as to Juror No. 3’s alleged false answers, including
the fact that Juror No. 3 was a victim of a home
burglary about 20 years ago and his various family
members’ alleged criminal records. Even crediting
Defendants’ allegations about Juror No. 3’s false
answers, the Court cannot conclude that this supports an inference of bias against Defendants on
the part of Juror No. 3. The incidents are just too
remote and, on balance, do not support a finding of
bias against Defendants.
In sum, the record does not provide a basis to
infer bias. Even if the first prong of the McDonough
test was satisfied, there is no evidence of extreme
deceit (such as in Parse) that would support the
showing required under McDonough’s second
prong. Put simply, the Court does not believe that
the “deliberateness of [Juror No. 3’s] particular lies
evidenced partiality,” Stewart, 433 F.3d at 305
(citation omitted); and even if Juror No. 3 did
intentionally attempt to deceive the Court, the
deliberateness of his lies is not sufficiently intentional or premeditated so as to, in and of themselves, establish bias under the second prong. Cf.
Colombo, 869 F.2d at 151 (if juror deliberately provided false information by not disclosing that
brother-in-law was a lawyer for the government so
that she could sit on the case, then both prongs of
McDonough would be satisfied).

77a
VI. CONCLUSION
For the reasons set forth above, the Court denies
Defendants’ motions pursuant to Fed. R. Crim. P.
33 (Dkt. 286; Dkt. 289) to the extent the motions
are based upon Juror No. 3’s alleged bias.
SO ORDERED.

78a
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
August Term, 2019
(Argued: October 23, 2019
Final Briefs Submitted: January 3, 2020
Decided: April 22, 2021)
Docket Nos. 17-3515(L), 17-3516, 18-619, 18-625
UNITED STATES

OF

AMERICA,
Appellee,

—v.—
EARL MCCOY, aka P, MATTHEW NIX, aka Meech,
aka Mack, aka Mackey,
Defendants-Appellants*.
Before: KEARSE, PARKER, and SULLIVAN, Circuit
Judges.
Appeals in Nos. 17-3515 and 17-3516 from judgments of the United States District Court for
the Western District of New York, Elizabeth A.
Wolford, Judge, convicting each defendant of
Hobbs Act conspiracy, in violation of 18 U.S.C.
§ 951(a); Hobbs Act robbery and attempted robbery,
in violation of 18 U.S.C. §§ 1951(a) and 2; brandish* The Clerk of Court is instructed to amend the official
caption to conform with the above.

79a
ing firearms during and in relation to crimes of violence, to wit, the Hobbs Act conspiracy, Hobbs Act
robbery, and Hobbs Act attempted robbery counts,
in violation of 18 U.S.C. §§ 924(c)(1)(C)(i) and 2;
conspiracy to distribute and to possess with intent
to distribute marijuana and heroin, in violation of
18 U.S.C. §§ 846, 841(a)(1), and 841(b)(1)(D); and
possession of a firearm by a convicted felon, in violation of 18 U.S.C. §§ 922(g)(1) and 924(a)(2); convicting defendant McCoy of possession of a firearm
in furtherance of a drug trafficking crime, in violation of 18 U.S.C. §§ 924(c)(1)(A)(i) and 2; convicting
defendant Nix of possession of a firearm in furtherance of a drug trafficking crime, in violation of
18 U.S.C. §§ 924(c)(1)(C)(i) and 2; and sentencing
defendants McCoy and Nix principally to imprisonment for 135 years and 155 years, respectively.
In Nos. 18-619 and 18-625, defendants appeal
from an order of the district court denying their
postjudgment motions for reconsideration of the
denial of their postverdict motions seeking a new
trial on the ground that one of the jurors had given
false responses to voir dire questions with regard
to whether he had previously been convicted of a
felony. See United States v. Nix, No. 6:14-CR06181, 2018 WL 1009282 (W.D.N.Y. Feb. 20, 2018);
United States v. Nix, 275 F.Supp.3d 420 (W.D.N.Y.
2017).
On appeal, defendants contend principally (a)
that they were entitled to a new trial on the ground
that the juror’s false voir dire responses violated
their rights to be tried before a fair and impartial
jury; (b) that their firearm-brandishing convictions

80a
should be reversed on the ground that none of their
Hobbs Act offenses are predicate crimes of violence
under 18 U.S.C. § 924(c); (c) that in light of Rehaif
v. United States, 139 S. Ct. 2191 (2019), the trial
court erred in failing to instruct the jury on an
essential element of the § 922(g)(1) charges of being
felons in possession of firearms; and (d) that they
are entitled to reduction of their sentences under
the First Step Act of 2018, Pub. L. No. 115-391, 132
Stat. 5194.
Finding merit in the contention that Hobbs Act
conspiracy is not a § 924(c) crime of violence, see
United States v. Barrett, 937 F.3d 126 (2d Cir.
2019), we reverse defendants’ § 924(c) convictions
on Count 2 for brandishing firearms predicated on
Hobbs Act conspiracy. Defendants’ convictions on
all other counts, as well as the denial of their
motions for a new trial, are affirmed. The matter is
remanded for resentencing, and for consideration
by the district court of what relief, if any, may be
appropriate under the First Step Act.
Affirmed in part, reversed in part, and remanded
for further proceedings with regard to sentencing.
ROBERT MARANGOLA, Assistant United States
Attorney, Rochester, New York (James
P, Kennedy, Jr., United States Attorney
for the Western District of New York,
Tiffany H. Lee, Assistant United States
Attorney, Rochester, New York, on the
brief), for Appellee.

81a
ROBERT W. WOOD, Rochester, New York, for
Defendant-Appellant Earl McCoy.
MICHAEL JOS. WITMER, Rochester, New York,
for Defendant-Appellant Matthew Nix.
KEARSE, Circuit Judge:
Defendants Earl McCoy and Matthew Nix appeal
in Nos. 17-3515 and 17-3516, respectively, from
judgments entered in the United States District
Court for the Western District of New York following a jury trial before Elizabeth A. Wolford, Judge,
convicting each defendant on one count of Hobbs
Act conspiracy, in violation of 18 U.S.C. § 1951(a);
one count of Hobbs Act robbery and two counts of
Hobbs Act attempted robbery, in violation of 18
U.S.C. §§ 1951(a) and 2; four counts of brandishing
firearms during and in relation to crimes of violence, to wit, the Hobbs Act conspiracy, Hobbs Act
robbery, and Hobbs Act attempted robbery counts,
in violation of 18 U.S.C. §§ 924(c)(1)(C)(i) and 2;
one count of conspiracy to distribute and to possess
with intent to distribute marijuana and heroin,
in violation of 18 U.S.C. §§ 846, 841(a)(1), and
841(b)(1)(D); and one count of possession of a
firearm by a convicted felon, in violation of 18
U.S.C. §§ 922(g)(1) and 924(a)(2); convicting McCoy
on one count of possession of a firearm in furtherance of a drug trafficking crime, in violation of 18
U.S.C. §§ 924(c)(1)(A)(i) and 2; and convicting Nix
on one count of possession of a firearm in furtherance of a drug trafficking crime, in violation of 18

82a
U.S.C. §§ 924(c)(1)(C)(i) and 2. McCoy and Nix
were sentenced principally to imprisonment for 135
years and 155 years, respectively.
In Nos. 18-619 and 18-625, respectively, McCoy
and Nix appeal from an order of the district court
denying their postjudgment motions for reconsideration of the denial of their postverdict motions
seeking a new trial on the ground that one of the
jurors had given false responses to voir dire questions with regard to whether he had previously
been convicted of a felony.
On appeal, defendants contend principally (a)
that they are entitled to a new trial on the ground
that the juror’s false voir dire responses violated
their rights to be tried before a fair and impartial
jury (see Part II.A. below); (b) that their firearm
brandishing convictions should be reversed, and
those counts dismissed, on the ground that none of
their Hobbs Act offenses are predicate crimes of
violence under 18 U.S.C. § 924(c) (see Part II.B.
below); (c) that in light of Rehaif v. United States,
139 S. Ct. 2191 (2019), the trial court erred in failing to instruct the jury on an essential element of
the § 922(g)(1) charges of being felons in possession
of firearms (see Part II.C.1. below); and (d) that
they are entitled to reduction of their sentences
under the First Step Act of 2018, Pub. L. No. 115391, 132 Stat. 5194 (“First Step Act”) (see Part II.D.
below). Nix also makes brief sufficiency and
instructional challenges.
Finding merit in the contention that Hobbs Act
conspiracy is not a § 924(c) crime of violence, see,
e.g., United States v. Barrett, 937 F.3d 126 (2d Cir.

83a
2019), we reverse defendants’ § 924(c) convictions
on Count 2 for brandishing firearms predicated on
Hobbs Act conspiracy. Defendants’ convictions on
all other counts, as well as the denial of their
motions for a new trial, are affirmed. The matter is
remanded for defendants’ resentencing, and for
consideration by the district court of what relief, if
any, may be appropriate under the First Step Act.
I. BACKGROUND
The present prosecution focused on a series of
home invasions in the Rochester, New York area in
September and October 2014. The operative superseding indictment (“Indictment”) alleged that
McCoy and Nix, along with others including
Clarence Lambert, Jecovious Barnes, Jessica
Moscicki, and Gary Lambert, unlawfully conspired
and attempted to rob other persons of commodities
that had been shipped and transported in interstate and foreign commerce, such as diamonds,
watches, United States currency, and narcotics, and
conspired to traffic in the stolen narcotics. Clarence
Lambert (or “Clarence”) and Gary Lambert (or
“Gary”) are McCoy’s younger brothers.
The government’s evidence at the five-week trial
of McCoy and Nix principally included testimony
by Barnes, Moscicki, and Gary Lambert, who had
entered into plea agreements with the government;
testimony by victims of four home invasions; and
cellular telephone records indicating that McCoy
and Nix were in the immediate vicinity of the invasions, corroborating victim testimony about phone

84a
calls made during the robberies. Taken in the light
most favorable to the government, the evidence
included the following.
A. Coconspirator Testimony as to Planning and
Implementation
Gary Lambert testified that in early 2014 he
relocated from Brooklyn to Rochester to be with his
brothers. He had known that McCoy and Clarence
were engaged in the business of prostitution; when
he arrived in Rochester, McCoy and Clarence also
told him that “they was doing home invasion robberies, robbing people and selling drugs,” and they
recruited him to join their operation. (Trial Transcript (“Tr.”) 2797.)
Gary testified that the robbery operation was led
by McCoy and Nix and principally targeted persons
who were believed to be drug dealers. McCoy, who
was generally called “P,” and Nix, who was generally called “Meech,” had members of their crew,
including Clarence, place tracking devices on vehicles driven by the persons targeted. McCoy and Nix
were then able to use their phones to track the
prospective victims’ whereabouts (see id. at 2867)
and tell Gary, Clarence, and the others whether
the homes they were about to invade were unoccupied. Nix “was the one to tell us who had what,
where to get it and how to get it.” (Id. at 2853.)
Barnes, who was also known as “Bubbs” (see Tr.
1256-58), testified that he had committed some 1020 “home invasion missions” with Nix (Tr. 1240)
and that their targets generally were suspected

85a
drug dealers, victims unlikely to report the robberies to the police. Nix would drive Barnes to the
locations for the invasions; and although Nix never
went inside the homes, he provided weapons and
would communicate with Barnes by phone during
the robberies. (See, e.g., id. at 1227 (Nix and McCoy
supplied their crew with guns).) Nix would determine how the proceeds were distributed. (See id. at
1225-39.)
Moscicki testified that in the summer of 2014 she
worked as a prostitute for McCoy, with whom she
had a close, but non-romantic relationship; she was
the girlfriend of McCoy’s brother Clarence. Moscicki testified that, except for a 60-day period when
she was in jail for shoplifting, she saw Clarence
every day; she also saw McCoy about every two
days. Much of the time she was living either with
McCoy and his girlfriend “Anness” or with
Clarence.
She assisted in the robbery operation by receiving on her cellphone messages from Nix to be
relayed to Clarence, who did not have a working
phone. On at least two occasions, she assisted more
directly in invasions, either by knocking at the door
of the targeted home to determine whether anyone
was there or by driving a getaway car. She testified
that she had been aware of the robbery operations
conducted by McCoy and Nix, in which Clarence
participated, because “Clarence would come back”
to where they were staying “with a whole bunch of
stuff, money, drugs, electronics” (Tr. 514). Clarence
told her he was participating in home invasions
with McCoy, Nix, Barnes, and Gary (see id. at 515)

86a
and described the tracking devices they used on the
cars of their prospective victims. Clarence said Nix
told the crew which places to rob. Moscicki also
heard Clarence discussing such invasions with
Gary, Barnes, McCoy, and Nix.
Gary described the first home invasion in which
he participated, a burglary where no one was at
home; Nix told McCoy, Clarence, and Gary that the
occupants had a lot of money and marijuana in the
house; Nix and McCoy provided information from a
tracking device. Gary and Clarence broke in; Gary
then let McCoy in; and the three of them searched
the house. (See Tr. 2868-71.) They found— as Nix
had predicted—substantial amounts of cash (totaling some $64,000) and marijuana (some 24
pounds). All of the proceeds of the robbery were
handed over to McCoy and Nix, who divided most of
it between themselves and gave the remainder—a
total of $6,000 and one-and-a-half pounds of marijuana—to Gary and Clarence. (See id. at 2871-76.)
Gary assisted in the sales of McCoy’s share of the
marijuana. (See id. at 2873-79.)
B. Victims’ Testimony and Results of the Invasions
Victims of four home invasions described their
losses and/or their treatment by the intruders. In
an attempted robbery on September 15, two men
with guns broke into a home on Hayward Avenue,
demanding drugs and assaulting the adult occupants. No drugs were found. One of the would-be
robbers was identified at trial as McCoy. Upon

87a
realizing that the residents were not drug dealers
as defendants had believed, McCoy had made a
phone call stating that “there was nothing in the
house, that . . . there was just a woman and a man
and a little kid.” (Tr. 1082.)
In another attempted robbery, men broke into a
home on Garson Avenue on September 18. They
knocked one of the residents down and tied her up,
brandished a gun at her mother, and asked “‘Where
the money, where the money, and the pills at’” (Tr.
1710). One of the victims identified Barnes as one
of the intruders. Barnes testified that he had been
driven to the Garson Avenue location by Nix and
had participated in that attempted robbery with
Clarence and McCoy. When no money or pills were
found there, Barnes called Nix to report that they
had found nothing of value.
On September 23, there was a burglary of a
house on Maple Street where no one was at home.
The victim testified that in 2014 he was a seller of
marijuana and cocaine and kept a number of guns
in the house. He described returning home at the
end of his work day and finding that his drugs,
money, and guns were gone. (See Tr. 1803, 1816.)
Moscicki testified that that Maple Street burglary was the first of defendants’ invasions in which
she had a direct role, ordered by McCoy to accompany him and Clarence. McCoy drove them to a
spot near Maple Street, where they met up with
Nix, who had brought Barnes. McCoy conferred
with Nix, who said he had been monitoring the
house to determine the owner’s pattern of comings
and goings. (See Tr. 519-26, 686.) McCoy instructed

88a
Moscicki to knock on the door of the targeted house
to learn whether anyone was there. After Moscicki
found the right house and no one answered her
knock, she returned to McCoy’s car; Nix then drove
Barnes and Clarence into the driveway of the
house. Later, Clarence told Moscicki they had found
large quantities of marijuana and guns. (See id. at
597-98.) Barnes testified that on that day, Nix had
brought him to Maple Street; that McCoy and
Clarence had arrived separately; and that McCoy
and Nix told Barnes that the targeted home had
heroin and cocaine hidden in the walls. Barnes and
Clarence, armed, broke into the house and found
10-12 large ziplock bags of marijuana, $7-10,000 in
cash, and a half dozen guns. Barnes telephoned Nix
and said, “We hit the jackpot” (Tr. 1321). Barnes
and Clarence delivered everything they found to
Nix. McCoy and Barnes subsequently “bought capsules to package the” marijuana for sale. (Tr.
1332.)
On October 7, there was an invasion of a house
on Polo Place in the Rochester suburb of Greece,
New York, occupied by a jewelry wholesaler and his
wife, who were at home. The jeweler testified that
he ran his business from his home. He testified
that after the men broke into his house, he and his
wife were threatened and repeatedly pistolwhipped. He estimated that the men stole $20,000
in cash, along with jewelry whose wholesale value
was approximately $200,000. (See Tr. 1926-27.)
Barnes and Gary testified that they and Clarence
were the ones who had conducted that robbery.
Moscicki testified that several days earlier, she had

89a
gone to Polo Place with McCoy, Nix, Barnes, and
Clarence, and had knocked at the jeweler’s door to
see whether anyone was at home. After the jeweler
answered the knock (and tried his best to help
Moscicki find the person or place she claimed to be
seeking), the crew regrouped and considered
whether to do the robbery that day. Nix said no,
which ended the discussion.
Barnes testified that they returned on October 7
to rob the house on Polo Place. Moscicki, driving a
car belonging to McCoy’s girlfriend, waited in the
driveway; McCoy and Nix were parked nearby.
Barnes and Clarence, along with Gary who had not
been on the previous trip, broke into the house.
Barnes and Gary testified that they threatened the
couple with guns (and BB guns), and pistolwhipped the jeweler to get him to reveal the location of his money and open his safe. When they had
collected all the cash, gold coins, watches, and jewelry they could find, they left and sped off in the car
driven by Moscicki. They soon met up with McCoy
and Nix, and Nix demanded that all of the loot be
transferred to his vehicle.
As usual, McCoy and Nix were “the ones that did
the splitting and division of” the loot (Tr. 2912).
They divided most of it between themselves; they
gave Barnes, Clarence, and Gary $3,300 each and
allowed each to take a watch. (See id. at 2911-15.)
Defendants’ operation began to unravel shortly
thereafter when Clarence—despite admonitions by
McCoy and Nix not to try to sell the watches in or
near Rochester—tried a week later to pawn his
chosen watch in Rochester.

90a
C. The Defense Case
Neither McCoy nor Nix testified at trial. They
called two witnesses from law enforcement who
described possible inconsistencies between various
witnesses’ trial testimony and their respective
prior statements. A Special Agent of the Bureau of
Alcohol, Tobacco, Firearms, and Explosives testified that Gary Lambert, in response to postarrest
questioning about the Polo Place robbery, did not
mention McCoy except to say that McCoy did not
enter the building; and that Gary did not mention
Nix at all. (See Tr. 3300-02.) And a Rochester police
investigator testified that the Hayward Avenue
victim who identified McCoy at trial as one of the
intruders had given the Rochester police descriptions of the two intruders that did not match either
Barnes or McCoy, and he had not picked McCoy’s
picture out of a photo array. (See id. at 3349-68.)
However, on cross-examination, the investigator
testified that, from a different photo array, the victim picked out McCoy as the intruder who had hit
him in the face with a gun. (See id. at 3373-74).
D. Jury Instructions and the Verdicts
In charging the jury, the district judge segmented its deliberations, giving instructions first on
Counts 1-8 and 11-12, leaving Counts 9 and 10,
which charged Nix and McCoy, respectively, with
firearm possession as a convicted felon, for later
consideration.
As to the first group of counts to be considered,
the court described the subject of each count of the

91a
Indictment, to wit: Count 1, conspiracy to commit
Hobbs Act robbery; Count 2, brandishing firearms
during and in relation to that conspiracy; Counts
3 and 5, the Hobbs Act attempted robberies at
Hayward Avenue and Garson Avenue, respectively;
Counts 4 and 6, brandishing firearms during and
in relation to the Hobbs Act robbery attempts
charged in Counts 3 and 5, respectively; Count 7,
the narcotics possession-and-distribution conspiracy; Count 8, possession of firearms in furtherance
of the Count 7 narcotics conspiracy; Count 11, the
Hobbs Act robbery at Polo Place; and Count 12,
brandishing firearms during and in relation to the
Polo Place robbery.
With respect to Count 1, the court explained that
conspiracy to commit a crime is itself a crime separate from and independent of the crime that is the
objective of the conspiracy; that the government
was required to prove beyond a reasonable doubt
that “the minds of at least two alleged conspirators
met in an understanding way to meet the objectives
of the conspiracy” (Tr. 3767); and that the objectives alleged in this case were
the robbery of diamonds, watches and United
States currency from a person engaged in the
business of buying and selling diamonds,
watches and other items shipped and transported in interstate and foreign commerce; and
the robbery of controlled substances and United States currency from persons engaged in or
believed to be engaged in the unlawful possession and distribution of controlled substances,

92a
(id. at 3768-69). The court reiterated that in order
to find a defendant guilty on Count 1, the jury must
find that “the defendant under consideration knowingly and willfully became a participant in or member of the conspiracy.” (Tr. 3769.)
With respect to Counts 2, 4, 6, and 12, charging
defendants with brandishing firearms during a
crime of violence (the “brandishing counts”), the
court instructed that the government was required
to prove that each defendant committed the predicate crime of violence, i.e., the Hobbs Act offenses
alleged in Counts 1, 3, 5, and 11, respectively; and
it instructed that “Hobbs Act conspiracy, attempted Hobbs Act robbery and Hobbs Act robbery all
constitute crimes of violence.” (Tr. 3787.) However,
the court instructed that if the jury found a given
defendant not guilty on a particular Hobbs Act
count, the jury was not to consider against that
defendant the brandishing count for which that
Hobbs Act count was a predicate.
The court also instructed that, except with
respect to the counts charging defendants with conspiracy or with firearm possession as a convicted
felon, the Indictment charged each defendant both
as a principal and as an aider and abettor, and that
it was not necessary for the government to show
that a defendant himself personally committed the
crime with which he is charged in order for him to
be found guilty. The court explained that a person
who willfully causes another person to perform an
act that is a crime against the United States is
punishable as a principal; and that an aider and
abetter, i.e., “a person who did not commit the

93a
crime, but in some . . . way counseled, advised or
in some way assisted the commission of the crime,”
“is just as guilty of that offense as if they had committed it themselves.” (Tr. 3815.)
In addition, with respect to the substantive
crimes alleged in Counts 2-6, 8, and 11-12, the court
—over defendants’ objections—gave a Pinkerton
charge, see Pinkerton v. United States, 328 U.S.
640 (1946), instructing the jury that, as to “reasonabl[y] foreseeable acts” of any member of the conspiracy (Tr. 3804),
[i]f you find beyond a reasonable doubt that the
defendant whose guilt you are considering was
a member of the conspiracy charged in the
indictment, then any acts done or statements
made in furtherance of the conspiracy by persons also found by you to have been members of
the conspiracy may be considered against that
defendant. This is so even if such acts were
done and statements were made in a defendant’s absence and without his knowledge
(id. at 3804-05).
The jury after deliberating for less than three
hours, found McCoy and Nix guilty on Counts 1-8
and 11-12.
The court then turned to Counts 9 and 10, which
charged Nix and McCoy, respectively, with being a
felon in possession of firearms on September 23,
2014. It informed the jury that defendants and the
government had “stipulated that prior to September
23, 2014,” Nix and McCoy had each “been convicted
of a crime punishable by imprisonment for a term

94a
exceeding one year.” (Tr. 3873.) The court instructed that “[i]t is not necessary that the government
prove that a defendant knew that the crime was
punishable by imprisonment for more than one
year.” (Id. at 3874.) After brief deliberations, the
jury returned verdicts of guilty on both counts.
Defendants thereafter moved for, inter alia, a
new trial on the ground that they had recently discovered that one of the jurors was a previously convicted felon and had failed to disclose his criminal
history during jury selection. As discussed in Part
II.A. below, the district court, following an evidentiary hearing at which the juror testified, denied
the motion, see United States v. Nix, 275 F.Supp.3d
420 (W.D.N.Y. 2017) (“Nix I”).
E. Sentencing
Defendants were sentenced in October 2017
under the advisory Sentencing Guidelines (“Guidelines”), pursuant to calculations they do not challenge on appeal. Each was sentenced principally to
imprisonment totaling 30 years for Counts 1, 3, 5,
7, 11, and the felon-in-possession counts (Count
9 for Nix, Count 10 for McCoy), to be followed by
25-year terms for each of Counts 2, 4, 6, and 12.
Nix, whose prior record included a § 924(c) conviction, also received a mandatory minimum consecutive sentence of 25 years on Count 8; McCoy, whose
record did not include a prior § 924(c) conviction,
received a mandatory minimum consecutive sentence of 5 years on Count 8. Thus, Nix’s total term

95a
of imprisonment was 155 years; McCoy’s was 135
years.
F. The Present Appeals
Defendants promptly appealed the judgments of
conviction. Thereafter they moved in the district
court for reconsideration of the denial of their
motions for a new trial on the ground of juror misconduct. Following the denial of reconsideration,
see United States v. Nix, No. 6:14-CR-06181, 2018
WL 1009282 (W.D.N.Y. Feb. 20, 2018) (“Nix II”),
each defendant appealed that denial, and their four
appeals were consolidated. Defendants filed their
opening briefs, principally pursuing the contention
that they are entitled to a new trial because of
juror misconduct, and contending that their convictions on the brandishing counts should be reversed
on the ground that the Hobbs Act conspiracy and
robbery offenses of which they were convicted are
not crimes of violence.
Thereafter, prior to the oral argument of their
appeals, defendants sought and received permission to file supplemental briefs to contend that, in
light of the Supreme Court’s decision in United
States v. Davis, 139 S. Ct. 2319 (2019), Hobbs Act
conspiracy is not a crime of violence within the
meaning of 18 U.S.C. § 924(c), and to contend that
they are entitled to reduction of their sentences
under the First Step Act. Following oral argument
of the appeals, defendants sought and received permission to file additional supplemental briefs in
light of the Supreme Court’s decision in Rehaif v.

96a
United States, 139 S. Ct. 2191 (2019), contending
that the district court erred in failing to instruct
the jury that, in order to establish their guilt under
§ 922(g)(1) as felons in possession of firearms, the
government was required to prove that, when they
possessed the firearms, they knew they were convicted felons.
II. DISCUSSION
On these appeals, defendants contend principally
(1) that the juror’s misconduct violated their Sixth
Amendment rights to an impartial jury and entitled them to a new trial on all viable counts; (2)
that none of the Hobbs Act offenses of which they
are convicted qualifies as a crime of violence under
18 U.S.C. § 924(c), and thus the § 924(c) firearmbrandishing counts (Counts 2, 4, 6, and 12) predicated on Hobbs Act offenses are not viable and
should be dismissed; and (3) that their respective
Counts 9 and 10 felon-in-possession-of-firearm convictions should be vacated in light of Rehaif
because the government did not prove that, when
they possessed the firearms, they knew they were
convicted felons. They also argue, alternatively,
that they are entitled to a reduction of their sentences under the First Step Act; and they make
cursory challenges to various aspects of the trial
proceedings.
Several of defendants’ contentions are raised for
the first time on these appeals. An error that has
not been preserved by timely objection in the district court may be reviewed on appeal if it is “[a]

97a
plain error that affects substantial rights.” Fed. R.
Crim. P. 52(b). Under plain-error review,
“before an appellate court can correct an error
not raised [in the district court], there must be
(1) ‘error,’ (2) that is ‘plain,’ and (3) that
‘affect[s] substantial rights.’ If all three conditions are met, an appellate court may then
exercise its discretion to notice a forfeited
error, but only if (4) the error ‘seriously
affect[s] the fairness, integrity, or public reputation of judicial proceedings.’ ”
United States v. Groysman, 766 F.3d 147, 155 (2d
Cir. 2014) (“Groysman”) (quoting Johnson v. United
States, 520 U.S. 461, 466-67 (1997) (which was
quoting United States v. Olano, 507 U.S. 725, 732
(1993))).
The burden is on the appellant to meet all four
criteria. See, e.g., United States v. Dominguez Benitez, 542 U.S. 74, 82 (2004); Groysman, 766 F.3d at
155; United States v. Dussard, 967 F.3d 149, 156
(2d Cir. 2020). If all four are met, we have discretion to grant relief despite the defendants’ failure
to preserve the issue in the district court for normal appellate review. See, e.g., Johnson, 520 U.S.
at 467; Olano, 507 U.S. at 732.
For the reasons that follow, we find merit only in
defendants’ contention that Hobbs Act conspiracy
is not a crime of violence within the meaning of
§ 924(c) and that their convictions on Count 2 must
therefore be reversed and the case remanded for
resentencing.

98a
A. The Motion for a New Trial Based on Juror Misconduct
About a month after the jury’s final verdicts were
returned, and prior to the imposition of sentences,
McCoy and Nix moved pursuant to Fed. R. Crim. P.
33 for a new trial, stating that defense counsel had
learned that one of the jurors had been convicted of
two felonies and had failed to disclose his criminal
history during jury selection. The juror was eventually correctly identified as Juror Number 3, and
was referred to by the district court—as he will be
here—as either “J.B.” or “Juror No. 3” in light of
general court “rule[s] that the names and personal
information concerning jurors and prospective
jurors should not be publicly disclosed,” Nix I, 275
F.Supp.3d at 424 n.2.
1. The Juror Questionnaire and Voir Dire Proceedings
Prior to any oral voir dire at defendants’ trial, a
questionnaire had been mailed by the court to
prospective jurors. Question 6 asked: “Have you
ever been convicted, either by your guilty or nolo
contendere plea or by a court or jury trial, of a state
or federal crime for which punishment could have
been more than one year in prison?” J.B. answered
this question by checking “No.” Nix I, 275
F.Supp.3d at 445 & n.4.
In addition, during the oral voir dire—to the
extent “relevant to these post-verdict motions,” id.
at 426 n.6—the court addressed the following ques-

99a
tions to a panel of 36 prospective jurors who had
been placed under oath, including J.B.:
(1) “Has anyone ever been the victim of a
home robbery?” ([Tr.] 97);
(2) “Has anyone ever served on a jury
before?” (id. at 205);
(3) “Has anyone ever been a defendant in a
criminal case?” (id. at 214);
(4) “Has anyone ever visited a jail or correctional facility other than in connection with
. . . your educational curriculum” (id. at 229);
(5) “Has anyone had anyone close to them,
other than what we already discussed, . . .
anyone close to them convicted of a crime?” (id.
at 239).
Nix I, 275 F.Supp.3d at 426. Juror No. 3 “did not
respond” to any of these questions. Id. at 425-26.
Similarly, Juror No. 3 did not offer any information in response to the Court’s “catch-all”
questions asked toward the end of voir dire:
whether there was “anything in fairness to
both sides that you think we should know that
we haven’t covered already” ([Tr.] 221), and
“[i]s there anything that you think we should
know that we haven’t covered up to this point?”
(id. at 257).
Nix I, 275 F.Supp.3d at 426.
In support of their new-trial motion, defendants
produced public records showing, inter alia, that

100a
Juror No. 3 had previously pleaded guilty and been
convicted of two felonies, i.e., possession of stolen
property in 1988 and burglary in 1989; that his son
had been convicted of a crime; and that Juror No. 3
had been the victim of a home burglary. Defendants contended that they were entitled to a new
trial even absent a showing of bias, because convicted felons are statutorily ineligible to serve as
jurors in federal court, see 28 U.S.C. § 1865(b)(5),
and, in any event, that Juror No. 3’s nondisclosures
demonstrated bias.
The district court ordered an evidentiary hearing
(“Hearing”) at which Juror No. 3 testified, represented by appointed counsel. (See New Trial Hearing Transcript, June 12 and 14, 2017 (“H.Tr.”).)
The government granted Juror No. 3 immunity
with regard to any nonperjurious testimony he
would give at the Hearing.
2. The Hearing
In response to questioning by the court at the
Hearing, Juror No. 3 acknowledged that he had
answered Question 6 on the preliminary questionnaire incorrectly. He testified that he had not been
aware that his answer was incorrect. Age 46 when
defendants’ trial proceedings began, Juror No. 3
testified that he had responded that he had no
prior felony convictions because he assumed that
the question referred only to crimes committed
after the age of 21; that he was 17 or 18 at the time
he was convicted; and that he believed convictions
entered when he was younger than 21 had been

101a
expunged from his record. He also testified that he
had not believed that his 1989 conviction for burglary required an affirmative answer because,
although the sentence was two-to-four years, he
“was offered six months in shock camp” and that is
how he satisfied the sentence (H.Tr. 72-75); he testified that he did not “know that [he] actually had
a felony” (id. at 83).
In addition, while conceding that the district
court had not stated that its voir dire questions
applied only to one’s experiences over the age of 21,
Juror No. 3 testified that he had also believed the
five questions quoted above did not apply to crimes,
convictions, or experiences prior to the age of 21.
Juror No. 3 also testified that at the time of trial,
he did not know his son had been convicted of a
crime; he had not spoken to his son for several
years prior to that time and learned of the conviction only a month before the Hearing. Juror No. 3
conceded that his failure to respond to the above
five questions posed to the panel as whole was
incorrect. (See id. at 83-85, 89-92, 168-69, 172-75;
see also id. at 97-98 (stating that he had answered
questions on previous calls for jury duty in the
same way, on the assumption that they concerned
events and experiences after the age of 21).)
When questioned further about his own prior
record, Juror No. 3 also initially claimed that he
had been falsely accused of both of the felonies of
which he was convicted, and he claimed to have at
best a hazy memory of events that had occurred 28
years earlier, when he was 17 or 18. He said he did
not remember how many times he had been con-

102a
victed of crimes punishable by more than one year
in prison. And while he recalled being convicted of
breaking into a clothing store when he was 17 or
18, and serving six months in “shock camp” for that
crime, he did not remember such aspects as the
location of the shock camp, the names of all of his
codefendants, whether the prosecution was state or
federal, or whether he had pleaded guilty or gone
through a trial. (See id. at 72-76.) However, on the
second day of the Hearing, Juror No. 3 was confronted with his signed confessions in both the burglary case and the stolen property case, and he
admitted that he had been involved in both. (See id.
at 179-84, 222-25, 231.)
When asked whether he had wanted to serve as a
juror in this case, Juror No. 3 three times responded “Yes” (H.Tr. 93, 96); when asked why, he stated
it was because he was picked, and he believed it
was his right and his duty (see id. at 93). He stated
that he is able to vote, and he did not know that
having a prior felony conviction disqualified him
from serving as a juror. (See id. at 82.) However,
when later again asked whether he had wanted to
serve as a juror in this case, Juror No. 3 answered
“No” (id. at 97, 235, 242, 243). He testified he had
answered yes to that question previously because
he was “confused about the question” (id. at 242).
He said that he had not been happy to receive a
summons for jury duty; that his false or inaccurate
answers to the voir dire questions were not given
out of any desire to serve on the jury (see id. at 94,
233-34); and that if he had known that by telling
the court about his past experiences with the law

103a
he would have been excused, he would have done so
(see id. at 97, 240, 243).
Juror No. 3 answered “No” to all questions as to
whether his prior experiences with the law had
caused him to be biased for or against the defendants or for or against the government, or had
given him reason to credit the testimony of cooperating witnesses against the defendants.
3. The District Court’s Ruling
In a thorough opinion, Nix I, 275 F.Supp.3d 420,
the district court denied defendants’ motion for a
new trial based on juror misconduct. It rejected
their contention that Juror No. 3’s felony conviction, absent any showing of bias, automatically
warranted the granting of a new trial based on the
statutory disqualification of convicted felons from
serving on federal juries, see 28 U.S.C. § 1865(b)(5).
The court noted that “[t]his argument has been
rejected by every circuit court to have considered
the issue.” Nix I, 275 F.Supp.3d at 436 n.17; see,
e.g., United States v. Boney, 977 F.2d 624, 633
(D.C. Cir. 1992) (the “Sixth Amendment right to
an impartial jury . . . does not require an absolute
bar on felon-jurors”); see also United States v.
Langford, 990 F.2d 65, 69 (2d Cir. 1993) (“Langford”) (rejecting the argument that a juror’s intentionally false response during voir dire is an
automatic ground for a new trial).
Rather, pointing to “the Sixth Amendment’s
guarantee to a trial by an impartial jury,” and noting that “ ‘[a]n impartial jury is one in which all of

104a
its members, not just most of them, are free of
interest and bias,’ ” Nix I, 275 F.Supp.3d at 424
(quoting United States v. Parse, 789 F.3d 83, 111
(2d Cir. 2015) (“Parse”))—but that a defendant is
“ ‘entitled to a fair trial but not a perfect one, for
there are no perfect trials,’ ” Nix I, 275 F.Supp.3d
at 424 (quoting McDonough Power Equipment, Inc.
v. Greenwood, 464 U.S. 548, 553 (1984) (“McDonough”))—the district court noted that
the Second Circuit has adopted a two-part test
that a defendant must establish in order to justify granting a new trial based upon incorrect
responses by a juror during voir dire: (1) the
defendant must first demonstrate that the
juror “failed to answer honestly a material
question on voir dire”; and (2) the defendant
then must also demonstrate that “a correct
response would have provided a valid basis for
a challenge for cause”—in other words, the
juror would have been excused for bias based
on the correct voir dire response. Langford, 990
F.2d at 68-69 (quoting McDonough, 464 U.S. at
556-58 . . .).
Nix I, 275 F.Supp.3d at 437 (emphases ours). The
district court stated that under the first part of this
test
the Court must assess whether Juror No. 3
deliberately lied or consciously deceived the
Court, as opposed to providing inaccurate
responses as a result of a mistake, misunderstanding or embarrassment. See McDonough,

105a
464 U.S. at 555, 104 S.Ct. 845; Langford, 990
F.2d at 69-70 (finding where a juror’s intentionally false statements at voir dire were caused by
embarrassment, and there was no evidence
“that she gave false answers because of any
desire to sit on the jury,” it was proper for the
district court to deny the defendant’s motion
for a new trial. . . .
Nix I, 275 F.Supp.3d at 437-38 (emphasis ours).
The court here found that Juror No. 3 had made
some intentionally false statements at voir dire;
but it found that they were in no way motivated by
a desire to sit on the jury:
The Court does not doubt that Juror No. 3’s
inaccurate testimony regarding his criminal
record was due, in part, to the age of the convictions. However, given Juror No. 3’s false testimony during the evidentiary hearing about
his culpability for the two felony convictions,
the Court does not credit Juror No. 3’s explanation that he was confused by the voir dire questions or thought that the questions applied to
criminal convictions only after the age of 21.
Based on Juror No. 3’s continued refusal to disclose the full extent of his criminal history during the evidentiary hearing—until faced with
documentary evidence of the same—the Court
concludes that Juror No. 3 failed to respond
truthfully to the juror questionnaire and the
Court’s voir dire questions as they pertained to
both his criminal convictions and his exposure
to a jail.

106a
However, this finding does not mean that the
Court concludes that Juror No. 3 provided false
information about his criminal record in an
effort to intentionally deceive the Court so as to
be selected to serve on the jury. Here, Juror No.
3 did not lie “for the purpose of securing a seat
on the jury,” Parse, 789 F.3d at 111, nor can his
lies be characterized as “premeditated and
deliberate” so as to hide his true identity and
ensure his selection on the jury, id. at 92-93.
Nix I, 275 F.Supp.3d at 447-48 (emphases ours).
The court found that the very fact that Juror No.
3 continued to lie about his criminal history at the
evidentiary Hearing, after having been granted
immunity for nonperjurious Hearing testimony,
indicated he had a persisting motive for refusing to
be honest about his criminal past at the Hearing
until confronted with documentary evidence. The
court was persuaded that “his motives had nothing
to do with securing a seat on this jury.” Id. at 448.
While the court was “not persuaded that Juror No.
3 misunderstood the scope of the questions as only
applying to convictions at the age of 21 and older,
when responding to either this Court or other
courts in the past,” id., it found that Juror No. 3’s
motivation for the inaccurate responses was not
nefarious, but
rather, . . . more likely originates from the
simple fact that, at 47 years old, Juror No. 3
would prefer to shut out any recollection of his
criminal history—the most recent of which (if
[a] domestic violence incident from 1999 is

107a
included) was about 20 years ago, and most of
which occurred when he was a teenager.
Id. Thus, although the court found “that Juror No.
3 testified falsely about certain information during
the Hearing that was conducted on June 12 and 14,
2017,” it
reject[ed] the notion that Juror No. 3 intentionally deceived the Court during voir dire as to
his criminal history so as to gain a seat on the
jury. Although Juror No. 3’s voir dire answers
regarding his criminal history were inaccurate,
the Court cannot conclude that they rise to the
level of intentional falsehood necessary to satisfy the first prong of the McDonough test.
Id. (emphases added).
The court further saw no evidence from which to
find or infer that Juror No. 3 had had any bias,
whether actual, implied, or inferred. As to actual
bias, i.e., “ ‘the existence of a state of mind that
leads to an inference that the person will not act
with entire impartiality,’ ” Nix I, 275 F.Supp.3d at
449 (quoting United States v. Torres, 128 F.3d 38,
43 (2d Cir. 1997) (“Torres”), cert. denied, 523 U.S.
1065 (1998)), the court found that
[t]his was plainly not a case of Juror No. 3
wanting to hide information about his past to
make himself more marketable as a juror, like
the juror in Parse. Early in the voir dire, Juror
No. 3 expressed reservations about serving
because of his job responsibilities. (Dkt. 328 at
41). During the jury selection, Juror No. 3 was

108a
frustrated with the Court about the length of
the proceedings (see Dkt. 359 at 238-39), and in
fact, once selected to serve, he left the courtroom as the Court was still informing the
jurors about some housekeeping matters (see
Dkt. 327 at 32).
Nix I, 275 F.Supp.3d at 450 (emphasis added). Further, there was
no evidence that Juror No. 3 knew that disclosure of his criminal record would have disqualified him from jury service. The Court believes
that if Juror No. 3 had known this information,
his reluctance to be honest about his criminal
history would have likely been overcome by a
desire to avoid jury service. In sum, the Court
finds that there is no evidence of actual bias on
the part of Juror No. 3, in favor of or against
either the Government or Defendants. Even
evaluating the facts in the light most favorable
to Defendants (which is not the standard), no
actual bias has been shown in this case. There
is just no proof that Juror No. 3 intentionally
lied to smuggle his way onto the jury.
Id. at 451 (emphases added).
Nor did the court find any basis to find “implied
bias”—a concept that is “reserved for ‘extreme situations’ ” warranting a conclusive presumption of
bias as a matter of law. Id. (quoting United States
v. Greer, 285 F.3d 158, 172 (2d Cir. 2002) (“Greer”));
see, e.g., Torres, 128 F.3d at 45. Implied bias generally “‘deals mainly with jurors who are related to

109a
the parties or who were victims of the alleged crime
itself.’ ” Nix I, 275 F.Supp.3d at 451 (quoting Greer,
285 F.3d at 172 (other internal quotation marks
omitted)). The court found that Juror No. 3 had no
relationships with any of the parties, victims, witnesses, or attorneys; and it saw “no [other] fact in
the record which, had it been elicited during jury
selection, would have required the Court to automatically assume bias on the part of Juror No. 3 or
that Juror No. 3 was prejudiced against Defendants or in favor of the Government.” Nix I, 275
F.Supp.3d at 451.
Finally, the district court found no evidence from
which it should “infer” bias. It noted that
“[b]ias may be inferred when a juror discloses
a fact that bespeaks a risk of partiality sufficiently significant to warrant granting the trial
judge discretion to excuse the juror for cause,
but not so great as to make mandatory a presumption of bias.”
Id. at 453 (quoting Torres, 128 F.3d at 47
(emphases ours)); see, e.g., Greer, 285 F.3d at 172
(findings as to inferred bias lie “within the discretion of the trial court”). After reviewing all of the
evidence and defense contentions before it, the
court concluded that there was no evidence to support defendants’ contention that Juror No. 3 had
“had bad experiences with law enforcement” or that
his experiences would cause him to be biased
against defendants; and it found no evidence to
support their contention that because Juror No. 3
had pleaded guilty in a case in which he had code-

110a
fendants, he would be predisposed to credit the
views of cooperating witnesses and thus be biased
against defendants. Id. (internal quotation marks
omitted). The court also deemed the mere existence
of Juror No. 3’s criminal history—nearly three
decades old—too remote to warrant inferring bias.
The district court further found that defendants’
own jury selection strategy strongly suggested the
absence of reason to infer that Juror No. 3 was
biased against defendants based on his criminal
record: When the government moved, during jury
selection, to dismiss a prospective juror (“T.P.”) for
cause upon learning that T.P. had prior felony convictions that he had not disclosed, defendants vigorously objected to T.P.’s dismissal. Nix I, 275
F.Supp.3d at 426-27, 429; see also id. at 453
(“McCoy even admits that it would have been the
Government who challenged Juror No. 3 for cause
if his criminal history had been revealed.”).
In sum, the court concluded that defendants also
failed to meet the second prong of the McDonough
test because it concluded that
[t]here is no actual bias because there is no
finding of partiality based upon either the
juror’s own admission or the judge’s evaluation
of the juror’s demeanor and credibility following voir dire questioning as to bias,
id. at 453 (internal quotation marks and emphasis
omitted); that
there is no implied bias because the disclosed
fact does not establish the kind of relationship

111a
between the juror and the parties or issues in
the case that mandates the juror’s excusal for
cause,
id. (internal quotation marks and emphasis omitted); and that
the record does not provide a basis to infer
bias. Even if the first prong of the McDonough
test was satisfied, there is no evidence of extreme
deceit (such as in Parse) that would support the
showing required under McDonough’s second
prong. Put simply, the Court does not believe
that the deliberateness of [Juror No. 3’s] particular lies evidenced partiality . . . ; and even
if Juror No. 3 did intentionally attempt to
deceive the Court, the deliberateness of his lies
is not sufficiently intentional or premeditated
so as to, in and of themselves, establish bias
under the second prong,
Nix I, 275 F.Supp.3d at 454 (internal quotation
marks omitted (emphases added)).
4. Abuse-of-Discretion Review
A district court’s denial of a Rule 33 motion for a
new trial is reviewable for abuse of discretion. See,
e.g., Parse, 789 F.3d at 110. A court abuses its discretion if (1) it takes an erroneous view of the law,
(2) its decision rests on a clearly erroneous finding
of fact, or (3) its decision “cannot be located within
the range of permissible decisions.” Id. We see no
such flaws in the denial at issue here.

112a
First, we see no error in the district court’s ruling
that the statutory disqualification of felons from
serving on the jury, raised for the first time after
trial, did not provide an automatic basis for a new
trial. Under the Jury Selection and Service Act of
1968 (“Jury Selection Act”), 28 U.S.C. § 1861 et
seq., the court, in determining “whether a person is
unqualified for . . . jury service” in federal court,
id. § 1865(a), shall deem ineligible a person who
“has been convicted in a State or Federal court of
record of[ ] a crime punishable by imprisonment for
more than one year and his civil rights have not
been restored,” id. § 1865(b)(5). In a criminal case,
a defendant who contends that there has been a
substantial failure to comply with the Jury Selection Act’s provisions may move to stay or dismiss
the proceedings “before the voir dire examination
begins, or within seven days after the defendant
discovered or could have discovered, by the exercise
of diligence, the grounds therefor, whichever is earlier.” Id. § 1867(a) (emphases added). Without precluding such other remedies as may be available
for challenges based on prohibited discrimination,
the statute provides that “[t]he procedures
described by this section shall be the exclusive
means by which a person accused of a Federal
crime . . . may challenge any jury on the ground
that such jury was not selected in conformity with
the provisions of this title.” Id. § 1867(e) (emphasis
added).
In light of the procedural limitations imposed by
§§ 1867(a) and (e), this Circuit and most others
have concluded that the mere fact that the jury

113a
included a person whom § 1865 made ineligible to
serve as a juror is not a ground for a new trial when
the objection is not raised until after voir dire has
begun. See, e.g., United States v. Silverman, 449
F.2d 1341, 1343-44 (2d Cir. 1971) (“Silverman”)
(“the statute clearly requires that a challenge on
this ground be made at or before the v[oi]r dire”),
cert. denied, 405 U.S. 918 (1972); United States v.
Paradies, 98 F.3d 1266, 1277-78 (11th Cir. 1996),
as amended (Nov. 6, 1996) (“once voir dire begins,
Jury Selection Act challenges are barred, even
where the grounds for the challenge are discovered
only later”), cert. denied, 522 U.S. 1014 (1997);
United States v. Candelaria-Silva, 166 F.3d 19, 3132 (1st Cir. 1999) (same), cert. denied, 529 U.S.
1055 (2000); United States v. Jasper, 523 F.2d 395,
398 (10th Cir. 1975) (“a motion” under § 1865 must
“be filed prior to the beginning of the voir dire
examination”); Dawson v. Wal-Mart Stores, Inc.,
978 F.2d 205, 209 (5th Cir. 1992) (“section 1867
precludes any statutory challenges to irregularities
in jury selection that are not made before voir
dire”); but see United States v. Webster, 639 F.2d
174, 180 (4th Cir. 1981), modified, 669 F.2d 185
(4th Cir. 1982) (“Any objection to the composition of
the jury was waived, however, because defendants
first sought to raise it at a time subsequent both to
the beginning of the voir dire examination and to a
point seven days after they could have discovered
the grounds for the challenge by the exercise of due
diligence.” (emphasis added)), cert. denied, 456
U.S. 935 (1982).

114a
In Silverman, which concerned a juror who was
disqualified under § 1865(b)(2) because she was
unable to read or write the English language, we
concluded that “[s]ince defendant failed to raise
any objection to [the disqualified juror’s] serving on
the jury until after his conviction, his attack on
that conviction cannot be founded on [her] disqualification under the statute.” 449 F.2d at 1344. We
ruled that after trial, “[t]he inclusion in the panel
of a disqualified juror does not require reversal of a
conviction unless there is a showing of actual prejudice.” Id.
Defendants have proffered no basis for deviating
from this principle orfrom our view of the timing
restrictions imposed by the statute. Accordingly,
their contention that, because Juror No. 3 would
have been excluded from the jury if his
statutorily disqualifying prior conviction had been
known, they are entitled to a new trial without consideration of whether Juror No. 3 was biased or
whether his being on the jury caused them actual
prejudice, was correctly rejected by the district
court. The district court instead properly turned to
the question of whether the presence of Juror No. 3
on the jury violated defendants’ rights under the
Sixth Amendment to trial before a jury that was
unbiased. The court correctly laid out the relevant
Sixth Amendment principles, describing standards
indicated by the Supreme Court in McDonough and
applied in past cases in this Court, see, e.g., Parse,
789 F.3d 83; Greer, 285 F.3d 158; Torres, 128 F.3d
38; Langford, 990 F.2d 65. As reflected in the above
description of the district court’s decision, the court

115a
properly recognized that the initial question to be
explored is whether the juror’s nondisclosure was
deliberate or inadvertent; and it recognized that
the ensuing determination as to the existence of
bias—whether actual, or implied as a matter of
law, or permissibly inferred—may well be affected
both by whether the nondisclosure was deliberate
and, if it was, by the juror’s motivation to conceal
the truth. Such determinations required assessments of the juror’s credibility.
As was well within its prerogative as finder of
fact, the court found Juror No. 3 to have been
truthful in some parts of his testimony while not in
others. The court here relied on, inter alia, its
observation of Juror No. 3’s “facial expressions,
demeanor, and intonation”; it noted that Juror No.
3 appeared to be unsophisticated and had demonstrable “problems understanding the questions and
expressing himself clearly,” Nix I, 275 F.Supp.3d at
440; and it drew permissible inferences both with
respect to the likely truthfulness of Juror No. 3’s
explanations for his inaccuracy about, for example,
the life experiences of his relatives, and with
respect to the likely motivation for Juror No. 3’s
false statements at the Hearing and on voir dire
about his own criminal history. Although defendants view Juror No. 3’s statements as “dubious” or
“not ring[ing] true” (McCoy brief on appeal at 69,
70), the court explored the possible sources of bias
on the part of Juror No. 3 and found none. The
record does not support a conclusion that the court
erred in its assessments of Juror No. 3’s credibility
or in its ultimate conclusion that his false state-

116a
ments as to his criminal history were not motivated
by any desire to serve as a juror in the present
case.
Accordingly, we see no error of law or clearly
erroneous finding of fact, and no other basis for
overturning the district court’s ruling that the
record does not suggest that Juror No. 3 had any
bias against defendants or in favor of the government, and its consequent denial of defendants’
juror-misconduct-based motion for a new trial.
5. Defendants’ Postjudgment
Reconsideration

Motion

for

Nor is there merit in defendants’ appeals from
the denial of their postjudgment motion for reconsideration of the denial of their Rule 33 new-trial
motion. A motion for reargument, while proper for
calling to the court’s attention controlling decisions
or data the court has overlooked, is inappropriate
for the presentation of new facts or contentions, or
for an attempt to reargue old ones. See, e.g., Shrader
v. CSX Transportation, Inc., 70 F.3d 255, 257 (2d
Cir. 1995). The denial of a motion for reconsideration is reviewable only for abuse of discretion. See,
e.g., United States v. Bayless, 201 F.3d 116, 131
(2d Cir.), cert. denied, 120 S. Ct. 1571 (2000).
The district court denied defendants’ motion for
reargument in part because it was based on supposedly new evidence that was not new; and it was
unaccompanied by a showing of diligence as to why
the evidence had not been sought or discovered earlier. See Nix II, 2018 WL 1009282, at *3-*4. The

117a
court also found that what defendants proffered
was not sufficiently significant to influence the
decision of the Rule 33 motion.
What defendants sought to introduce as new evidence was “actual evidence” that Juror No. 3 had
been “arrested” for burglary in 1989. Nix II, 2018
WL 1009282, at *5. The record is clear, however,
that “[i]n rendering its decision [in Nix I], the
Court was already aware that there was some evidence that Juror No. 3 was arrested for a home burglary in May of 1989,” Nix II, 2018 WL 1009282, at
*5; see, e.g., Nix I, 275 F.Supp.3d at 453 n.30
(“There is some evidence in the record that Juror
No. 3 may have been arrested for burglarizing
a home in May of 1989 (when he was 19 years
old). . . . Juror No. 3 had no recollection of this
alleged incident, and there is no evidence that he
was convicted of this crime.” (emphasis added)).
Thus, defendants’ “new” evidence concerned an
arrest that had in fact been discussed at the Hearing. And defendants’ desire to renew a challenge to
Juror No. 3’s claimed lack of memory—of an arrest
not shown to have led to a conviction—hardly
seems likely to shed light on the material issue of
whether Juror No. 3’s failure to disclose any part of
his criminal history was motivated by a desire to be
seated as a juror for the trial in this case.
As to that material issue, the court reaffirmed its
Nix I assessment of Juror No. 3’s credibility and
motivation:
Having observed Juror No. 3 firsthand during
the course of the trial and the two-day eviden-

118a
tiary hearing, this Court rejects the notion that
Juror No. 3 lied during voir dire so as to secure
a spot on the jury.
Nix II, 2018 WL 1009282, at *5. The district court
correctly stated that “Defendants are not entitled
to reconsideration merely because they disagree
with the outcome of the Rule 33 Denial Order and
the Court’s determination as to Juror No. 3’s
alleged bias . . . .” Id.
We see nothing in the record to suggest that the
denial of defendants’ request for reconsideration of
their juror-misconduct-based motion for a new trial
constituted an abuse of the district court’s discretion.
B. Which Hobbs Act Offenses Are Crimes of Violence Within the Meaning of § 924(c)
Section 924(c), as pertinent to defendants’ convictions on the brandishing counts (Counts 2, 4, 6,
and 12), prescribes enhanced punishment for
any person who brandished a firearm “during and
in relation to any crime of violence.” 18 U.S.C.
§ 924(c)(1)(A). Although prior to the Supreme
Court’s decision in Davis, 139 S. Ct. 2319, § 924(c)
also contained an alternative definition of crime of
violence in subpart (c)(3)(B) (see Part II.B.1.
below), for purposes of § 924(c) a “crime of violence”
is now defined only as a felony that “has as an element the use, attempted use, or threatened use of
physical force against the person or property of
another,” id. § 924(c)(3)(A) (emphases added).

119a
The crimes on which defendants’ brandishingcount convictions are predicated are offenses proscribed by the Hobbs Act (or “Act”), 18 U.S.C.
§ 1951. The Act in pertinent part, prohibits a person from
affect[ing] commerce . . . by robbery . . . or
attempt[ing] or conspir[ing] to do so, or commit[ting] or threaten[ing] physical violence to
any person or property in furtherance of a plan
or purpose to do anything in violation of this
section.
18 U.S.C. § 1951(a) (emphases added). Hobbs Act
“robbery” is defined to
mean[ ] the unlawful taking or obtaining of
personal property from the person or in the
presence of another, against his will, by means
of actual or threatened force, or violence, or fear
of injury, immediate or future, to his person or
property, or property in his custody or possession, or the person or property of a relative or
member of his family or of anyone in his company at the time of the taking or obtaining.
Id. § 1951(b)(1) (emphases added).
McCoy and Nix, convicted of three types of Hobbs
Act offenses—robbery (Count 11), conspiracy to
commit robbery (Count 1), and attempted robbery
(Counts 3 and 5)—contend that none of the Hobbs
Act crimes are crime of violence. We agree only
with respect to Hobbs Act conspiracy.

120a
1. Hobbs Act Conspiracy
Defendants’ convictions on the brandishing
charge in Count 2 of the Indictment were predicated on their convictions of the Hobbs Act conspiracy
alleged in Count 1. It is now established that Hobbs
Act conspiracy is not a crime of violence within the
meaning of § 924(c). See United States v. Barrett,
937 F.3d 126 (2d Cir. 2019) (“Barrett II”).
In United States v. Barrett, 903 F.3d 166 (2d Cir.
2018) (“Barrett I”), vacated and remanded for further consideration, 139 S. Ct. 2274 (2019), we had
affirmed the defendant’s convictions on several
§ 924(c) counts that were predicated on Hobbs Act
robbery (see Part II.B.3 below), and had affirmed
one § 924(c) conviction that was predicated on
Hobbs Act conspiracy. We had affirmed the latter
§ 924(c) conviction based in part on § 924(c)(3)(B)
because Hobbs Act conspiracy (an offense that is
complete without performance of any overt act see,
e.g., United States v. Maldonado-Rivera, 922 F.2d
934, 983 (2d Cir. 1990), cert. denied, 501 U.S. 1211
(1991); United States v. Persico, 832 F.2d 705, 713
(2d Cir. 1987), cert. denied, 486 U.S. 1022 (1988)),
poses a risk of the use of force, see Barrett I, 903
F.3d at 175-77.
While the present appeals were pending, the
Supreme Court decided United States v. Davis,
—U.S. —, 139 S. Ct. 2319 (2019), ruling that
§ 924(c)(3)(B), in defining crime of violence in terms
of a “risk” that physical force would be used, was
unconstitutionally vague, see 139 S. Ct. at 2323-24.
As “a vague law is no law at all,” id. at 2323, we

121a
concluded in Barrett II that Davis “precludes” a
conclusion “that [a] Hobbs Act robbery conspiracy
crime qualifies as a § 924(c) crime of violence,” 937
F.3d at 127.
Accordingly, we conclude, and the government
agrees, that defendants’ convictions on Count 2
must be reversed, and the case remanded for resentencing.
2. Hobbs Act Robbery
Defendants’ contention that Hobbs Act robbery is
also not a crime of violence within the meaning of
§ 924(c), however, is contrary to the law of this Circuit. See Barrett II, 937 F.3d at 128; United States
v. Hill, 890 F.3d 51 (2d Cir. 2018) (“Hill”), cert.
denied, 139 S. Ct. 844 (2019). In Hill, we employed
the “categorical approach” prescribed by Taylor v.
United States, 495 U.S. 575 (1990), which requires
that where Congress has defined a violent felony as
a crime that has the use or threat of force “as an
element,” the courts must determine whether a
given offense is a crime of violence by focusing categorically on the offense’s statutory definition, i.e.,
the intrinsic elements of the offense, rather than
on the defendant’s particular underlying conduct,
id. at 600-01. We stated that
[a]s relevant here, the categorical approach
requires us to consider the minimum conduct
necessary for a conviction of the predicate
offense (in this case, a Hobbs Act robbery), and
then to consider whether such conduct

122a
amounts to a
§ 924(c)(3)(A).

crime

of

violence

under

Hill, 890 F.3d at 56.
We noted that subpart (3)(A) of § 924(c) defines
crime of violence as a felony that “ ‘has as an element the use, attempted use, or threatened use
of physical force against the person or property of
another.’ ” Hill, 890 F.3d at 54 (quoting
§ 924(c)(3)(A)). And we noted that the Hobbs Act
penalizes a person who affects commerce “ ‘by robbery . . . or attempts or conspires so to do, or commits or threatens physical violence to any person or
property in furtherance of a plan or purpose to do
anything in violation of this section,’” and that the
Act defines robbery in part as “‘the unlawful taking
or obtaining of personal property from the person
or in the presence of another, against his will, by
means of actual or threatened force, or violence, or
fear of injury, immediate or future, to his person or
property,’ ” id. 890 F.3d at 54-55 (quoting 19 U.S.C.
§§ 1951(a) and (b)(1) (emphases ours)). Comparing
these statutes, we concluded that “Hobbs Act robbery ‘has as an element the use, attempted use, or
threatened use of physical force against the person
or property of another,’ 18 U.S.C. § 924(c)(3)(A),”
and thus is a crime of violence within the meaning
of that provision. Hill, 890 F.3d at 60; see also id.
at 60 & n.7 (noting that “all of the circuits to have
addressed the issue” have “h[e]ld that Hobbs Act
robbery ‘has as an element the use, attempted use,
or threatened use of physical force against the person or property of another’ ” (citing cases)).

123a
Hill’s conclusion that Hobbs Act robbery is a
crime of violence within the meaning of
§ 924(c)(3)(A) was not eroded by the Supreme
Court’s subsequent ruling in Davis that the alternative crime-of-violence definition in § 924(c)(3)(B)
was unconstitutionally vague. Rather, after Davis,
a § 924(c) conviction based on a crime of violence is
valid only under § 924(c)(3)(A). See, e.g., Barrett II,
937 F.3d at 128 (noting that Hobbs Act robbery is
“a crime of violence under § 924(c)(3)(A) applying
the traditional, elements only, categorical approach
not at issue in Davis”). Accordingly, we “affirm[ed]
Barrett’s convictions on” the § 924(c) counts for
which the predicate crime of violence was “substantive Hobbs Act robbery.” Id. (emphasis in original).
Although McCoy and Nix contend that Hobbs Act
robbery is not categorically a crime of violence even
under § 924(c)(3)(A), arguing that property could be
obtained by threatening to withhold care from a
person in need or to “poison” a person, and that such
means do not constitute physical force (e.g., McCoy
brief on appeal at 82), we expressly rejected just
such an argument in Hill. We noted that such
hypothetical possibilities as the withholding of
vital care, which have never been the basis of a
Hobbs Act charge, are ineffective to deflect the
stated thrust of the statute; and that “physical
force ‘encompasses even its indirect application,’ as
when a battery is committed by administering a
poison.” Hill, 890 F.3d at 59 (quoting United States
v. Castleman, 572 U.S. 157, 170 (2014)).
In sum, defendants’ contention that Hobbs Act
robbery is not a crime of violence within the mean-

124a
ing of § 924(c)(3)(A) is foreclosed by Hill and Barrett II.
3. Hobbs Act Attempted Robbery
Defendants’ contention that their firearm-brandishing convictions on Counts 4 and 6 should be
reversed on the ground that the offense of Hobbs
Act attempted robbery (Counts 3 and 5) does not
constitute a crime of violence—a contention not
raised in the district court, and thus reviewable
only under plain-error analysis—is also unpersuasive. We address this issue as to the nature of the
Act’s prohibition of attempted robbery, which is
one of first impression in this Circuit, again using
the categorical approach.
As set out above, the surviving § 924(c) definition
of “crime of violence” expressly includes a felony
that “has as an element the . . . attempted use . . .
of physical force against the person or property of
another.” 18 U.S.C. § 924(c)(3)(A) (emphasis
added). It is a fundamental principle of statutory
interpretation that, “absent other indication, Congress intends to incorporate the well-settled meaning of the common-law terms it uses.” Sekhar v.
United States, 570 U.S. 729, 732 (2013) (internal
quotation marks omitted). The definition of “attempt”
both in federal law and in the Model Penal Code
had long been settled by 1986, when the operative
language of § 924(c)(3)(A) was adopted. See Firearms
Owners’ Protection Act, Pub. L. No. 99-308,
§ 104(a)(2), 100 Stat. 449, 456-57 (1986) (first
defining “crime of violence” to include “attempted

125a
use . . . of physical force”); United States v. Farhane,
634 F.3d 127, 146 (2d Cir.) (“Farhane”) (“This court
effectively adopted the Model Code’s formulation of
attempt in United States v. Stallworth, 543 F.2d
1038, 1040-41 (2d Cir. 1976).”), cert. denied, 565
U.S. 1088 (2011). Accordingly, when Congress used
“attempted use” in § 924(c) without providing a different definition for the phrase, it adopted the concept of “attempt” existing under federal law.
“Under federal law, ‘[a] person is guilty of an
attempt to commit a crime if he or she (1) had the
intent to commit the crime, and (2) engaged in conduct amounting to a “substantial step” towards the
commission of the crime.’ ” United States v. Thrower, 914 F.3d 770, 776 (2d Cir.) (“Thrower”) (quoting
United States v. Martinez, 775 F.2d 31, 35 (2d Cir.
1985)), cert. denied, 140 S. Ct. 305 (2019). This
means that, for substantive crimes of violence that
include the use of physical force as an element,
defendants also commit crimes of violence when
commission of those crimes is attempted—because
such attempts necessarily require (a) an intent to
complete the substantive crime (including an
intent to use physical force) and (b) a substantial
step towards completing the crime (which logically
means a substantial step towards completion of all
of that crime’s elements, including the use of physical force). See United States v. Taylor, 979 F.3d
203, 209 (4th Cir. 2020) (“Taylor”). Because we held
in Hill that Hobbs Act robbery categorically constitutes a crime of violence, see 890 F.3d at 53, it follows as a matter of logic that an “attempt[ ]” to
commit Hobbs Act robbery—which the statute also

126a
expressly prohibits, see 18 U.S.C. § 1951(a)—categorically qualifies as a crime of violence.
McCoy and Nix raise two principal arguments for
why this should not be so. First, they contend that
Hobbs Act attempted robbery is not a crime of violence because it is possible for a defendant to “take
a substantial step towards commission of an
offense without engaging in a violent act.” (McCoy
first supplemental brief on appeal at 16). But while
it is true that a substantial step towards a completed Hobbs Act robbery need not itself involve the
“use . . . of physical force” within the meaning of
§ 924(c)(3)(A), see, e.g., United States v. Jackson,
560 F.2d 112, 120 (2d Cir.) (“Jackson”) (“reconnoiter[ing] the place contemplated for the commission
of the crime and possess[ing] the paraphernalia to
be employed in the commission of the crime” constituted substantial steps towards a bank robbery in
violation of 18 U.S.C. § 2113(a)), cert. denied, 434
U.S. 914 (1977); United States v. Gonzalez, 441 F.
App’x 31, 36 (2d Cir. 2011) (applying Jackson to
Hobbs Act attempted robbery), cert. denied, 565
U.S. 1218 (2012), that is of no moment, since the
substantive Hobbs Act robbery towards which that
substantial step leads necessarily would involve
the “use of physical force,” if completed. To be
guilty of Hobbs Act attempted robbery, a defendant
must necessarily (1) intend to commit all of the elements of a substantive robbery, including the use
of physical force, and (2) take a substantial step
towards committing the substantive robbery, which
logically includes taking a substantial step towards
completing all of its elements, including the use of

127a
force. Accordingly, even if a defendant’s substantial
step does not itself involve the use of physical force,
a defendant must necessarily intend to use physical force and take a substantial step towards using
physical force, which constitutes “attempted . . .
use of physical force” within the meaning of
§ 924(c)(3)(A). Accord United States v. Walker, 990
F.3d 316, 325 (3d Cir. 2021); United States v.
Dominguez, 954 F.3d 1251, 1262 (9th Cir. 2020),
petition for cert. filed, No. 20-1000 (U.S. Jan. 26,
2021); United States v. Ingram, 947 F.3d 1021,
1026 (7th Cir.), cert. denied, 141 S. Ct. 323 (2020);
United States v. St. Hubert, 909 F.3d 335, 351-52
(11th Cir. 2018), cert. denied, 139 S. Ct. 1394
(2019). Cf. United States v. Hendricks, 921 F.3d
320, 328-29 & n.40 (2d Cir. 2019) (holding that
attempted bank robbery by intimidation in violation of § 2113(a) is a crime of violence because
intimidation “means that the defendant did or said
something that would make an ordinary reasonable
person fear bodily harm” (internal quotation marks
omitted)), cert. denied, 140 S. Ct. 870 (2020).
McCoy and Nix next argue that Hobbs Act
attempted robbery does not categorically constitute
a crime of violence because substantive Hobbs Act
robbery need not always involve the actual use of
force; rather, the statute defines “robbery” as “the
unlawful taking . . . of personal property . . . by
means of actual or threatened force.” 18 U.S.C.
§ 1951(b)(1) (emphasis added). Based on this definition of “robbery,” as the Fourth Circuit recently
observed, Hobbs Act attempted robbery could also
theoretically include “attempt[s] to threaten force,”

128a
which would appear not to constitute an “attempt
to use force” as required by § 924(c)(3)(A). Taylor,
979 F.3d at 209 (emphases in original).
However, even though it is theoretically possible
that a defendant could be charged with Hobbs Act
attempted robbery under such an attempt-tothreaten theory, we have made clear that “to show
a predicate conviction is not a crime of violence
‘requires more than the application of legal imagination to [the] . . . statute’s language’ ”; rather
“there must be ‘a realistic probability, not a theoretical possibility,’ that the statute at issue could
be applied to conduct that does not constitute a
crime of violence.” Hill, 890 F.3d at 56 (quoting
Gonzales v. Duenas-Alvarez, 549 U.S. 183, 193
(2007)). To show such a “realistic probability,” a
defendant “‘must at least point to his own case or
other cases in which the . . . courts did in fact
apply the statute in the . . . manner for which he
argues.’ ” Hill, 890 F.3d at 56 (quoting DuenasAlvarez, 549 U.S. at 193).
McCoy and Nix have failed to make such a showing here. They point to no case in which a defendant has been convicted of Hobbs Act attempted
robbery premised on an attempted “threat[ ]” to use
force, and we are aware of none. And for good reason: For purposes of the federal crime of attempt, a
“substantial step” means conduct (a) that is
“planned to culminate in the commission of the
substantive crime being attempted,” Farhane, 634
F.3d at 147 (internal quotation marks omitted
(emphasis ours)), and (b) that “is strongly corroborative of the criminal intent of the accused,” United

129a
States v. Davis, 8 F.3d 923, 927 (2d Cir. 1993). It is
difficult even to imagine a scenario in which a
defendant could be engaged in conduct that would
“culminate” in a robbery and that would be “strongly corroborative of” his intent to commit that robbery, but where it would also be clear that he only
“attempt[ed]” to “threaten[ ],” and neither used nor
even actually “threatened” the use of force.
Indeed, in Thrower we made a similar observation when considering whether the New York crime
of attempted third-degree robbery involves the
“attempted use . . . of physical force” within the
meaning of 18 U.S.C. § 924(e)(2)(B), since New
York law defines robbery similarly to Hobbs Act
robbery, see N.Y.Penal Law § 160.0 (defining
“[r]obbery” as “us[ing] or threaten[ing] the immediate use of physical force” “in the course of committing a larceny”). We observed that “[t]hough
Thrower posits that a defendant might be convicted
of attempted robbery in New York for an attempt to
threaten to use physical force—as distinct from an
attempt to use physical force or a threat to use physical force—he fails to ‘at least point to his own case
or other cases in which the state courts did in fact
apply the statute in the . . . manner for which
he argues.’ ” Thrower, 914 F.3d at 777 (quoting
Duenas-Alvarez, 549 U.S. at 193 (emphases ours)).
In sum, we hold that Hobbs Act attempted robbery qualifies as a crime of violence under § 924(c)
because an attempt to commit Hobbs Act robbery
using force necessarily involves the “attempted use
. . . of force” under § 924(c)(3)(A), and because,
even though a conviction for an inchoate attempt to

130a
threaten is theoretically possible, McCoy and Nix
have not shown that there is a “realistic probability” that the statute will be applied in such a manner, Duenas-Alvarez, 549 U.S. at 193.
4. Liability for Aiding-and-Abetting
Finally, McCoy and Nix contend—for the first
time on these appeals—that their § 924(c) firearmbrandishing convictions on Counts 4, 6, and 12
should be reversed for lack of a proper predicate
because their convictions of the corresponding substantive Hobbs Act offenses (Counts 3 and 5
(attempted robbery) and Count 11 (robbery)) were
based on an aiding-and-abetting theory of liability.
Given evidence that they normally sat in nearby
cars while their brothers and/or friends entered the
targeted homes, threatened the victims, and stole
or attempted to steal the victims’ property, McCoy
and Nix contend that aiding-and-abetting a substantive Hobbs Act offense is not a crime of violence. This contention need not detain us long.
Section 2 of Title 18 provides in part that
“[w]hoever commits an offense against the United
States or aids, abets, counsels, commands, induces
or procures its commission, is punishable as a principal.” 18 U.S.C. § 2(a). For the aiding-and-abetting
theory of liability to apply, the underlying federal
crime must have been committed by someone other
than the defendant; and the defendant himself
must either have acted, or have failed to act, with
the specific intent of aiding the commission of that
underlying crime. See, e.g., Rosemond v. United

131a
States, 572 U.S. 65, 77 (2014); United States v.
Smith, 198 F.3d 377, 382-83 (2d Cir. 1999)
(“Smith”), cert. denied, 531 U.S. 864 (2000). Section
2(a) makes an aider and abetter as guilty of the
underlying crime as the person who committed it.
There is no culpable aiding and abetting without
an underlying crime committed by some other person; and aiding and abetting itself is not the predicate crime for firearm brandishing under § 924(c).
The aiding-and-abetting concept describes the role
of the defendant that makes him liable for the
underlying offense. “[W]hen a person is charged
with aiding and abetting the commission of a substantive offense, the ‘crime charged’ is . . . the substantive offense itself.” Smith, 198 F.3d at 383
(other internal quotation marks omitted); see, e.g.,
United States v. Richardson, 906 F.3d 417, 426 (6th
Cir. 2018) (“Richardson I”) (“There is no distinction
between aiding and abetting the commission of a
crime and committing the principal offense. Aiding
and abetting is simply an alternative theory of liability; it is not a distinct substantive crime.” (internal quotation marks omitted) (emphasis ours)),
vacated and remanded on other grounds, Richardson v. United States, 139 S. Ct. 2713 (2019)
(“Richardson II”).
The crime charged in a prosecution for aiding
and abetting a Hobbs Act robbery is thus Hobbs Act
robbery. Accord In re Colon, 826 F.3d 1301, 1305
(11th Cir. 2016) (“Because an aider and abettor is
responsible for the acts of the principal as a matter
of law, an aider and abettor of a Hobbs Act robbery
necessarily commits all the elements of a principal

132a
Hobbs Act robbery.”); United States v. Deiter, 890
F.3d 1203, 1215-16 (10th Cir.) (courts should look
to “the underlying statute of conviction, rather
than § 2, to decide whether [§ 924(c)(3)(A)] is satisfied”), cert. denied, 139 S. Ct. 647 (2018).
If the underlying offense is a crime of violence, it
is a predicate for § 924(c) liability; if the defendant
aided and abetted that underlying offense, he is
guilty of the underlying offense. As we have concluded above, Hobbs Act robbery and Hobbs Act
attempted robbery are crimes of violence within the
meaning of § 924(c). As McCoy and Nix—either
directly or as aiders and abetters—were found
guilty of those crimes of violence, they were convicted of crimes that are proper predicates for
§ 924(c) liability. Their § 924(c) convictions, based
on their guilt as aiders and abetters of the violent
crimes of Hobbs Act robbery and attempted robbery, are not error, much less plain error.
C. Instructional and Sufficiency Challenges
Defendants also make several other challenges to
their convictions, principally contending that, in
light of the Supreme Court’s decision in Rehaif,
their § 922(g)(1) convictions as felons in possession
of firearms should be vacated because the district
court failed to instruct the jury that the government was required to prove that when they possessed the firearms, they knew their status as
felons. Nix also contends that the evidence was
insufficient to support his convictions on Counts 3,
4, and 7, and that the court erred in giving the jury

133a
a Pinkerton instruction. We reject all of these challenges.
1. The Rehaif Challenges
On Counts 9 and 10, respectively, Nix and McCoy
were convicted of having been in possession of
firearms on September 23, 2014, in violation of 18
U.S.C. § 922(g), which makes firearm possession
unlawful by “any person . . . who has been convicted in any court of[ ] a crime punishable by imprisonment for a term exceeding one year.” 18 U.S.C.
§ 922(g)(1) (the “felon-in-possession” subparagraph). Anyone who “knowingly violates” any of the
nine subparagraphs of § 922(g), including subparagraph (g)(1), is subject to imprisonment for up to 10
years. Id. § 924(a)(2).
While the present appeals were pending, the
Supreme Court in Rehaif, which involved a defendant convicted under a different § 922(g) subparagraph, ruled that “in prosecutions under § 922(g)
and § 924(a)(2), the Government must prove that a
defendant knows of his status as a person barred
from possessing a firearm,” 139 S. Ct. at 2195; see
id. at 2194 (the government must show not only
that “the defendant knew he possessed a firearm”
but “also that he knew he had the relevant status
when he possessed it”).
In charging the jury in the present case, the district court instructed that each defendant had
“stipulated” with the government “that prior to
September 23, 2014,” he had in fact “been convicted
of a crime punishable by imprisonment for a term

134a
exceeding one year” (Tr. 3873); but it did not
instruct that the jury must find that, when they
possessed firearms on that date defendants knew
they had been convicted of a crime that was punishable by imprisonment for more than one year.
Defendants contend that they are thus entitled to
have their convictions on Counts 9 and 10 vacated
and the matter remanded for further proceedings.
We disagree. As defendants neither requested an
instruction as to their knowledge of their felony
status nor objected to the instructions that were
given, we review these challenges only for plain
error, and we conclude that defendants do not meet
that standard.
In light of Rehaif, it was error not to instruct that
the government was required to prove defendants’
knowledge of their status as convicted felons at the
time of their firearm possession; and that error is
plain, see, e.g., Henderson v. United States, 568
U.S. 266, 279 (2013) (“it is enough that an error be
‘plain’ at the time of appellate consideration for
[t]he second part of the [four-part] Olano test [to
be] satisfied” (other internal quotation marks omitted)); United States v. Balde, 943 F.3d 73, 97 (2d
Cir. 2019). Thus, the first two prongs of plain-error
analysis have been met.
It is also arguable that the third prong of the
plain-error test—an error affecting substantial
rights—may have been met. The Supreme Court in
Rehaif, while noting that, as to the relevant status
element of § 922(g), the requisite “knowledge can
be inferred from circumstantial evidence,” 139 S.
Ct. at 2198 (internal quotation marks omitted),

135a
also suggested that an inference of knowledge as to
felony status with respect to the felon-in-possession subparagraph of § 922(g) might not be available if the “person . . . was convicted of a prior
crime but sentenced only to probation,” and “d[id]
not know that the crime [wa]s punishable by
imprisonment for a term exceeding one year,” id.
(emphasis in original).
In the present case, while McCoy and Nix stipulated that they had previously been convicted of
crimes punishable by imprisonment for a term
exceeding one year, their stipulations neither
included acknowledgement that they knew those
crimes were punishable to that extent nor specified
the length of the sentences actually imposed on
them. And the government has not called to our
attention any trial evidence from which the jury, if
properly instructed, could have found beyond a reasonable doubt that they had such knowledge.
In a case raising post-Rehaif issues similar to
those here, we “decline[d] to decide whether a properly-instructed jury would have found that [the
defendant] was aware of his membership in
§ 922(g)(1)’s class,” United States v. Miller, 954
F.3d 551, 559 (2d Cir. 2020) (“Miller”), and we
instead proceeded directly to “the fourth prong of
plain-error review, which examines whether not
reversing would seriously affect[ ] the fairness,
integrity or public reputation of judicial proceedings and which does not necessarily confine us to
the trial record,” id. (internal quotation marks and
footnote omitted) (emphasis ours). In Miller we
found reliable information in the presentence

136a
report (“PSR”) prepared on the defendant, which,
inter alia, described his criminal record. As a
defendant’s criminal history is an essential factor
in the district court’s required calculation of the
sentence recommended for him by the Guidelines,
the contents of the PSR will have been subjected to
close scrutiny by both sides. The PSR for the defendant at issue in Miller showed that he had prior
felony convictions for which he received “a total
effective sentence of ten years’ imprisonment, with
execution suspended after three years, which
remove[d] any doubt that [he] was aware of his
membership in § 922(g)(1)’s class.” Id. at 560.
Accordingly, we concluded that the Miller trial
court’s failure to instruct the jury on the element of
whether the defendant knew he was a convicted
felon “did not rise to the level of reversible plain
error” because it does no disservice to the judicial
system to hold that a person who was sentenced to
and served a prison term of more than one year
must have been aware of both the extent of his sentence and the length of time he spent in prison. Id.
We have reached the same result in other postRehaif cases in which the district court records
revealed that the defendant had received, and had
served, a prison sentence exceeding one year. See,
e.g., United States v. Sandford, 814 F. App’x 649,
652-53 (2d Cir. 2020); United States v. Smith, 814
F. App’x 634, 635-36 (2d Cir. 2020); United States
v. Goolsby, 820 F. App’x 47, 50 (2d Cir. 2020); United
States v. Johnson, 816 F. App’x 604, 607-08 (2d Cir.
2020); United States v. Frye, 826 F. App’x 19, 23-24

137a
(2d Cir. 2020); United States v. Feaster, 833 F.
App’x 494, 497 (2d Cir. 2020).
The district court record in the present case
includes PSRs with similar details—unobjected to
by McCoy or Nix—as to the sentences actually
imposed on them for their prior felony convictions
and the amounts of prison time they served for
those convictions. McCoy, in 2001, was convicted in
New York State court, following his plea of guilty,
on two felony counts of criminal possession of controlled substances and was sentenced to a prison
term of 54 months to nine years; as a result he was
imprisoned for nearly six years. Nix, in 2008, was
convicted in federal court, following his plea of
guilty, of possession of narcotics with intent to distribute and possession of a firearm in furtherance
of the drug offense; he was sentenced to 24 months’
imprisonment for each offense, to be served consecutively. As a result, Nix spent some four years in
prison.
On this record, we conclude that there can be no
reasonable doubt that each of these defendants
knew he had been convicted of a crime punishable
by imprisonment for a term exceeding one year.
McCoy and Nix thus have not shown that the trial
court’s failure to instruct the jury that it must find
that a defendant had such knowledge seriously
affected the fairness, integrity, or public reputation
of judicial proceedings. The unobjected-to error
provides no basis for vacating the convictions on
Counts 9 and 10.

138a
2. Nix’s Sufficiency Challenges
Nix contends that the evidence at trial was insufficient to convict him on Count 7 of the Indictment,
which charged the narcotics distribution conspiracy, and on Counts 3 and 4, which concerned the
attempted robbery and use of firearms at Hayward
Avenue. In considering a challenge to the sufficiency of the evidence to support a conviction, we view
the evidence, whether direct or circumstantial, in
the light most favorable to the government, crediting every inference that could have been drawn in
the government’s favor, and deferring to the jury’s
assessments of witness credibility and the weight
of the evidence. See, e.g., United States v. Lyle, 919
F.3d 716, 737 (2d Cir. 2019), cert. denied, 140 S. Ct.
846 (2020); United States v. O’Brien, 926 F.3d 57,
79 (2d Cir. 2019); United States v. Praddy, 725 F.3d
147, 152 (2d Cir. 2013). With the evidence at trial
viewed in that light, and considered as a whole
rather than piecemeal, see, e.g., United States v.
Podlog, 35 F.3d 699, 705 (2d Cir. 1994), cert.
denied, 513 U.S. 1135 (1995); United States v.
Brown, 776 F.2d 397, 403 (2d Cir. 1985), cert.
denied, 475 U.S. 1141 (1986), a conviction will be
upheld so long as, “any rational trier of fact could
have found the essential elements of the crime
beyond a reasonable doubt.” Jackson v. Virginia,
443 U.S. 307, 319 (1979) (emphasis in original).
In a prosecution for conspiracy to possess with
intent to distribute a prohibited substance, the element of intent to distribute—as contrasted with an
intent to possess only for personal use—“may be

139a
inferred from the volume of drugs with which
defendant was associated or that was in his actual or
constructive possession.” United States v. Anderson,
747 F.3d 51, 62 n.8 (2d Cir. 2014), cert. denied, 574
U.S. 850 (2014); see, e.g., United States v. Brockman,
924 F.3d 988, 993 (8th Cir. 2019) (finding that the
district court did not clearly err in determining
that “eight ounces [of marijuana] exceeded a user
quantity”); United States v. Martinez, 964 F.3d
1329, 1334 (11th Cir. 2020) (“A pound, whether it’s
cocaine, heroin, marijuana, or methamphetamine,
is more than personal users typically buy.”). And
we have noted quantity is not always dispositive:
“[A]ny amount of drugs, however small, will support a conviction when there is additional evidence
of intent to distribute.” United States v. Martinez,
54 F.3d 1040, 1043 (2d Cir. 1995).
Nix, in challenging the sufficiency of the evidence to support his Count 7 conviction of conspiracy to distribute narcotics, argues that there was
no direct testimony that he engaged in narcotics
distribution, and that Barnes testified that he
never observed Nix engaging in such distribution.
(See Nix brief on appeal at 55-56.) Given the record
before us, and the fact that Count 7 charged conspiracy, rather than actual distribution, this challenge is meritless.
First, there was abundant proof of the existence
of a robbery conspiracy whose principal members
were McCoy, Barnes, Clarence and Gary Lambert,
and Nix—who was called “Meech” (Tr. 1223). The
evidence included, as described in Part I.A. above,
the testimony of Barnes who admitted having

140a
engaged in 10-20 home invasions with Nix; and
through Nix, Barnes met, and participated in home
invasions with, Clarence, Gary, and McCoy. (See
Tr. 1240, 1230-31.) Although Nix himself did not
enter the invaded homes, he selected the persons to
be robbed, conducted preliminary surveillance of
targeted premises, planned the invasions, provided
guns, and gave the men who would enter information as to what to expect and where to search (see,
e.g., id. at 1239 (Barnes: “Meech would tell me the
location and take me there and I would go in the
house with somebody else”)). And while his associates were inside, Nix would wait for them in the
car “either down the street or around the corner”
(id. at 1236); the men who had entered would
phone Nix to report whether they were finding the
expected trove of money and/or drugs (see id. at
1236-37). When the men who had entered emerged
with stolen property, they turned it over to Nix
who, with McCoy, decided how it would be divided.
(See, e.g., id. at 1237-40, 2912.)
Second, there was ample evidence that a principal goal of the conspiracy was to rob drug dealers.
Barnes testified that in all but one instance, the
residents of the invaded homes were persons Nix
believed to be drug dealers. (See Tr. 1228.) And it
was understood among the coconspirators that Nix
and McCoy intended to sell the narcotics obtained
in those robberies. (See, e.g., id. at 1238 (as to
drugs obtained in such a robbery, “Meech would
take it and sell it and give me what he felt like I
should get off those”); id. (“[Meech] would sell the
drugs and give me money, bring me money back off

141a
the drugs”).) Barnes testified that drug dealers
were targeted precisely because they would have
“[m]oney, drugs, drugs that we could sell.” (Id. at
1228.)
For example, Barnes testified that for the September 23 burglary, Nix drove him to Maple Street
and identified the intended house; Nix then phoned
McCoy and Clarence. After McCoy and Clarence
arrived and got into Nix’s car, Nix and McCoy told
Barnes and Clarence what kind of drugs they
would find in the house and said that drugs could
be found hidden in the walls. (See Tr. 1312-15.)
Barnes testified that the “plan . . . if [they] got
drugs from inside that house,” was that “Meech
and P was going to sell” the drugs and give Barnes
and Clarence some of the proceeds. (Id. at 1316.)
According to plan, Barnes and Clarence, armed
with guns, entered the Maple Street house and, as
predicted by Nix, found cash and drugs. Barnes
phoned Nix from the house and said, “We hit the
jackpot”; Nix told him to “Get everything and I’ll be
there . . . I’m coming.” (Tr. 1321.) What they found
in the Maple Street house included 10-12 “large”
ziplock bags—an estimated eight inches by six or
eight inches—”full of weed.” (Id. 1322-33.) Nix,
McCoy, Barnes, and Clarence then went to
Barnes’s then-house, and Nix—who had taken possession of the $7-10,000 in cash that Barnes and
Clarence had found—gave Barnes and Clarence
each $1,000. “[Nix] took all of the drugs” (Tr. 1332);
and McCoy and Barnes subsequently “bought capsules to package the” marijuana “[s]o we could sell
it” (id.).

142a
The jury could also infer that the amounts of narcotics stolen by the conspirators and appropriated
by Nix as his share—especially given the large
number of home invasions done by defendants and
their crew seeking to obtain drugs, see, e.g., id. at
2871-76 (Gary describing an earlier burglary that
yielded 24 pounds of marijuana, of which Nix’s
share was more than 11 pounds)—were inconsistent with possession merely for Nix’s personal use.
In sum, the evidence was ample to allow the jury
to find that Nix was part of a conspiracy whose
express goal was to rob drug dealers of narcotics in
quantities sufficient to allow members of the conspiracy to be drug dealers themselves.
In challenging his conviction on Counts 3 and 4
with respect to the Hayward Avenue attempted
robbery, Nix argues that the cellphone evidence
that he was near that location at the time of that
event was “dispute[d],” and that “mere presence at
the scene of a crime, even when coupled with
knowledge that at that moment a crime is being
committed is insufficient to establish the defendant’s participation in criminal activity.” (Nix brief
on appeal at 56, 55 (internal quotation marks omitted).) This argument is meritless as well.
As discussed above, coconspirators at trial
described the usual operations of the conspiracy, in
which Nix organized and planned the home invasions and remained nearby while they took place,
and the men who actually entered the homes would
telephone Nix after entering and inform him of
what they found. One of the armed men who broke
into the Hayward Avenue home, expecting to find

143a
drugs, was identified at trial as McCoy. After he
and the other invader failed to find any drugs,
McCoy made a telephone call in which one of the
victims heard him report that “there was nothing
in the house” (Tr. 1082). Evidence of telephone and
cellphone tower records identified calls between
phones of McCoy and Nix, both of which were in the
immediate vicinity of the Hayward Avenue residence during the time of this robbery attempt; and
both defendants’ phones were tracked to the house
of Nix’s mother immediately thereafter. (See, e.g.,
Tr. 3133-39.)
Thus, although Nix did not himself enter the
home, the evidence was plainly sufficient to permit
the jury to find him guilty of the Counts 3 and 4
substantive offenses of attempted robbery and
firearm use on Hayward Avenue, either by aiding
and abetting the attempted robbery (see generally
Part II.B.4. above) or on the Pinkerton theory of
conspiratorial vicarious liability, to which we now
turn.
3. Nix’s Pinkerton Challenge
Nix contends that it was error for the district court
to give the jury a Pinkerton charge, which informs
the jury that it may find a defendant guilty of a substantive offense that he did not personally commit
if it was committed by a coconspirator in furtherance of the conspiracy, and if commission of that
offense was a reasonably foreseeable consequence of
the conspiratorial agreement, see Pinkerton, 328
U.S. at 646-48. Nix argues that such an instruction

144a
was improper here, claiming that the evidence of
conspiracy was “sufficiently thin that the charge
invite[d] the jury” to “infer[] the conspiracy from
the substantive offense.” (Nix brief on appeal at
60.) This argument lacks any foundation in the evidentiary record or in the instructions as given.
To begin with, the court expressly instructed the
jury that, in order to find a defendant guilty of a
substantive offense committed by another person
on this theory of conspiratorial vicarious liability,
it must first find beyond a reasonable doubt that
both the defendant and the person who actually
committed the substantive offense were members
of the charged conspiracy at the time the substantive offense was committed, that the substantive
offense was committed pursuant to the common
plan of the coconspirators, and that the commission
of the substantive offense was reasonably foreseeable to the defendant. (See Tr. 3819-21.) The court
then reiterated that the jury could not find a defendant guilty on this theory of liability if it had not
made all of the described preliminary findings. (See
id. at 3821-22.) The court in no way invited the jury
to infer the existence of a conspiracy from the performance of the substantive acts.
Further, the evidence supporting the charges of
conspiracy was anything but “thin.” As discussed
above, the testimony of Gary, Moscicki, and Barnes,
who were coconspirators of McCoy and Nix—which
plainly was credited by the jury—abundantly
established the existence of a conspiracy, i.e., an
agreement among Nix, McCoy, Gary and Clarence
Lambert, Barnes, and others to act together to

145a
commit home invasions, principally against persons thought to be drug dealers, and indeed established that Nix was the conspiracy’s principal
leader. We see no Pinkerton error.
D. Resentencing
When the district court sentenced McCoy and
Nix in 2017, § 924(c)(1)(C) had been interpreted to
require that a defendant convicted of multiple
§ 924(c) violations in a single prosecution be sentenced to consecutive 25-year minimum prison
terms for the second violation and each subsequent
violation. See Deal v. United States, 508 U.S. 129,
132-37 (1993). In 2018, however, Congress adopted
the First Step Act (or “FSA”), amending
§ 924(c)(1)(C) “to provide that only a second section
924(c) conviction ‘that occurs after a prior conviction under [section 924(c)] has become final’
requires the consecutive minimum 25-year sentence provided by subsection 924(c)(1)(C)(i).” United
States v. Brown, 935 F.3d 43, 45 n.1 (2d Cir. 2019)
(“Brown”) (quoting First Step Act, Pub L. No. 115391, § 403(a), 132 Stat. 5194, 5221-22).
In supplemental briefing, defendants argue—in
the event that their requests for a new trial and
their challenges to the viability of any of their
§ 924(c) convictions are unsuccessful—that we
should remand to the district court for reduction of
their sentences on the surviving § 924(c) counts in
light of § 403 of the First Step Act. McCoy and Nix
argue that they are eligible for such relief because

146a
their convictions will not become final until appellate review rights have been exhausted.
While defendants’ concept of finality is generally
correct, its applicability here is unclear. With
respect to the temporal applicability of its provisions, the First Step Act provides that its amendments to § 924(c) “shall apply to any offense that
was committed before the date of enactment of this
Act, if a sentence for the offense has not been
imposed as of such date of enactment,” FSA
§ 403(b) (emphases added). When an FSA reduction
in sentence has been sought by a defendant who
was sentenced before the FSA’s date of enactment
and who was not otherwise entitled to appellate
relief on his § 924(c) convictions, courts have concluded that FSA relief was not available. See, e.g.,
United States v. Cruz-Rivera, 954 F.3d 410, 413
(1st Cir.), cert. denied, 2020 141 S. Ct. 601 (2020)
(interpreting Congress’s focus on the time at which
a sentence was “imposed” as intending to deny eligibility for FSA relief to any defendant originally
sentenced prior to the FSA’s enactment, reflecting
the customary understanding that a sentence is
“imposed either when it is pronounced or entered
in the trial court, regardless of subsequent
appeals” (internal quotation marks omitted)); United States v. Jordan, 952 F.3d 160, 174 (4th Cir.
2020) (“Congress decided to extend the more
lenient terms of § 403(a) of the First Step Act to
some but not all pre-Act offenders, with the date of
sentencing in the district court drawing the line
between those who are covered and those who are
not.” (internal quotation marks omitted)), cert.

147a
denied, 141 S. Ct. 1051 (2021); United States v.
Gomez, 960 F.3d 173, 177 (5th Cir. 2020) (“A sentence is ‘imposed’ when the district court pronounces it, not when the defendant exhausts his
appeals.”). However, at least one court has held
that as to a defendant who was originally sentenced prior to the FSA’s date of enactment and
whose “sentences were remanded prior to the First
Step Act’s enactment but who were not . . . resentenced” until after enactment, “both the text of the
statute and Congress’s purpose in enacting the legislation make clear that § 403 applies.” United
States v. Henry, 983 F.3d 214, 219 (6th Cir. 2020).
In Davis, the Supreme Court itself described
Congress in the First Step Act as having “changed
the law . . . going forward.” 139 S. Ct. at 2324 n.1
(emphasis added). However, a week before Davis
was filed, the Supreme Court in Richardson II had
granted certiorari and remanded, stating, without
other substantive comment, “[j]udgment vacated,
and case remanded to the United States Court of
Appeals for the Sixth Circuit for the court to consider the First Step Act of 2018, Pub. L. No. 115391 (2018),” 139 S. Ct. at 2713-14—in a case that
had been the subject of appellate review in the
court of appeals and the Supreme Court for several
years with respect to a sentence originally imposed
on the defendant in 2013 and reimposed in 2017,
see Richardson I, 906 F.3d at 421-22. Nonetheless,
the Supreme Court denied further review after the
Sixth Circuit, following the Richardson II remand,
concluded that retroactive FSA relief was unavailable to Richardson because “[i]n the general con-

148a
text of criminal sentencing, a sentence is ‘imposed’
when the trial court announces it, not when the
defendant has exhausted his appeals from the trial
court’s judgment,” United States v. Richardson,
948 F.3d 733, 748 (6th Cir.) (“Richardson III”), cert.
denied, 141 S. Ct. 344 (2020) (“Richardson IV”).
In Brown, we quoted the Davis Court’s “ ‘changed
the law . . . going forward’” language, but we also
stated that “at the resentencing, which will occur
as a result of our remand, Brown will have the
opportunity to argue that he is nevertheless entitled to benefit from section 403(b) of the [FSA].”
935 F.3d at 45 n.1. Here too, as we have reversed
defendants’ convictions on Count 2 and are
remanding for resentencing, we leave it to the district court in the first instance to consider the
applicability of the First Step Act to McCoy and
Nix in light of the possible temporal limitation on
retroactivity dictated by Congress’s reference to
the time when a sentence was “imposed.” We also
note that although Nix adopts without elaboration
the arguments made by McCoy for First Step Act
relief, the results might not be the same for both
defendants because, leaving aside common questions as to the FSA’s temporal applicability, differences in the criminal records of McCoy and Nix (see
Part I.E. above) may dictate different outcomes.
CONCLUSION
We have considered all of defendants’ arguments
on these appeals and, except as indicated above,
have found them to be without merit. Defendants’

149a
convictions on Count 2 are reversed; their convictions on all other counts are affirmed. The matter
is remanded for dismissal of Count 2 and for resentencing, including consideration by the district
court of the First Step Act.
Should any appeal ensue after resentencing,
either party may restore our jurisdiction pursuant
to the procedure outlined in United States v. Jacobson, 15 F.3d 19, 22 (2d Cir. 1994), in which event
the appeal will be referred to this panel.

150a
THURSDAY, MARCH 19, 2020
ORDER
In light of the ongoing public health concerns
relating to COVID-19, the following shall apply to
cases prior to a ruling on a petition for a writ of certiorari:
IT IS ORDERED that the deadline to file any petition for a writ of certiorari due on or after the date
of this order is extended to 150 days from the date
of the lower court judgment, order denying discretionary review, or order denying a timely petition
for rehearing. See Rules 13.1 and 13.3.
IT IS FURTHER ORDERED that motions for extensions of time pursuant to Rule 30.4 will ordinarily
be granted by the Clerk as a matter of course if the
grounds for the application are difficulties relating
to COVID-19 and if the length of the extension
requested is reasonable under the circumstances.
Such motions should indicate whether the opposing
party has an objection.
IT IS FURTHER ORDERED that, notwithstanding
Rules 15.5 and 15.6, the Clerk will entertain
motions to delay distribution of a petition for writ
of certiorari where the grounds for the motion are
that the petitioner needs additional time to file a
reply due to difficulties relating to COVID-19. Such
motions will ordinarily be granted by the Clerk as
a matter of course if the length of the extension
requested is reasonable under the circumstances

151a
and if the motion is actually received by the Clerk
at least two days prior to the relevant distribution
date. Such motions should indicate whether the
opposing party has an objection.
IT IS FURTHER ORDERED that these modifications to the Court’s Rules and practices do not
apply to cases in which certiorari has been granted
or a direct appeal or original action has been set for
argument.
These modifications will remain in effect until
further order of the Court.

152a
18 U.S. Code § 924 – Penalties
(a)
(1) Except as otherwise provided in this subsection,
subsection (b), (c), (f), or (p) of this section, or in
section 929, whoever—
(A)
knowingly makes any false statement or representation with respect to the information required by
this chapter to be kept in the records of a person
licensed under this chapter or in applying for any
license or exemption or relief from disability under
the provisions of this chapter;
(B)
knowingly violates subsection (a)(4), (f), (k), or (q)
of section 922;
(C)
knowingly imports or brings into the United States
or any possession thereof any firearm or ammunition in violation of section 922(l); or
(D)
willfully violates any other provision of this chapter, shall be fined under this title, imprisoned not
more than five years, or both.
(2)
Whoever knowingly violates subsection (a)(6), (d),
(g), (h), (i), (j), or (o) of section 922 shall be fined as
provided in this title, imprisoned not more than 10
years, or both.

153a
(3) Any licensed dealer, licensed importer, licensed
manufacturer, or licensed collector who knowingly
—
(A)
makes any false statement or representation with
respect to the information required by the provisions of this chapter to be kept in the records of a
person licensed under this chapter, or
(B)
violates subsection (m) of section 922, shall be
fined under this title, imprisoned not more than
one year, or both.
(4)
Whoever violates section 922(q) shall be fined
under this title, imprisoned for not more than 5
years, or both. Notwithstanding any other provision of law, the term of imprisonment imposed
under this paragraph shall not run concurrently
with any other term of imprisonment imposed
under any other provision of law. Except for the
authorization of a term of imprisonment of not
more than 5 years made in this paragraph, for the
purpose of any other law a violation of section
922(q) shall be deemed to be a misdemeanor.
(5)
Whoever knowingly violates subsection (s) or (t) of
section 922 shall be fined under this title, imprisoned for not more than 1 year, or both.

154a
(6)
(A)
(i)
A juvenile who violates section 922(x) shall be fined
under this title, imprisoned not more than 1 year,
or both, except that a juvenile described in clause
(ii) shall be sentenced to probation on appropriate
conditions and shall not be incarcerated unless the
juvenile fails to comply with a condition of probation.
(ii) A juvenile is described in this clause if—
(I)
the offense of which the juvenile is charged is possession of a handgun or ammunition in violation of
section 922(x)(2); and
(II)
the juvenile has not been convicted in any court of
an offense (including an offense under section
922(x) or a similar State law, but not including any
other offense consisting of conduct that if engaged
in by an adult would not constitute an offense) or
adjudicated as a juvenile delinquent for conduct
that if engaged in by an adult would constitute an
offense.
(B) A person other than a juvenile who knowingly
violates section 922(x)—
(i)
shall be fined under this title, imprisoned not more
than 1 year, or both; and

155a
(ii)
if the person sold, delivered, or otherwise transferred a handgun or ammunition to a juvenile
knowing or having reasonable cause to know that
the juvenile intended to carry or otherwise possess
or discharge or otherwise use the handgun or
ammunition in the commission of a crime of violence, shall be fined under this title, imprisoned
not more than 10 years, or both.
(7)
Whoever knowingly violates section 931 shall be
fined under this title, imprisoned not more than 3
years, or both.
(b)
Whoever, with intent to commit therewith an
offense punishable by imprisonment for a term
exceeding one year, or with knowledge or reasonable cause to believe that an offense punishable by
imprisonment for a term exceeding one year is to be
committed therewith, ships, transports, or receives
a firearm or any ammunition in interstate or foreign commerce shall be fined under this title, or
imprisoned not more than ten years, or both.
(c)
(1)
(A) Except to the extent that a greater minimum
sentence is otherwise provided by this subsection
or by any other provision of law, any person who,
during and in relation to any crime of violence or

156a
drug trafficking crime (including a crime of violence or drug trafficking crime that provides for an
enhanced punishment if committed by the use of a
deadly or dangerous weapon or device) for which
the person may be prosecuted in a court of the
United States, uses or carries a firearm, or who, in
furtherance of any such crime, possesses a firearm,
shall, in addition to the punishment provided for
such crime of violence or drug trafficking crime—
(i)
be sentenced to a term of imprisonment of not less
than 5 years;
(ii)
if the firearm is brandished, be sentenced to a term
of imprisonment of not less than 7 years; and
(iii)
if the firearm is discharged, be sentenced to a term
of imprisonment of not less than 10 years.
(B) If the firearm possessed by a person convicted
of a violation of this subsection—
(i)
is a short-barreled rifle, short-barreled shotgun, or
semiautomatic assault weapon, the person shall be
sentenced to a term of imprisonment of not less
than 10 years; or
(ii)
is a machinegun or a destructive device, or is
equipped with a firearm silencer or firearm muf-

157a
fler, the person shall be sentenced to a term of
imprisonment of not less than 30 years.
(C) In the case of a violation of this subsection that
occurs after a prior conviction under this subsection has become final, the person shall—
(i)
be sentenced to a term of imprisonment of not less
than 25 years; and
(ii)
if the firearm involved is a machinegun or a
destructive device, or is equipped with a firearm
silencer or firearm muffler, be sentenced to imprisonment for life.
(D) Notwithstanding any other provision of law—
(i)
a court shall not place on probation any person convicted of a violation of this subsection; and
(ii)
no term of imprisonment imposed on a person
under this subsection shall run concurrently with
any other term of imprisonment imposed on the
person, including any term of imprisonment
imposed for the crime of violence or drug trafficking crime during which the firearm was used, carried, or possessed.
(2)
For purposes of this subsection, the term “drug
trafficking crime” means any felony punishable

158a
under the Controlled Substances Act (21 U.S.C.
801 et seq.), the Controlled Substances Import and
Export Act (21 U.S.C. 951 et seq.), or chapter 705 of
title 46.
(3) For purposes of this subsection the term “crime
of violence” means an offense that is a felony and—
(A)
has as an element the use, attempted use, or
threatened use of physical force against the person
or property of another, or
(B)
that by its nature, involves a substantial risk that
physical force against the person or property of
another may be used in the course of committing
the offense.
(4)
For purposes of this subsection, the term “brandish” means, with respect to a firearm, to display
all or part of the firearm, or otherwise make the
presence of the firearm known to another person,
in order to intimidate that person, regardless of
whether the firearm is directly visible to that person.
(5) Except to the extent that a greater minimum
sentence is otherwise provided under this subsection, or by any other provision of law, any person
who, during and in relation to any crime of violence
or drug trafficking crime (including a crime of violence or drug trafficking crime that provides for an

159a
enhanced punishment if committed by the use of a
deadly or dangerous weapon or device) for which
the person may be prosecuted in a court of the
United States, uses or carries armor piercing
ammunition, or who, in furtherance of any such
crime, possesses armor piercing ammunition, shall,
in addition to the punishment provided for such
crime of violence or drug trafficking crime or conviction under this section—
(A)
be sentenced to a term of imprisonment of not less
than 15 years; and
(B) if death results from the use of such ammunition—
(i)
if the killing is murder (as defined in section 1111),
be punished by death or sentenced to a term of
imprisonment for any term of years or for life; and
(ii)
if the killing is manslaughter (as defined in section
1112), be punished as provided in section 1112.
(d)
(1)
Any firearm or ammunition involved in or used in
any knowing violation of subsection (a)(4), (a)(6),
(f), (g), (h), (i), (j), or (k) of section 922, or knowing
importation or bringing into the United States or
any possession thereof any firearm or ammunition
in violation of section 922(l), or knowing violation

160a
of section 924, or willful violation of any other provision of this chapter or any rule or regulation
promulgated thereunder, or any violation of any
other criminal law of the United States, or any
firearm or ammunition intended to be used in any
offense referred to in paragraph (3) of this subsection, where such intent is demonstrated by clear
and convincing evidence, shall be subject to seizure
and forfeiture, and all provisions of the Internal
Revenue Code of 1986 relating to the seizure, forfeiture, and disposition of firearms, as defined in
section 5845(a) of that Code, shall, so far as applicable, extend to seizures and forfeitures under the
provisions of this chapter: Provided, That upon
acquittal of the owner or possessor, or dismissal of
the charges against him other than upon motion of
the Government prior to trial, or lapse of or court
termination of the restraining order to which he is
subject, the seized or relinquished firearms or
ammunition shall be returned forthwith to the
owner or possessor or to a person delegated by the
owner or possessor unless the return of the
firearms or ammunition would place the owner or
possessor or his delegate in violation of law. Any
action or proceeding for the forfeiture of firearms
or ammunition shall be commenced within one
hundred and twenty days of such seizure.
(2)
(A)
In any action or proceeding for the return of
firearms or ammunition seized under the provi-

161a
sions of this chapter, the court shall allow the prevailing party, other than the United States, a reasonable attorney’s fee, and the United States shall
be liable therefor.
(B)
In any other action or proceeding under the provisions of this chapter, the court, when it finds that
such action was without foundation, or was initiated vexatiously, frivolously, or in bad faith, shall
allow the prevailing party, other than the United
States, a reasonable attorney’s fee, and the United
States shall be liable therefor.
(C)
Only those firearms or quantities of ammunition
particularly named and individually identified as
involved in or used in any violation of the provisions of this chapter or any rule or regulation
issued thereunder, or any other criminal law of the
United States or as intended to be used in any
offense referred to in paragraph (3) of this subsection, where such intent is demonstrated by clear
and convincing evidence, shall be subject to
seizure, forfeiture, and disposition.
(D)
The United States shall be liable for attorneys’ fees
under this paragraph only to the extent provided in
advance by appropriation Acts.
(3) The offenses referred to in paragraphs (1) and
(2)(C) of this subsection are—

162a
(A)
any crime of violence, as that term is defined in
section 924(c)(3) of this title;
(B)
any offense punishable under the Controlled Substances Act (21 U.S.C. 801 et seq.) or the Controlled Substances Import and Export Act (21
U.S.C. 951 et seq.);
(C)
any offense described in section 922(a)(1),
922(a)(3), 922(a)(5), or 922(b)(3) of this title, where
the firearm or ammunition intended to be used in
any such offense is involved in a pattern of activities which includes a violation of any offense
described in section 922(a)(1), 922(a)(3), 922(a)(5),
or 922(b)(3) of this title;
(D)
any offense described in section 922(d) of this title
where the firearm or ammunition is intended to be
used in such offense by the transferor of such
firearm or ammunition;
(E)
any offense described in section 922(i), 922(j),
922(l), 922(n), or 924(b) of this title; and
(F)
any offense which may be prosecuted in a court of
the United States which involves the exportation of
firearms or ammunition.

163a
(e)
(1)
In the case of a person who violates section 922(g)
of this title and has three previous convictions by
any court referred to in section 922(g)(1) of this
title for a violent felony or a serious drug offense,
or both, committed on occasions different from one
another, such person shall be fined under this title
and imprisoned not less than fifteen years, and,
notwithstanding any other provision of law, the
court shall not suspend the sentence of, or grant a
probationary sentence to, such person with respect
to the conviction under section 922(g).
(2) As used in this subsection—
(A) the term “serious drug offense” means—
(i)
an offense under the Controlled Substances Act (21
U.S.C. 801 et seq.), the Controlled Substances
Import and Export Act (21 U.S.C. 951 et seq.), or
chapter 705 of title 46 for which a maximum term
of imprisonment of ten years or more is prescribed
by law; or
(ii)
an offense under State law, involving manufacturing, distributing, or possessing with intent to manufacture or distribute, a controlled substance (as
defined in section 102 of the Controlled Substances
Act (21 U.S.C. 802)), for which a maximum term of

164a
imprisonment of ten years or more is prescribed by
law;
(B) the term “violent felony” means any crime punishable by imprisonment for a term exceeding one
year, or any act of juvenile delinquency involving
the use or carrying of a firearm, knife, or destructive device that would be punishable by imprisonment for such term if committed by an adult, that—
(i)
has as an element the use, attempted use, or
threatened use of physical force against the person
of another; or
(ii)
is burglary, arson, or extortion, involves use of
explosives, or otherwise involves conduct that presents a serious potential risk of physical injury to
another; and
(C)
the term “conviction” includes a finding that a person has committed an act of juvenile delinquency
involving a violent felony.
(f)
In the case of a person who knowingly violates section 922(p), such person shall be fined under this
title, or imprisoned not more than 5 years, or both.
(g) Whoever, with the intent to engage in conduct
which—

165a
(1)
constitutes an offense listed in section 1961(1),
(2)
is punishable under the Controlled Substances Act
(21 U.S.C. 801 et seq.), the Controlled Substances
Import and Export Act (21 U.S.C. 951 et seq.), or
chapter 705 of title 46,
(3)
violates any State law relating to any controlled
substance (as defined in section 102(6) of the Controlled Substances Act (21 U.S.C. 802(6))), or
(4)
constitutes a crime of violence (as defined in subsection (c)(3)), travels from any State or foreign
country into any other State and acquires, transfers, or attempts to acquire or transfer, a firearm in
such other State in furtherance of such purpose,
shall be imprisoned not more than 10 years, fined
in accordance with this title, or both.
(h)
Whoever knowingly transfers a firearm, knowing
that such firearm will be used to commit a crime of
violence (as defined in subsection (c)(3)) or drug
trafficking crime (as defined in subsection (c)(2))
shall be imprisoned not more than 10 years, fined
in accordance with this title, or both.

166a
(i)
(1)
A person who knowingly violates section 922(u)
shall be fined under this title, imprisoned not more
than 10 years, or both.
(2)
Nothing contained in this subsection shall be construed as indicating an intent on the part of Congress to occupy the field in which provisions of this
subsection operate to the exclusion of State laws on
the same subject matter, nor shall any provision of
this subsection be construed as invalidating any
provision of State law unless such provision is
inconsistent with any of the purposes of this subsection.
(j) A person who, in the course of a violation of subsection (c), causes the death of a person through
the use of a firearm, shall—
(1)
if the killing is a murder (as defined in section
1111), be punished by death or by imprisonment for
any term of years or for life; and
(2)
if the killing is manslaughter (as defined in section
1112), be punished as provided in that section.
(k) A person who, with intent to engage in or to
promote conduct that—

167a
(1)
is punishable under the Controlled Substances Act
(21 U.S.C. 801 et seq.), the Controlled Substances
Import and Export Act (21 U.S.C. 951 et seq.), or
chapter 705 of title 46;
(2)
violates any law of a State relating to any controlled substance (as defined in section 102 of the
Controlled Substances Act, 21 U.S.C. 802); or
(3)
constitutes a crime of violence (as defined in subsection (c)(3)), smuggles or knowingly brings into
the United States a firearm, or attempts to do so,
shall be imprisoned not more than 10 years, fined
under this title, or both.
(l)
A person who steals any firearm which is moving
as, or is a part of, or which has moved in, interstate
or foreign commerce shall be imprisoned for not
more than 10 years, fined under this title, or both.
(m)
A person who steals any firearm from a licensed
importer, licensed manufacturer, licensed dealer,
or licensed collector shall be fined under this title,
imprisoned not more than 10 years, or both.
(n)
A person who, with the intent to engage in conduct
that constitutes a violation of section 922(a)(1)(A),

168a
travels from any State or foreign country into any
other State and acquires, or attempts to acquire, a
firearm in such other State in furtherance of such
purpose shall be imprisoned for not more than 10
years.
(o)
A person who conspires to commit an offense under
subsection (c) shall be imprisoned for not more
than 20 years, fined under this title, or both; and if
the firearm is a machinegun or destructive device,
or is equipped with a firearm silencer or muffler,
shall be imprisoned for any term of years or life.
(p) PENALTIES RELATING TO SECURE GUN STORAGE OR S AFETY D EVICE .—
(1) IN

GENERAL .—

(A) Suspension or revocation of license; civil penalties.—With respect to each violation of section
922(z)(1) by a licensed manufacturer, licensed
importer, or licensed dealer, the Secretary may,
after notice and opportunity for hearing—
(i)
suspend for not more than 6 months, or revoke, the
license issued to the licensee under this chapter
that was used to conduct the firearms transfer; or
(ii)
subject the licensee to a civil penalty in an amount
equal to not more than $2,500.

169a
(B) Review.—
An action of the Secretary under this paragraph
may be reviewed only as provided under section
923(f).
(2) ADMINISTRATIVE

REMEDIES .—

The suspension or revocation of a license or the
imposition of a civil penalty under paragraph (1)
shall not preclude any administrative remedy that
is otherwise available to the Secretary.

170a
18 U.S. Code § 1951 –
Interference with commerce
by threats or violence
(a)
Whoever in any way or degree obstructs, delays, or
affects commerce or the movement of any article or
commodity in commerce, by robbery or extortion or
attempts or conspires so to do, or commits or
threatens physical violence to any person or property in furtherance of a plan or purpose to do anything in violation of this section shall be fined
under this title or imprisoned not more than twenty years, or both.
(b) As used in this section—
(1)
The term “robbery” means the unlawful taking or
obtaining of personal property from the person or
in the presence of another, against his will, by
means of actual or threatened force, or violence, or
fear of injury, immediate or future, to his person or
property, or property in his custody or possession,
or the person or property of a relative or member of
his family or of anyone in his company at the time
of the taking or obtaining.
(2)
The term “extortion” means the obtaining of property from another, with his consent, induced by
wrongful use of actual or threatened force, violence, or fear, or under color of official right.

171a
(3)
The term “commerce” means commerce within the
District of Columbia, or any Territory or Possession
of the United States; all commerce between any
point in a State, Territory, Possession, or the District of Columbia and any point outside thereof; all
commerce between points within the same State
through any place outside such State; and all other
commerce over which the United States has jurisdiction.
(c)
This section shall not be construed to repeal, modify or affect section 17 of Title 15, sections 52, 101–
115, 151–166 of Title 29 or sections 151–188 of
Title 45.

